      REDACTED FOR PUBLIC RELEASE




SENTINEL AUDIT III: STATUS OF
   THE FEDERAL BUREAU OF
    INVESTIGATION’S CASE
     MANAGEMENT SYSTEM
        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 07-40
              August 2007




      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



  SENTINEL AUDIT III: STATUS OF THE FEDERAL BUREAU OF
      INVESTIGATION’S CASE MANAGEMENT SYSTEM*

                         EXECUTIVE SUMMARY

      In March 2006, the Federal Bureau of Investigation (FBI)
announced that it had awarded a contract to Lockheed Martin Services,
Incorporated (Lockheed Martin) to develop the Sentinel information
and case management system. The cost of the four phases of the
Lockheed contract was $305 million, and the FBI estimated that it
would cost an additional $120 million to staff and administer the FBI’s
Sentinel Program Management Office (PMO), with the total estimated
cost of Sentinel at $425 million. The initial schedule for the Lockheed
Martin contract called for all phases to be completed in December
2009.

      On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel to provide FBI employees with user-friendly,
web-based access to information currently in the FBI’s antiquated
Automated Case Support (ACS) system and improved search
capabilities. 1 Phase 1 of Sentinel features a personal workbox, which
summarizes a user’s cases and leads, and a squad workbox, which
allows supervisors to better manage resources and make
assignments. 2

      The Sentinel project integrates commercial off-the-shelf (COTS)
components and eventually is intended to provide the FBI with an
electronic information management system, automated workflow
processes, search capabilities, and information sharing with other law
enforcement agencies and the intelligence community. The FBI
Director has stated that, “Sentinel will strengthen the FBI’s capabilities
by replacing its primarily paper-based reporting system with an
electronic system designed for information sharing. Sentinel will

       * The full version of this report included information that the FBI considered
to be sensitive proprietary information. To create this public version of the report,
the OIG redacted (deleted) the sensitive portions and noted that the information was
redacted.
       1
         ACS is the FBI’s current case management system. Deployed in 1995, ACS
is a mainframe computer system.
       2
          A lead is a request from any FBI field office or headquarters for assistance
in the investigation of a case.

                                          -i-

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


support our current priorities, including our number one priority:
preventing terrorist attacks.” 3

Audit Approach
      The Office of the Inspector General (OIG) is performing audits of
the Sentinel project at the request of the FBI Director and
congressional appropriations and oversight committees. This audit is
the third in a series of audits on Sentinel that the OIG intends to
conduct to evaluate Sentinel’s progress and implementation. The
objectives of this third audit were to evaluate: (1) the status of the
project, including the FBI’s monitoring of the contractor’s performance
during Phase 1, (2) the planning for and progress of Phase 2, and
(3) the resolution of concerns identified in our two previous Sentinel
audits. 4 Future OIG audits will continue to examine the progress of
Sentinel over its remaining phases and assess whether Sentinel’s cost,
schedule, performance, and technical benchmarks are being met. 5

OIG Audit Results in Brief

       Phase 1 of Sentinel, which was completed on June 19, 2007,
delivered two key project components: a web-based portal to ACS
and workboxes that summarize case information. The user
friendliness of the portal and workboxes should enhance access to
information and case management within the FBI. The FBI deferred
one deliverable initially planned for Phase 1 because it would be more
technically feasible to accomplish it in Phase 2, and the FBI did not
clearly articulate which components of another deliverable would be
accomplished in Phase 1 and which components would be
accomplished in later project phases. While we cannot yet assess the

       3
        FBI Press Release entitled FBI Announces Award of Sentinel Contract,
March 16, 2006.
       4
         See Department of Justice Office of the Inspector General, The Federal
Bureau of Investigation’s Pre-Acquisition Planning For and Controls Over the Sentinel
Case Management System, Audit Report Number 06-14, March 2006; and
Department of Justice, Office of the Inspector General, Sentinel Audit II: Status of
the Federal Bureau of Investigation’s Case Management System, Audit Report
Number 07-03, December 2006.
       5
          Although we originally intended to cover the early stages of Phase 2 of
Sentinel in this report, Phase 2 had not yet begun when our audit fieldwork was
completed in May 2007. However, we evaluated the impact the FBI’s experience
with Phase 1 had on how the FBI plans to approach Phase 2. We will evaluate
progress under Phase 2 of the project in our next audit.

                                        - ii -

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


full impact of completing an original Phase 1 deliverable in a
subsequent project phase, some future cost and schedule pressures
may result. In addition, we question why cost adjustments did not
occur in Phase 1 due to reduced requirements.

      In addition, Phase 1 was completed in about 14 months instead
of the planned 12 months. Our audit found the following four primary
causes for this short delay: (1) an unrealistic schedule, (2) delays by
Lockheed Martin in fully staffing the project with appropriately
experienced personnel, (3) challenges in integrating the various COTS
software components to work as a system, and (4) problems in
assessing the project’s progress against the approved schedule.

       Our audit found that one of the four deliverables initially planned
for completion in Phase 1 was deferred to Phase 2: cleansing the data
in the electronic case file module of ACS so that the data is in a
uniform format for eventual transfer (migration) to Sentinel. As the
Sentinel project progressed, the FBI determined that the data
cleansing planned for Phase 1 posed significant risks to the integrity of
the data and should be moved to Phase 2. In addition, the FBI did not
adequately define one of the four Phase 1 deliverables, the
foundational components of a service-oriented architecture. 6 Because
the FBI’s expectations for implementing a service-oriented architecture
in Phase 1 were vague, we could not assess whether Phase 1 achieved
its objectives in this area. FBI officials said that Phase 1 delivered an
enterprise service bus, which they said was the only foundational
component of a service-oriented architecture that was appropriate for
this initial phase of the project. 7

      Our audit also found that the costs for the Sentinel project have
increased a small amount from the initial estimates for Phase 1. As a
result of a series of contract modifications, some of which pre-
purchased software for Phase 2, the budget for the Phase 1, including
award fees, increased from $57.2 to $59.7 million. However, the
overall contract value of $305 million did not change. Lockheed Martin
also estimates that its costs exceeded the revised contract amount by
approximately $4.4 million due to requirements the FBI added but did

       6
          A service-oriented architecture is a software design approach in which
software components, called services, can be re-used by multiple software
applications.
       7
       An enterprise service bus is software “middleware” that connects software
components and allows the components to communicate with each other.

                                        - iii -

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


not include in contract modifications. However, both parties agreed
that Lockheed Martin would be paid the $59.7 million amount in the
revised budget, which includes the $2 million budgeted for award
fees. 8 Over the course of Phase 1, the FBI deferred a total of 57
mostly low-level requirements from Phase 1 to later phases because
they were outside of the scope of Phase 1, did not add value to Phase
1, or required the modification of ACS. Despite the somewhat
decreased functionality Lockheed Martin was required to deliver in
Phase 1, none of these deferrals resulted in a decrease in the cost of
Phase 1.

      At the time of our audit, the FBI’s activities for Phase 2 of the
Sentinel project were limited to planning for that phase. However, we
believe the FBI gained valuable experience during Phase 1, and the
lessons learned can improve the implementation of Sentinel’s
remaining phases. Based primarily on the FBI’s experience in dealing
with the legacy ACS system during Phase 1 of the project, the FBI has
begun to reexamine whether dividing development and
implementation of Sentinel into four phases was still the most effective
way to manage the work on the project. When our audit concluded in
May 2007, the FBI had not yet decided on the number of remaining
phases or the content of them.

      Since the project began, the FBI has implemented several
management controls and processes designed to help it adequately
manage the development of Sentinel and bring it to a successful
conclusion. We reviewed four of these controls and processes in-
depth: (1) earned value management, (2) independent verification
and validation, (3) risk management, and (4) bill of materials. We
found that the FBI has made significant progress in each of the four,
but that additional progress needs to be made in the implementation
of earned value management, risk management, and the bill of
materials. In our opinion, if implemented correctly these processes
and controls can provide reasonable assurance of project success.

       However, while the FBI has implemented earned value
management to monitor Sentinel, the quality of Lockheed Martin’s cost
data concerns us and the FBI. For example, when Lockheed Martin
notified the FBI that its costs exceeded the revised budget by $4.4

       8
          Lockheed Martin did not receive an award fee. Instead, the FBI allowed
Lockheed Martin to transfer the $2 million budgeted for the award fee to the cost
portion of the budget to cover the cost overruns.

                                        - iv -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


million, Lockheed Martin’s earned value management data continued
to show that Lockheed Martin was within budget on the project.

       The FBI also has created a list of 16 risks it is monitoring that
are associated with the Sentinel project. While the FBI’s establishment
of a risk management program is a positive step, we have several
concerns with the program’s implementation, including irregular
review of the risks, a lack of contingency plans, and incomplete plans
to mitigate identified risks. We are also concerned that the personnel
assigned to manage these risks may not have sufficient time or
expertise to adequately develop and implement a strategy to reduce
the risks Sentinel faces.

      Our audit also determined that the FBI has made good progress
in addressing most of the concerns we identified in our two previous
audits of the Sentinel project. Five of the 12 recommendations made
in our prior reports have been closed, and the FBI is in the process of
taking action to close the remaining recommendations. For example,
in addressing one of our key recommendations, the FBI developed a
plan and hired a contractor to perform independent verification and
validation of the project’s development. To close the remaining
recommendations, the FBI must complete system security and training
plans, fully staff the PMO, determine the appropriate amount of
management reserve for the phases of Sentinel, and develop adequate
contingency plans for Sentinel. We will continue to monitor the FBI’s
progress in implementing the remaining open recommendations.

      In sum, the first phase of the Sentinel project is complete,
although with some difficulty and without providing all of the
deliverables originally intended for this phase of the project.
Moreover, the most difficult portions of the project lay ahead. As
Sentinel progresses, the FBI must ensure the deliverables for each
phase are clearly documented and communicated to FBI management
and oversight entities. We believe that the lessons learned during
Phase 1, combined with the processes the FBI has established to
manage and control the Sentinel project, can help provide reasonable
assurance of Sentinel’s ultimate success. However, rigorous
implementation of processes and lessons learned is necessary to
minimize any significant deviations from cost, schedule, technical, or
performance baselines.




                                  -v-

                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


Background

       The Sentinel project follows the FBI’s unsuccessful 3-year, $170
million effort to develop a modern investigative case management
system called the Virtual Case File as part of the FBI’s Trilogy
information technology (IT) modernization project. The Virtual Case
File originally was intended to provide the FBI with a modern system
so that the existing obsolete ACS system could be retired. During
multiple OIG reviews over the past several years, we reported that
ACS uses outmoded technology, is cumbersome to operate, and does
not provide necessary workflow and information-sharing functions.

      The Sentinel contract, awarded in March 2006 to Lockheed
Martin through a government-wide acquisition contract, is a cost-plus-
award-fee contract that uses task orders to complete work for each
phase of the project. 9 The cost of the original task order for Phase 1
of Sentinel was $57 million. According to the contract, the FBI may
exercise options for $248 million to cover three additional phases of
the project and future operations and maintenance costs. Under the
terms of the contract, Lockheed Martin can also be rewarded for
meeting established goals in four areas: project management, cost
management, schedule, and technical performance. This type of
contract and award fee structure is common for large government IT
projects.

       While this type of contract proved problematic under Trilogy, our
two prior Sentinel audits found that the FBI has made considerable
progress in establishing controls and processes required to adequately
manage a major IT development project such as Sentinel and to bring
it to a successful conclusion – if the processes are followed and
controls are implemented as intended. As we reported in each of our
two previous Sentinel audits, we believe the FBI is establishing clear
milestones and requiring critical decision review points in managing
this contract. For instance, if the contractor does not meet its
milestones, it is penalized by loss of the award fee.

      The FBI’s initial plan called for implementing Sentinel’s 4 phases
over 45 months, with each phase providing distinct capabilities until
the project is fully functional in December 2009. Originally, the FBI

       9
         An award fee is a financial incentive provided to a contractor based on the
contractor’s performance. A task order specifies the services required and the
negotiated terms at which they will be provided, subject to the terms of the contract.

                                        - vi -

                     REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


expected to complete each of the phases in 12 to 16 months. As
discussed later in this report, however, the FBI is now considering a
modification of the four-phase approach based on its experience with
the first phase.

     According to the FBI, the four phases will provide the following
capabilities:

     •   Phase 1 introduces the Sentinel portal to provide access to
         data from the existing ACS system and eventually, through
         incremental changes in subsequent project phases, will
         support access to the newly created investigative case
         management system. Phase 1 also provides a case
         management personal workbox that presents a summary of
         all cases in which the user is involved, rather than requiring
         the user to perform a series of queries to find the cases as is
         necessary in the ACS system. In addition, a squad workbox
         will facilitate management of cases. The Findings and
         Recommendations section of this report contains a more
         comprehensive discussion of the Phase 1 deliverables.

     •   Phase 2 will begin the transition to a paperless case records
         system by providing electronic case document management
         and a records repository. A workflow tool will support the
         movement of electronic case files through the review and
         approval process, while a security framework will provide
         access controls and electronic signatures.

     •   Phase 3 will provide a new Universal Index, which is a
         database of people, places, or things that relate to a case.
         Expanding the number of attributes in the system will enable
         more precise searching and will enhance FBI employees’
         ability to “connect the dots” among various pieces of
         information and cases.

     •   Phase 4 will implement Sentinel’s new case management and
         reporting capabilities, including the management of tasks and
         evidence. During this phase, Sentinel will be connected to
         ACS, data on closed cases will be migrated from ACS to
         Sentinel, and the process to retire ACS will begin.




                                  - vii -

                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



Phase 1 Schedule, Cost and Performance

       When Lockheed Martin delivered Phase 1 of Sentinel on June 19,
2007, 2 months behind the proposed schedule, the revised contract
amount had increased from $57.2 million to $59.7 million due to an
overall increase in the scope of work, including pre-purchasing
software for Phase 2. However, Lockheed Martin’s costs exceeded the
revised contract amount – including $2 million budgeted for award
fees – by approximately $4.4 million. Lockheed Martin and the FBI
agreed that Lockheed Martin would only be paid $59.7 million, the
amount of the revised budget, rather than being paid the entire $4.4
million overage. FBI officials stated that the net project cost remained
the same due to offsetting adjustments to the Phase 1 and Phase 2
budgets, and there was no change in the overall contract value.

       At the conclusion of Phase 1, Lockheed Martin delivered two key
deliverables: a web-based portal to ACS and case management
workboxes. The FBI deferred to Phase 2 another deliverable, the
cleansing of data in ACS’s electronic case file module for migration into
Sentinel. As a result of deferring this deliverable to Phase 2, Sentinel’s
total costs may be higher than currently projected. The FBI’s
expectations for implementing a service-oriented architecture in Phase
1 were vague, so we could not fully assess whether Phase 1 achieved
its objectives in this area. However, the FBI’s explanation that the
enterprise service bus was the only appropriate component of a
service-oriented architecture for Phase 1 appears reasonable, and that
component was delivered.

Schedule Delay

      Our audit found the following four primary causes for the
2-month delay in the delivery of Phase 1: (1) an unrealistic schedule,
(2) delays by Lockheed Martin in fully staffing the project with
appropriately experienced personnel, (3) challenges in integrating the
various COTS software components to work as a system, and
(4) problems in assessing the project’s progress against the approved
schedule. 10



       10
           Although we view the schedule as unrealistic, FBI officials in commenting
on a draft of this report stated that they would describe the schedule as aggressive,
rather than unrealistic, because had Lockheed Martin been able to provide adequate
staffing from the beginning, the 12-month schedule might have been met.
                                          - viii -

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE




       Unrealistic Schedule

       According to FBI officials, Lockheed Martin based its Phase 1
project schedule on the FBI’s proposed notional, or hypothetical,
schedule created prior to formally soliciting proposals for development
of Sentinel. That schedule divided the project into four phases,
identified deliverables for each phase, and provided an estimated
timeline for completion of each phase. While information the FBI
provided potential vendors advised that they were free to propose a
different number of phases or change the deliverables of each phase,
vendors still had to meet the FBI’s target completion date of 2009. In
addition to broad outlines of the project’s overall schedule, the FBI
also dictated certain project milestones in the Sentinel Statement of
Work. The Sentinel Program Manager told us that, in retrospect, the
timeframes outlined in the Statement of Work were overly aggressive
because they did not allow Lockheed Martin adequate time to staff the
project.

       Delays in Staffing

       Almost immediately following the contract award, Lockheed
Martin fell behind in its projected staffing levels. The FBI attributed
this to the difficulty in hiring qualified personnel with top secret
clearances and personnel costs 25 to 40 percent higher than Lockheed
Martin projections. A 6-month suspension in processing security
clearances for government contractors shortly after the Sentinel
contract was awarded also depleted the supply of cleared contractor
personnel and increased the cost of hiring those who were available. 11

      In addition, Lockheed Martin and the FBI also underestimated
the level of expertise in integrating COTS software that personnel
would need for the Sentinel project. In a January 2007 briefing to the
FBI’s Associate Deputy Director, the Sentinel Program Manager said
that both the FBI and Lockheed Martin based their original personnel
cost estimates on the assumption that most of the work could be
completed by recent college graduates, an approach Lockheed Martin
had successfully used on a large scale information technology project

       11
           According to the FBI, shortly after the Sentinel contract was awarded the
Defense Security Service, the organization responsible for performing background
investigations and granting clearances, suspended its processing of clearances for all
government contractors for 6 months due to significant backlogs.
                                          - ix -

                     REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


at the Social Security Administration. However, several PMO and FBI
Chief Information Office personnel said that throughout Phase 1 of
Sentinel, the level of expertise required of the Lockheed Martin staff to
deal with Sentinel’s COTS software was not sufficient for the project,
although they said that Lockheed Martin eventually added the required
expertise. FBI officials said the quality of the Lockheed Martin staff
had improved during the first phase, but that additional improvements
need to be made if the subsequent phases of the project are going to
be successful. Other FBI officials said, however, that Lockheed Martin
should have considered contracting with the software manufacturers
who developed the most challenging pieces of software to help with
implementation.

      Challenges of Integrating the Software

      Several PMO officials, including the Sentinel Program Manager
and Lockheed Martin’s Deputy Project Manager, stated that integrating
the various commercial off-the-shelf software modules that comprise
Phase 1 of Sentinel into a system that functions as intended was a
major challenge. For example, analyzing why a particular software
problem occurred within such an integrated system was difficult due to
the number of variables in complex systems such as Sentinel. The
COTS software used in Sentinel is so complex that the Lockheed Martin
Project Manger said that it is virtually impossible to complete a COTS-
based system without hands-on experience with its component
software packages. Another factor that compounded the general
challenge of COTS integration was that Sentinel is based on cutting-
edge software, some of which had bugs. In at least one case, the
software manufacturer was not aware of a problem until notified by
the FBI and Lockheed Martin. Because this was a new bug, the
manufacturer had to research its cause and develop a solution before
Lockheed Martin could implement the software patch.

      Problems in Assessing Progress

      PMO personnel said that the methodology used by Lockheed
Martin to construct the Sentinel project’s schedule made it difficult to
assess the project’s progress. Specifically, they cited the following
concerns about the schedule:

      •   Overuse of “hard constraints.” Hard constraints are specific
          dates entered into a schedule that require a task to begin or
          end on that date, regardless of any other activity within the
          schedule. Hard constraints cloud an assessment of the
                                   -x-

                  REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


          impact of schedule slippages because the scheduling software
          will assume that the task met the constraint, regardless of
          whether or not it did. Lockheed Martin’s project schedule
          contained many hard constraints, which made assessing
          progress difficult.

      •   Logic problems. PMO officials said Lockheed Martin’s
          schedule did not always accurately reflect the
          interdependence between tasks, often linking some that were
          not interdependent and not linking others that were
          interdependent.

      •   High percentage of “level-of-effort” tasks. Some of the tasks
          in the development of an IT system are referred to as “level
          of effort,” meaning that progress toward completion of a task
          is measured by the passage of time rather than progress
          toward completing the task. Tasks that do not have a defined
          deliverable, such as project management, are often measured
          using level of effort. However, because level-of-effort tasks
          are not tied to discrete deliverables, it is difficult to determine
          how much their completion contributes to the overall progress
          of a project. As a result, it is prudent to have a schedule with
          as few level-of-effort tasks as possible. Lockheed Martin’s
          project schedule contained a significant number of level-of-
          effort tasks.

Cost and Deliverables

      The contract awarded to Lockheed Martin to develop Sentinel
represents about 72 percent of the total cost of the entire Sentinel
project, so Lockheed Martin’s ability to deliver its portion of Sentinel
within budget is critical to the cost performance of the overall Sentinel
project. As the result of a series of contract modifications, the value of
Lockheed Martin’s task order for Phase 1 increased from $57.2 million
at the time of the integrated baseline review (IBR) in May 2006 to
$59.7 million in March 2007. However, in June 2007 Lockheed Martin
advised the FBI that it had incurred costs totaling $64.1 million in the
performance of Phase 1. Lockheed Martin attributed the cost overruns
to unanticipated work in interfacing with existing FBI computer
systems and modifications to the FBI’s testing approach.

      However we found that three factors obscured a precise
accounting of Lockheed Martin’s cost performance. First, even though
the FBI transferred some Phase 1 requirements to later phases of the
                                    - xi -

                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


project, it received minimal cost reductions on Phase 1 from Lockheed
Martin for deferring completion of these requirements. Second, the
FBI did not adequately define the foundations of a service-oriented
architecture expected to be delivered in Phase 1 and did not tie all of
the deliverables to the requirements agreed upon for Phase 1, making
it difficult to evaluate what the Phase 1 budget was supposed to pay
for. Third, the FBI transferred $2.5 million in materials and services
from Lockheed Martin’s budget to the PMO’s budget and increased the
amount of equipment the FBI furnished for the project. As a result,
the amount paid to Lockheed Martin understates the cost of the work
Lockheed Martin was originally tasked with.

       Requirements Deferred

       Over the course of Phase 1, the FBI deferred a total of 57 mostly
low-level requirements from Phase 1 to later phases. 12 Despite
decreasing the amount of functionality Lockheed Martin was required
to deliver in Phase 1, none of these deferrals resulted in a decrease in
the cost of Phase 1. According to the FBI, it deferred most of the
57 requirements because it decided the requirement was outside of
the scope of Phase 1, did not add value to Phase 1, would require the
modification of ACS, or would duplicate a capability included in a
future phase of Sentinel. FBI officials said they did not believe it was
prudent to invest in upgrading ACS because Sentinel is intended to
replace it.

      We recognize that phased projects using COTS components
often transfer requirements from one phase to another and, in
general, we do not disagree with the FBI’s transfer of these
57 requirements. However, as noted previously, we are concerned
that the FBI did not require that Lockheed Martin determine the
financial impact of not doing this work in Phase 1 and adjust the cost
of Phase 1 accordingly.

       Phase 1 of Sentinel has delivered a web-based user interface to
ACS data, giving a much more modern look and feel to ACS data and
allowing users to navigate through the database using a mouse. For
example, users can view and download ACS documents. However,
this version of the web-based portal does not allow users to perform
all of the functions included in ACS, meaning that FBI personnel may

       12
          For example, the requirement that Sentinel be able to perform
unstructured searches against items collected during investigations was deferred
from Phase 1 to Phase 2.
                                        - xii -

                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


also need to continue using the old system as well. Because many of
the functions now performed by ACS will not be incorporated into
Sentinel until Phase 2, the Phase 1 web portal to ACS will be used only
until the completion of Phase 2.

       As a result, the FBI decided that duplicating all of ACS was not
cost effective and chose instead to include only the most frequently
used functions in the Phase 1 portal. FBI officials said they recognize
in retrospect that they overlooked some critical functions in the Phase
1 portal, such as the ability to upload documents into ACS, and that
Phase 1 should have incorporated those functions.

      Deliverables Ill-Defined

       Throughout the Sentinel project, FBI documents, including slides
from weekly briefings of the FBI Director, have shown four major
anticipated deliverables for Phase 1: (1) a web-based portal to ACS,
(2) a case workbox, (3) the foundational components of a service-
orientated architecture, and (4) data cleansing of the electronic case
file portion of ACS. As implemented, Phase 1 delivered the most
important deliverables, the ACS portal and case workbox. Because the
foundational components of a service-oriented architecture were ill-
defined, we could not evaluate the extent to which this deliverable was
achieved. However, FBI officials stated that the only component
applicable to Phase 1 was the enterprise service bus, which was
delivered. They said that the fourth planned deliverable, the data
cleansing of the electronic case file portion of ACS, was deferred
because it was more technically feasible to do so. 13 As Sentinel
progressed through the life cycle management process, the FBI’s
internal technical reports have noted this divergence from the original
set of deliverables.

      Neither the foundational components of a service-oriented
architecture nor the data cleansing of electronic case file data were
specified in the requirements for Phase 1, so the deferral of these
goals did not require the deferral of requirements. However, achieving
both of these goals may potentially require additional financial and
personnel resources. And as mentioned previously, deferral of these
goals did not result in a corresponding decrease in the Phase 1
contract amount.

      13
          See page 34 for a discussion of the common components of a service-
oriented architecture.

                                      - xiii -

                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



       The FBI’s Incremental Development Plan, which was provided to
all potential Sentinel bidders as a framework from which to describe
the intent of the Sentinel program, refers to a service-oriented
architecture framework and foundational services but does not define
these terms. The FBI said that as a result, it had no expectation that
Lockheed Martin would specifically address the commonly recognized
basic components of a service-oriented architecture in Phase 1.

       The Incremental Development Plan does not include any data
cleansing or data migration capabilities for Phase 1. Rather, the plan
states “There are no specific requirements for migration of case data in
Phase 1.” However, Lockheed Martin’s proposal included data
cleansing of electronic case file data as part of Phase 1 in preparation
for the data’s transfer, or migration, to the Sentinel database in Phase
2. The FBI subsequently agreed to Lockheed Martin’s data cleansing
approach and the proposed scope of the data cleansing efforts was
built into the project’s integrated master schedule. However, as stated
above, after further consideration the FBI deferred data cleansing until
Phase 2 because it had technical concerns with cleansing data in
advance of migrating it.

      While deferring the data cleansing to Phase 2 did not affect the
functionality of Phase 1, it pushed time-consuming activities into Phase
2 and the FBI did not adjust the Phase 2 end date. In addition, similar
to the deferral of requirements, the deferral of the data cleansing did
not result in a decrease in the amount of the Phase 1 contract.

      Costs Transferred

      Through a series of six contract modifications during Phase 1,
the FBI increased the total contract value of Phase 1 by $2.5 million,
from $57.2 million to $59.7 million. As expected in a project of
Sentinel’s size and complexity, some of the modifications increased the
scope of Phase 1, while others decreased it. However, the decreases
either transferred the cost for the tasks to the PMO budget or to the
amount budgeted for Lockheed Martin’s award fee. For example, in
March 2007 the FBI issued a modification which deleted $2.1 million
for tape silos from the Phase 1 contract. 14 Although the tape silos
were still necessary for Phase 1, the FBI purchased silos with more

      14
         A tape silo is computer hardware that uses tapes to store large amounts of
computer data.

                                      - xiv -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


storage capacity using funds from the PMO’s budget and used the
funds in the Lockheed Martin contract originally allocated to tape silos
to offset the cost of additions to the scope of Phase 1. FBI officials
stated that the various cost adjustments did not affect the overall
contract value of $305 million.

Phase 2 Planning and Project Management

        The FBI has implemented several management controls and
processes in addition to its life cycle management directive that are
designed to help it adequately manage the development of Sentinel
and bring it to a successful conclusion. In this audit, we reviewed four
of these controls and processes in depth: earned value management
(EVM), risk management, independent verification and validation, and
bill of materials. We concluded that the FBI has made significant
progress in each of the four areas, but that substantial additional
progress is needed in risk management and the bill of materials.

       In addition to these four areas, the FBI recognizes that the
lessons learned during Phase 1 will aid the FBI in its planning of
Phase 2. Although Phase 1 is complete, the most difficult portions of
Sentinel development and implementation lay ahead. To reduce the
risk to Phase 2 and subsequent phases of Sentinel, that the FBI must
implement corrective actions resulting from the problems encountered
during Phase 1.

       It is also important to note that the FBI has taken action to
alleviate or resolve most of the concerns identified in our first two
audits of the Sentinel project relating to project management. We
believe that the FBI’s efforts to improve its project management
capabilities can help provide reasonable assurance that the Sentinel
project can be successfully completed, if the processes are
implemented as intended.

      Earned Value Management

      As required by the Office of Management and Budget (OMB), and
with Department of Justice (Department) guidance, the FBI has
established an Earned Value Management (EVM) system for Sentinel.
EVM helps manage project risks by achieving reliable cost estimates,
evaluating progress, and allowing the analysis of project cost and
schedule performance trends. EVM compares the current status of a
project, in terms of both cost and schedule, to the established cost and
schedule baselines. Deviations between the baselines and the current
                                  - xv -

                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


status should demonstrate the project’s progress and the overall level
of performance, thereby enabling a level of accountability to be
imposed on the project. When properly implemented and utilized,
EVM allows project management to pinpoint potential problems and
address them before they escalate.

       The Sentinel contract requires Lockheed Martin to fully
implement EVM in accordance with the Sentinel EVM plan, including
having an EVM system that complies with American National Standards
Institute (ANSI)/Electronic Industries Alliance (EIA) Standard
748-A. 15 This allows the FBI to gather EVM data on the development
portion of the project through monthly electronic data transfers from
Lockheed Martin.

       Our review of EVM reporting from September 2006 to March
2007 showed that the FBI has continued to implement EVM and use
that data to help manage Phase 1 of Sentinel. However, several
issues decreased the effectiveness of EVM as a tool to manage the
Sentinel development contract. The most significant issue was the
reliability of the EVM data Lockheed Martin provided the FBI. In June
2007, the FBI rejected Lockheed Martin’s April 2007 EVM data after
Lockheed Martin notified the FBI that it estimated that it had incurred
approximately $64.1 million in costs during Phase 1 of Sentinel.
Because the EVM baseline for Phase 1 was $59.7 million, Lockheed
Martin’s estimate showed that its EVM system was not collecting
accurate data on Sentinel costs as Lockheed Martin was accruing the
costs – one of the primary purposes of an EVM system.

      Further, while the FBI’s implementation of EVM comports with
the Department’s guidance, it does not provide all the data that OMB
believes necessary for oversight purposes. As a result of OMB
concerns that the FBI reprogrammed or rebaselined Phase 1 of
Sentinel without required OMB approval, we reviewed all changes to
the time-phased budget used to measure Sentinel’s progress. 16 We
       15
           ANSI/EIA Standard 748-A is the criteria selected by the OMB for EVM
systems. The standard includes 32 specific criteria in 5 process areas necessary for
a sufficient EVM system: (1) organization; (2) planning, scheduling and budgeting;
(3) accounting; (4) analysis and management reports; and (5) revisions and data
maintenance.
       16
           Reprogramming, or rebaselining, revises the project baselines and
eliminates all cost and schedule variances. Rebaselining usually occurs when a
project’s progress deviates significantly from the original plan and the remaining
time and funds are not sufficient to complete the project.

                                        - xvi -

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


concluded that the FBI had not rebaselined the project, but that
frequent replanning diminished the quality and usefulness of the EVM
data for higher-level oversight. 17

Independent Verification and Validation

       In September 2006, the FBI obtained the services of Booz Allen
Hamilton (Booz Allen) to perform the independent verification and
validation function for the Sentinel project. Since then, Booz Allen has
participated in FBI-only project meetings and joint FBI-Lockheed
Martin project reviews. In addition, Booz Allen has provided written
comments and recommendations on many project documents, and
produced 15 project-status briefings and monthly reports. Booz Allen
also produced monthly reports and biweekly briefings that were sent
directly to the FBI’s Chief Information Officer.

       These reports and briefings highlight recent activities, upcoming
events, and the independent verification and validation team’s view of
the overall status of the project, including a discussion of risks that
could affect the project’s cost, schedule, or performance. The
independent verification and validation products also included
recommendations and best practices observed by Booz Allen. As of
May 2007, Booz Allen had made over 70 recommendations based on
risks and other areas it identified. Booz Allen also reported several
project management and oversight weaknesses that increased the
risks associated with Sentinel, including concerns about:

       •    the ability of Lockheed Martin’s developers to build Phase 1 to
            meet the FBI’s needs before Lockheed Martin had completed
            the design; and

       •    the quality of most of the test procedures submitted by
            Lockheed Martin for the test readiness review.

Risk Management

      The purpose of risk management is to assist the project
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a
program. A risk management plan should identify procedures used to

       17
           Replanning revises the time-phased budget for completing the work
remaining in a project without any changes to the total scope of work, baselined
cost, or scheduled completion of the project.
                                       - xvii -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


manage risk throughout the life of the program. Risks are categorized
by severity and identified as either open or resolved. Open risks are
tracked in a risk register maintained by the risk manager until
resolved.

       The FBI has created a list of 16 risks it is monitoring that are
associated with the Sentinel project. While the FBI’s establishment of
a risk management program is a positive step, we have several
concerns with the program’s implementation, including irregular
review of the risks, a lack of contingency plans, and incomplete plans
to mitigate identified risks.

       As required, the FBI has developed plans to mitigate the highest
ranked risks. However, the mitigation plans for these top-ranked risks
are incomplete because they do not include a method to measure
whether the steps in the mitigation plan are effective. In addition, the
FBI has developed contingency plans for only 50 percent of the risks
that are required to have such plans. The Sentinel risk manager said
that the mitigation plans do not include a method to measure their
effectiveness because it is very difficult to develop accurate measures.
However, we believe that risk management is critical to the success of
Sentinel.

      When a new risk is opened, the Sentinel Risk Review Board
assigns an owner to that risk to develop a mitigation and contingency
plan and to ensure that the mitigation plan is implemented. We
support the idea of having one person taking a lead role – having “risk
ownership” in managing each risk. However, this process does not
appear to be functioning as intended. During interviews with risk
owners we found that some could not explain the nature of the risks
they had been assigned, while others said they thought they did not
have the authority or capability to implement a risk’s mitigation
strategy.

       With respect to currently identified project risks, we view
Sentinel’s ability to interface with existing FBI systems from which it
will extract data as a potentially significant challenge. In Phase 1,
Lockheed Martin had unanticipated problems connecting Sentinel with
ACS because there was no detailed documentation describing how ACS
works. Consequently, Lockheed Martin had to create the
documentation itself. The Sentinel PMO did not anticipate this task
because the managers of ACS told the PMO that all of the necessary
documentation existed. Because this unexpected task strained both
the Phase 1 budget and schedule, the PMO is now tracking
                                 - xviii -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


documentation for the other systems with which Sentinel must
interface as a risk.

Bill of Materials

      A bill of materials is a complete listing of all parts, assemblies,
equipment, and software that make up an IT system, as well as the
information required to construct new units of the system or order
spare parts for it. Contractually, Lockheed Martin is required to
purchase the list of items on the bill of materials it submitted with its
proposal. As is to be expected in a project as complex as Sentinel,
Lockheed Martin has needed to revise the bill of materials for several
reasons including revisions to the project’s design.

        An accurate bill of materials is critical to ensuring the FBI
approves all changes to Sentinel’s design and that an accurate list of
Sentinel’s components is available to the FBI to use when reviewing
Lockheed Martin’s invoices. Because of the importance of an accurate
bill of materials, the PMO established a Bill of Materials Deviation
Policy, which establishes the criteria for what constitutes a change to
the bill of materials and the criteria to assess whether Lockheed Martin
needs the FBI’s approval prior to making a change to the bill of
materials.

       According to the Sentinel Contracting Officer’s Technical
Representative, Lockheed Martin also established its own internal
procedures for making changes to the bill of materials. However,
Lockheed Martin employees viewed internal approval of changes as
final approval to change the bill of materials and therefore did not
submit all changes to the FBI as required. The PMO is aware of this
and other shortcomings and has established a joint Lockheed Martin-
FBI team to revise Sentinel’s bill of materials policies and procedures
to address these issues.

       In addition to the issues with which the FBI was aware, we
identified a significant flaw in Sentinel’s Bill of Materials Deviation
policy. While the policy states that a deviation is any addition or
deletion to the bill of materials, the policy does not require FBI
approval for additions or deletions. Instead, the policy only requires
approval for cost increases and changes to purchase dates for items
already on the bill of materials. FBI officials agreed that the deviation
policy needs to address this issue.


                                  - xix -

                    REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


Lessons Learned

       Although Phase 1 was slightly delayed and over budget, the FBI
appears to have learned important lessons that may allow it to reduce
the risk to subsequent phases. We examined what the FBI had
learned about integrating COTS software, interfacing with ACS,
measuring progress, clarifying with Lockheed Martin the details of
what must be done to meet a given requirement, scheduling reviews
of Sentinel’s design, and ensuring Sentinel’s schedule accurately
measures the project’s progress. We believe that if the FBI
implements the planned corrective actions resulting from these
lessons, we believe the risk to subsequent phases of Sentinel should
be reduced.

Actions Taken on Prior OIG Recommendations

      During our audit, we examined the FBI’s actions to address
recommendations we made in our audit reports on Sentinel and found
that the FBI was, in general, taking action to resolve our concerns.
Based on the FBI’s actions, we closed 5 of the 12 recommendations.
We also noted that the FBI agreed with the remaining
recommendations and was in the process of taking corrective action.
Our recommendations dealt generally with the FBI’s need to complete
required planning and general management oversight policies and
procedures for Sentinel in order to help ensure its success.

       In our March 2006 report, we made seven recommendations, of
which four have been closed. The FBI continues to address the
remaining three recommendations that involve completing a system
security plan, filling vacant positions within the Sentinel PMO, and
completing comprehensive training plans for the project. We found
during our audit that the FBI had completed its independent
verification and validation plan, which partially closes one of the
recommendations, but the system security plan still needs to be
completed for full closure of the recommendation.

      In our December 2006 report, we made five recommendations,
one of which has been closed. The four remaining recommendations
were that the FBI should: (1) develop contingency plans as required
by the Sentinel Risk Management Plan, (2) provide experienced
contractors to conduct an independent verification and validation
process throughout the Sentinel project, (3) determine the appropriate
amount of management reserve for each phase of the project, and

                                - xx -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


(4) fill the vacant Sentinel PMO positions needed to complete Phase 1
of the project.

      As discussed earlier, we found that the FBI has improved in
developing contingency plans as required by the Sentinel Risk
Management Plan. However, as noted, we continue to have concerns
about the FBI’s management of risks in the Sentinel project. We also
found that the FBI has begun utilizing a contractor to perform
independent verification and validation and the contractor offered
numerous recommendations during Sentinel’s Phase 1. Because the
independent verification and validation is being performed, this
recommendation will be closed through our normal audit follow-up
process.

      For the two remaining open recommendations from our
December 2006 report, we found that the FBI had not determined
management reserve amounts for the remaining phases of Sentinel
and did not fully staff the Sentinel PMO. Because Sentinel consists of
four phases, each phase will have a separate task order and its own
funding. At the end of our fieldwork for the current review, the PMO
was still in the planning stage for Phase 2, which includes a risk
analysis and cost implications for those risks. As a result, the
management reserve had not yet been determined.

      Regarding the staffing of the Sentinel PMO, we found that the
FBI continued to make progress in its hiring of personnel. We found
that 70 of 76 positions had been filled, and 3 individuals were pending
for the remaining positions. The FBI also was planning for changes to
be made in the PMO as the project evolved from planning and
development to operations and maintenance.

      We will continue to monitor the progress made by the FBI in
implementing the remaining recommendations identified in our prior
audits to ensure that the required planning and general management
oversight policies and staff continue to be utilized effectively.

Conclusion

       The FBI deployed the two most critical deliverables planned for
the first phase of the Sentinel project – a web-based portal to ACS and
personal and squad workboxes that summarizes users’ cases and
leads. These deliverables were completed slightly behind schedule and
over budget. However, the most difficult portions of Sentinel to

                                 - xxi -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


implement lay ahead and several tasks originally planned for Phase 1
have been deferred to later phases.

      We will monitor the quality of the Phase 1 product in our next
Sentinel audit as FBI employees gain experience in using the portal
and workboxes.

      We believe that the lessons learned during Phase 1, combined
with the processes the FBI has established to manage and control the
Sentinel project, can help provide reasonable assurance of Sentinel’s
ultimate success. However, rigorous implementation of processes and
lessons learned is necessary to minimize any significant deviations
from cost, schedule, technical, or performance baselines.

OIG Recommendations

      In this third Sentinel audit, we make nine recommendations to
the FBI to help ensure the success of the Sentinel case management
system and to better manage project costs. Among the
recommendations are that the FBI limit the scope and duration of
future project phases to make them more manageable; adjust the
amount of task orders to reflect changes in project requirements;
include both initial and revised performance baselines in EVM reports;
improve the requirements for Lockheed Martin’s cost reporting;
improve risk management and the tracking of project deficiencies; and
improve the bill of materials process.




                                 - xxii -

                 REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


                              TABLE OF CONTENTS


INTRODUCTION .......................................................................... 1
     Background ....................................................................... 1
     Sentinel............................................................................. 4
     Sentinel’s Phased Approach.................................................. 5
     FBI Management Processes and Controls................................ 7
     Earned Value Management System........................................ 8
     Prior Reports ...................................................................... 9

FINDINGS AND RECOMMENDATIONS ........................................... 13

       Finding 1: Phase 1 Schedule, Cost, and Performance ............ 13
             Schedule Delay ........................................................ 14
             Causes for Delay ...................................................... 15
             Tight Schedule Affected Implementation of
                 LCMD Processes ................................................. 23
             Lockheed Martin’s Cost Performance ........................... 25
             Phase 1 Deliverables ................................................. 28
             Conclusion............................................................... 37
             Recommendations .................................................... 38

       Finding 2: Phase 2 Planning and Management Issues ............ 39
             Management Controls and Processes ........................... 39
             Planning for Phase 2 and Lessons Learned ................... 60
             Actions Taken on Previous OIG Recommendations......... 64
             Conclusion............................................................... 69
             Recommendations .................................................... 69

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 71

STATEMENT ON INTERNAL CONTROLS ......................................... 72

APPENDIX 1:          OBJECTIVES, SCOPE, AND METHODOLOGY ............ 73

APPENDIX 2:          ACRONYMS........................................................ 74

APPENDIX 3:          THE FBI’S LIFE CYCLE MANAGEMENT DIRECTIVE .... 75

APPENDIX 4:          PRIOR REPORTS ON THE FBI’S INFORMATION
                     TECHNOLOGY .................................................... 83




                      REDACTED FOR PUBLIC RELEASE
                REDACTED FOR PUBLIC RELEASE


APPENDIX 5:    COMPARISON OF ACS, WACS, AND PHOENIX
               FUNCIONALITY TO SENTINEL’S
               PHASE 1 DELIVERABLES...................................... 92

APPENDIX 6:    INDEPENDENT VERIFCATION AND
               VALIDATION ISSUES AND RECOMMENDATIONS ..... 98

APPENDIX 7:    RISK REGISTER OPEN RISKS ............................. 109

APPENDIX 8:    PMO STAFF POSITIONS AND
               RESPONSIBILITIES ........................................... 123

APPENDIX 9:    THE FEDERAL BUREUA OF INVESTIGATION’S
               RESPONSE TO THE DRAFT REPORT ..................... 125

APPENDIX 10:   OFFICE OF THE INSPECTOR GENERAL’S
               ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT ................... 129




                REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                              INTRODUCTION

Background

       On March 16, 2006, the Federal Bureau of Investigation (FBI)
announced that it had awarded a contract to Lockheed Martin Services
(Lockheed Martin) to develop the Sentinel information and
investigative case management system. The cost of the four phases of
the Lockheed Martin contract totaled $305 million, and the FBI
estimated that it would cost an additional $120 million to staff the
FBI’s Sentinel Program Management Office (PMO), provide contractor
support, and establish a management reserve for contingencies,
bringing the total estimated cost of the Sentinel project to $425
million. The initial schedule for the Lockheed Martin contract called for
all phases to be completed in December 2009, or 45 months from the
start of work.

      On June 19, 2007, the FBI announced that it had fully deployed
Phase 1 of Sentinel. The goal of this first phase of the project was to
provide FBI employees with a user-friendly, web-based access to
information currently in the FBI’s antiquated Automated Case Support
(ACS) system. 18 Phase 1 features a personal workbox that
summarizes a user’s cases and leads. 19 It also provides user-friendly
search capabilities and a squad workbox, which allows supervisors to
better manage their resources and assign leads with the click of a
mouse.

      According to the Sentinel contract, Lockheed Martin can be
rewarded for meeting established goals in four areas: project
management, cost management, schedule, and technical performance.
The award fee cannot exceed 11 percent of the $232.4 million total
development costs for Sentinel, or approximately $26 million, and will
be allocated across the four areas based on risk. This type of contract
and award fee structure is common for large government IT projects.

     The Sentinel project, which uses commercial-off-the-shelf
(COTS) components, is intended to provide the FBI with a web-
enabled electronic case management system that includes records

       18
          ACS is the FBI’s current case management system. Deployed in 1995,
ACS is a mainframe system.
       19
          A lead is a request from any FBI field office or headquarters for assistance
in the investigation of a case.

                                         -1-

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


management, workflow management, evidence management, search
and reporting capabilities, and information sharing capabilities with
other law enforcement agencies and the intelligence community.
According to the FBI Director, “Sentinel will strengthen the FBI’s
capabilities by replacing its primarily paper-based reporting system
with an electronic system designed for information sharing. Sentinel
will support our current priorities, including our number one priority:
preventing terrorist attacks.” 20

      The Sentinel project follows the FBI’s unsuccessful efforts to
develop an automated case management system called the Virtual
Case File (VCF), which was intended to replace the FBI’s ACS system.
Because of the FBI’s failed $170 million VCF project, congressional
appropriations and oversight committees questioned whether the FBI
could successfully develop and implement a case management system
of Sentinel’s magnitude. Given the importance of the Sentinel project,
the congressional appropriations committees and the FBI Director
asked the Department of Justice Office of the Inspector General (OIG)
to continually review and report on the progress of the FBI’s
development of Sentinel.

      This report is the third OIG report on Sentinel, and covers the
development of Phase I of the project, planning for Phase 2, and
progress made by the FBI in resolving the concerns identified in our
two previous audits. The previous two reports focused on the planning
for Sentinel, the FBI’s processes and controls for managing information
technology (IT) projects, and the contract with Lockheed Martin to
develop Sentinel.

       Over the past few years, the OIG and others have reviewed
various aspects of the FBI’s IT infrastructure and noted the critical
need for the FBI to modernize its case management system. In
previous reports, the OIG concluded that current FBI systems do not
permit agents, analysts, and managers to readily access and share
case-related information throughout the FBI, and without this
capability the FBI cannot perform its critical missions as efficiently and
effectively as it should. 21



       20
         FBI Press Release entitled FBI Announces Award of Sentinel Contract,
March 16, 2006.
       21
          For a more complete discussion of the OIG’s reports on Sentinel, see the
Prior Reports section on page 9.
                                       -2-

                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


       In its mission-needs statement for Sentinel, the FBI said that its
current case management system must be upgraded to utilize new
information technologies by moving from a primarily paper-based case
management process to an electronic records system. The FBI noted
that this transition would enable agents and analysts to more
effectively perform their investigative and intelligence duties.

      The FBI’s attempt to move from a paper-based to an electronic
case management system began with the Trilogy project in mid-2001.
The objectives of Trilogy were to update the FBI’s aging and limited IT
infrastructure; provide needed IT applications for FBI agents, analysts,
and others to efficiently and effectively do their jobs; and lay the
foundation for future IT improvements. Trilogy consisted of upgrading
the FBI’s: (1) hardware and software; (2) communications network;
and (3) the five most important investigative applications, including
the antiquated ACS. The first two components of Trilogy were
completed in April 2004 at a cost of $337 million, almost $100 million
more than originally planned. Among other improvements, the FBI
enhanced its IT infrastructure with new desktop computers for its
employees and deployed a wide area network to enhance electronic
communications among FBI offices and with other law enforcement
organizations.

      In early 2004, after nearly 3 years of development, the FBI
engaged several external organizations and contractors to evaluate the
Virtual Case File (VCF), the third component of the Trilogy project.
Based on critical comments by these organizations, the FBI began to
consider alternative approaches to developing the VCF, including
terminating the project or developing a completely new case
management system. In late 2004, the FBI commissioned Aerospace
Corporation to perform a study evaluating the functionality of COTS
and government off-the-shelf technology to meet the FBI’s case
management needs. Aerospace followed this study with an
independent verification and validation (IV&V) report on the VCF,
issued in January 2005, which recommended that the FBI pursue a
COTS-based, service-oriented architecture. 22 The IV&V report


      22
          IV&V is a standard information technology investment management (ITIM)
process whereby an independent entity assesses the system as it is developed in
order to evaluate if the software will perform as intended. A service-oriented
architecture is a collection of services that communicate with each other. The
communication can involve a simple data exchange or two or more services
coordinating on an activity.

                                      -3-

                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


concluded that a lack of effective engineering discipline led to
inadequate specification, design, and development of the VCF.

       The FBI modified its approach to developing the VCF, and in late
2004 divided the project into Initial Operational Capability and Full
Operational Capability segments. The Initial Operational Capability
segment assessed the VCF project and involved a pilot test of the most
advanced version of the VCF in an FBI field office. In February 2005,
the OIG issued a report on the Trilogy project questioning the FBI’s
ability to complete and deploy the VCF. 23

      The FBI issued a final report on the Initial Operational Capability
at the end of April 2005. 24 According to the report, the FBI terminated
work on the VCF due to the lack of progress on its development. The
FBI stated that it was concerned that the computer code being used to
develop the VCF lacked a modular structure, thereby making
enhancements and maintenance difficult. In addition, the FBI report
said that the “marketplace” had changed significantly since the VCF
development had begun, and appropriate COTS products, which were
previously unavailable, were now available.

Sentinel

      Similar to what the FBI had envisioned for the final version of
the VCF, Sentinel is intended to not only provide a new electronic case
management system, transitioning the FBI files from paper-based to
electronic records, but also to result in streamlined processes for
employees to maintain investigative lead and case data. In essence,
the FBI expects Sentinel to be an integrated system supporting the
processing, storage, and management of information to allow the FBI
to more effectively perform its investigative and intelligence
operations.

      According to the FBI, the use of Sentinel in the future will
depend on the system’s ability to be easily adapted to evolving
investigative and intelligence business requirements over time.

       23
           Department of Justice, Office of the Inspector General, The Federal Bureau
of Investigation’s Management of the Trilogy Information Technology Modernization
Project, Audit Report Number 05-07, February 2005.
       24
           Department of Justice, Federal Bureau of Investigation. Federal Bureau of
Investigation: Virtual Case File Initial Operational Capability Final Report, version
1.0, April 29, 2005.

                                         -4-

                     REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Therefore, the FBI has been working to develop Sentinel using a
flexible software architecture that allows economical and efficient
changes to software components as needed in the future. According
to the FBI, a key element of the Sentinel architecture contributing to
achieving this flexibility is the use of COTS and government-off-the-
shelf applications software. The FBI has been working to integrate the
off-the-shelf products with an Oracle database, thereby separating the
applications code from the underlying data being managed in order to
simplify future upgrades.

      FBI agents are required to document investigative activity and
information obtained during an investigation. The case file is the
central system for holding these records and managing investigative
resources. As a result, the case file includes documentation from the
inception of a case to its conclusion. FBI agents and analysts currently
create paper files in performing their work, making the process of
adding a document to a case file a highly paper-intensive, manual
process. Files for major cases can contain over 100,000 documents,
leads, and evidence items.

      Currently, the documentation within case files is electronically
managed through the ACS system, which maintains electronic copies
of most documents in the case file and provides references to
documents that exist in hardcopy only. Upon approval of a paper
document, an electronic copy of the completed document is uploaded
to the electronic case file of the ACS system. However, ACS is a
severely outdated system that is cumbersome to use effectively and
does not facilitate the searching and sharing of information. The
limited capabilities of the ACS mean that agents and analysts cannot
easily acquire and link information across the FBI.

       In contrast, the FBI expects Sentinel to greatly enhance the
usability of case files for agents and analysts, both in terms of adding
information to case files as well as searching for case information. FBI
supervisors, reviewers, and others involved in the approval process
will also be able to review, comment, and approve the insertion of
documents into appropriate FBI electronic files through Sentinel.

Sentinel’s Phased Approach

      As originally conceived, the FBI expected to develop the Sentinel
project in 4 partially overlapping phases, each lasting approximately
12- to 16-months. However, at the time of our audit the FBI was
reevaluating the number of phases and the capabilities each phase will
                                  -5-

                 REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE


deliver as it gained experience with the project’s development. Each
phase, when deployed, was to result in a stand-alone set of
capabilities that could be added to by subsequent phases to complete
the Sentinel project. The following chart shows the FBI’s original
conception of the four phases and their general timeframes.


                          Conceptual SENTINEL Schedule with
                                     Capabilities


                                            New Electronic Case File                                              Phase 4
                                               (ECF) Capability

                                            Automated Workflow                                      Jan ‘09                        Dec ‘09
                                            Document Management
                                            Searching and Reporting                                             New Investigative Case
                                            PKI & Role Based Access                                               Management (ICM)
               New Portal and               Digital Signatures                         Phase 3                        Capability
                Foundational                Records Management
                Components                  Interfaces to Legacy ECF                                             Collected Items Mgmt
                                            Start Data Migration (New      Apr ‘08                 Feb ‘09       Document Scanning
          • SENTINEL Portal with           and Open Cases)                              New Universal             Interfaces to Legacy ICM
          access to ACS                     UNI Data Cleansing                          Index (UNI)             Systems
          • Case “Workbox”                                                                Capability              Migration of ICM Data
           Components of                                                                                        (Closed Cases)
          Service-Oriented                                                            UNI Data Migration         Retirement of Legacy
                                      Feb ‘07                            May ‘08
          Architecture
                                                 Phase 2                              Interfaces to Legacy      Systems
           ECF Data Cleansing                                                       UNI Systems
          (formatting)                                                                Enhanced Search
                                                                                     & Improved Indexing
                                                                                      ICM Data Cleansing

                  Phase 1            Apr ‘07
     Mar ‘06




     Mar ‘06                     Feb ‘07                                   Apr ‘08                     Jan ‘09                       Dec 2009




   Source: FBI

      Phase 1 introduced the Sentinel web-based portal, which
provides access to data from the existing ACS system. Eventually,
through incremental changes in subsequent phases, the portal will
display data from a newly created investigative case management
system. Phase 1 also provides a case management workbox that
presents a summary of all cases a user is involved with rather than
requiring the user to perform a series of queries to find the cases as
was necessary when only ACS was used. The Findings and
Recommendations section of this report contains a more
comprehensive discussion of the Phase 1 deliverables.

     Phase 2, the most ambitious and technically difficult of the
phases, will begin the transition to paperless case records and the
implementation of electronic records management. A workflow tool
                                                            -6-

                             REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


will support the flow of electronic documents through the review and
approval cycles, and a new security framework will be implemented to
support access controls and electronic signatures. Additionally, in
Phase 2, the FBI will begin migrating data from the ACS electronic
case file to Sentinel and preparing data from the Universal Index
(discussed below) to be migrated to Sentinel in Phase 3.

      Phase 3 will replace the Universal Index (UNI), which is used to
determine if any information about a person, place, or thing exists
within the FBI’s current case management system. The UNI is a
database of persons, places, and things that have relevance to an
investigative case. While the current UNI supports only a limited
number of attributes, Phase 3 will expand the number of attributes
within the information management system. 25 Enhancing the
attributes will allow more precise and comprehensive searching within
Sentinel and increase the FBI’s ability to “connect the dots.”

      Phase 4 will implement Sentinel’s new case management and
reporting capabilities, and will consolidate the various case
management components into one overall system. Shortly after the
end of this phase, the legacy systems will be shut down and the
remaining cases in the legacy ACS electronic case file will be migrated
to the new case management system. In this phase, as in all the
others, changes to the Sentinel portal will be required to accommodate
the new features being introduced.

FBI Management Processes and Controls

      In the early stages of the Trilogy project, the OIG and U.S.
Government Accountability Office (GAO) recommended that the FBI
establish Information Technology Investment Management (ITIM)
processes to guide the development of its IT projects. In response, in
2004 the FBI issued its Life Cycle Management Directive (LCMD). The
LCMD covers the entire IT system life cycle, including planning,
acquisition, development, testing, and operations and maintenance.
As a result, the LCMD provides the framework for standardized,
repeatable, and sustainable processes and best practices in developing
IT systems. Application of the IT systems life cycle within the LCMD
can also enhance guidance for IT programs and projects, leverage

       25
           An attribute defines a property of an object within a case file. Examples of
attributes are eye color, height, and nationality when describing an individual or
address, floor, and room number when describing a specific location.

                                         -7-

                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


technology, build institutional knowledge, and ensure that
development is based on industry and government best practices. The
LCMD is comprised of four integrated components: life cycle phases,
control gates, project level reviews, and key support processes. A
diagram showing how these components relate to each other and a
description of the life cycle phases, control gates, and the project level
reviews mentioned throughout this report are contained in Appendix 3.

      The LCMD established policies and guidance applicable to all FBI
IT programs and projects, including Sentinel. As we discussed in our
March 2006 report on Sentinel, we believe the structure and controls
imposed by the LCMD can help prevent many of the problems
encountered during the failed VCF effort. Since our March 2006 report
on Sentinel, the FBI has further refined its LCMD and is applying the
revised directive to Sentinel.

Earned Value Management System

      Earned Value Management (EVM) is a tool that measures the
performance of a project by comparing the variance between
established cost, schedule, and performance baselines to what is
actually taking place. These variances are measured periodically to
give project managers a timely perspective on the status of a project.
EVM then can provide an early warning that a project is heading for
trouble. EVM reporting is an important risk-management tool for a
major IT development project such as Sentinel.

      In August 2005, the Office of Management and Budget (OMB)
issued a memorandum requiring all federal agency Chief Information
Officers (CIOs) to manage and measure all major IT projects using an
EVM system. Additionally, all agencies were to develop policies for full
implementation of EVM on IT projects by December 31, 2005. The
Department of Justice issued its EVM policy in July 2006. In response
to these requirements, the FBI developed a Sentinel Program EVM
Capability Implementation Plan in August 2006 and subsequently
acquired a tool to implement an EVM system for the Sentinel project.

      The OMB EVM memorandum also required that integrated
baseline reviews (IBRs) be performed for any projects that require
EVM in order to establish performance management baselines against
which a project’s performance can be measured. 26 Properly executed,

      26
          The performance measurement baseline is a total, time-phased budget
plan against which program performance is measured.
                                      -8-

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


IBRs are an essential element of a program manager’s risk-
management approach. IBRs are intended to provide both the
government’s and the contractor’s program managers with a mutual
understanding of the project’s performance measurement baseline and
agreement on a plan of action to resolve identified risks.

     According to OMB guidance, the objective of an IBR is to confirm
compliance with the following business rules:

     •   The technical scope of work is complete and consistent with
         authorizing documents;

     •   Key schedule milestones are identified;

     •   Supporting schedules reflect a logical flow to accomplish the
         technical work scope;

     •   Resources, including money, facilities, personnel, and skills,
         are adequate and available for the assigned tasks;

     •   Tasks are planned and can be measured objectively, relative
         to technical progress;

     •   Underlying performance measurement baseline rationales are
         reasonable; and

     •   Managers have appropriately implemented required
         management processes.

Prior Reports

      Over the past few years, the OIG and other oversight entities
have issued reports examining the FBI’s attempts to update its case
management system. In these reports the OIG, the GAO, the House
of Representatives’ Surveys and Investigations Staff, and others have
made a variety of recommendations focusing on the FBI’s
management of its IT projects, particularly the VCF portion of the
Trilogy project, and the continuing need to replace the outdated ACS
system. More recently the OIG has reported on Sentinel, the
successor to the VCF project. A discussion of key points from these
reports follows. (A more comprehensive description of the reports
appears in Appendix 4.)


                                  -9-

                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      In the first OIG Sentinel report issued in March 2006, we
discussed the FBI’s pre-acquisition planning for the Sentinel project,
including the approach, design, cost, funding sources, time frame,
contracting vehicle, and oversight structure. 27 In reviewing the
management processes and controls the FBI had applied to the pre-
acquisition phase of Sentinel, the OIG found that the FBI developed IT
planning processes that, if implemented as designed, could help the
FBI successfully complete Sentinel.

      In particular, the OIG found that the FBI had made
improvements in its ability to plan and manage a major IT project by
establishing ITIM processes, developing a more mature Enterprise
Architecture, and establishing a PMO dedicated to the Sentinel project.

      However, at that time the OIG identified several concerns about
the FBI’s management of the Sentinel project, including: (1) the
incomplete staffing of the Sentinel PMO, (2) the FBI’s ability to
reprogram funds to complete the second phase of the project without
jeopardizing its mission-critical operations, (3) Sentinel’s ability to
share information with external intelligence and law enforcement
agencies and provide a common framework for other agencies’ case
management systems, (4) the lack of an established EVM process,
(5) the FBI’s ability to track and control Sentinel’s costs, and (6) the
lack of complete documentation required by the FBI’s information
technology investment management processes.

       In December 2006, the OIG released the second in a series of
audit reports that examined the FBI’s development and
implementation of the Sentinel project. 28 This report discussed:
(1) the progress the FBI made in resolving the concerns identified in
the first OIG report on the planning for Sentinel, and (2) whether the
contract with Lockheed Martin and the FBI’s ITIM processes and
project management are likely to contribute to the successful
implementation of Sentinel. The OIG found that the FBI resolved most
of the concerns the OIG identified in its first Sentinel audit, although
the audit reported that some aspects of those concerns as well as

       27
          Department of Justice, Office of the Inspector General. The Federal Bureau
of Investigation’s Pre-Acquisition Planning For and Controls Over the Sentinel Case
Management System, Audit Report Number 06-14, March 2006.
       28
           Department of Justice, Office of the Inspector General. Sentinel Audit II:
Status of the Federal Bureau of Investigation’s Case Management System, Audit
Report Number 07-03, December 2006.

                                        - 10 -

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


some new concerns identified in the second audit merited continued
monitoring. Specifically, the OIG found that the FBI had made
progress in: (1) establishing cost tracking and control processes,
(2) implementing an Earned Value Management (EVM) system to help
measure progress toward project baselines, (3) developing an IV&V
plan, (4) developing information sharing capabilities, and (5) hiring
more PMO staff.

       Among the areas that warranted continued monitoring by the
FBI, the OIG, and other oversight entities were the: (1) funding of the
Sentinel project and the effect on the FBI’s operations or other
projects if a reprogramming of funds was required, (2) accuracy of the
estimated cost of the project, (3) availability of contingency plans for
identified project risks, and (4) completion of Sentinel PMO staffing.

      In May 2006, the GAO released a report critical of the FBI’s
controls over costs and assets of its Trilogy project. 29 The GAO found
that the FBI’s review and approval process for Trilogy contractor
invoices did not provide an adequate basis for verifying that goods and
services billed were actually received and that the amounts billed were
appropriate, leaving the FBI highly vulnerable to payments of
unallowable costs. These costs included first-class travel and other
excessive airfare costs, incorrect charges for overtime hours, and
charges for which the contractors could not document costs incurred.
The GAO found about $10 million in unsupported and questionable
costs. The GAO also found that the FBI failed to establish controls to
maintain accountability over equipment purchased for the Trilogy
project. According to the GAO, poor property management led to
1,200 missing pieces of equipment valued at $7.6 million.

       In July 2007, the GAO issued a report on the extent to which the
FBI had established best practices for acquiring Sentinel and
estimating the project’s schedule and costs. 30 The GAO concluded
that, in general, the FBI had best practices in place for acquiring IT
systems, including practices for evaluating offers and awarding
contracts. In contrast, our audit examined the FBI’s implementation of

      29
          U.S. Government Accountability Office. Federal Bureau of Investigation:
Weak Controls over Trilogy Project Led to Payment of Questionable Contractor Costs
and Missing Assets, Report Number GAO-06-306, May 2006.
      30
          U.S. Government Accountability Office, Information Technology: FBI
Following a Number of Key Acquisition Practices on New Case Management System
but Improvements Still Needed, July 2007.

                                      - 11 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


its policies and procedures for managing the development of Sentinel,
including several related to the best practices reviewed by the GAO.
Because our audit focused on how these policies and procedures were
actually implemented, our findings differ from the GAO’s because we
found areas of inadequate implementation.




                                - 12 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


                 FINDINGS AND RECOMMENDATIONS

Finding 1: Phase 1 Schedule, Cost, and Performance

      Phase 1 of Sentinel, deployed on June 19, 2007, delivered
      two key components of the FBI’s new information and
      investigative case management system: a web-based
      portal to ACS data and workboxes to aid in case
      management. However, Phase 1 took about 2 months
      longer than scheduled, cost slightly more than the FBI
      expected, and delivered less than originally planned. Our
      audit found four main causes for the delay, including:
      (1) unrealistic schedule expectations by the FBI,
      (2) Lockheed Martin’s delays in staffing, (3) challenges
      Lockheed Martin encountered in integrating COTS software
      programs to work together as a system, and (4) FBI
      problems in assessing the project’s progress against the
      approved schedule.

      With regard to deliverables, Phase 1 did not deliver all the
      commonly understood foundational components of a
      service-oriented architecture (a concept that we found to
      be ill-defined), but did deliver the enterprise service bus
      component that was appropriate for the first phase of the
      project. 31 Phase I did not cleanse the data in the
      electronic case file module of ACS as originally proposed
      because the FBI said it would be more efficient to do so in
      Phase 2 of the Sentinel project. Also, the web-based
      portal developed in Phase 1 did not include the full range
      of functionality originally anticipated.

      Further, as a result of a series of contract modifications,
      the cost of Phase 1 exceeded the amount originally
      budgeted for Lockheed Martin although the overall contract
      value of $305 million did not change. Lockheed Martin’s
      costs exceeded the revised contract amount of $59.7
      million by approximately $4.4 million. However, Lockheed
      Martin and the FBI agreed that Lockheed Martin would only
      be paid the amount of the revised budget, a figure that



       An enterprise service bus is software “middleware” that connects software
      31

components and allows the components to communicate with each other.

                                      - 13 -

                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       included using the $2 million budgeted for award fees. 32
       Other factors such as the transfer of requirements to later
       phases of the project, not tying all deliverables to the
       requirements, and transferring costs from Lockheed
       Martin’s budget to the PMO’s budget suggest that the cost
       of Sentinel ultimately may be higher than originally
       anticipated.

Schedule Delay

      The FBI and Lockheed Martin established April 19, 2007, as the
completion date for Phase 1 during the Initial Baseline Review (IBR) in
May 2006. 33 During the IBR, held about 2 months after the contract
award, the FBI and Lockheed Martin agreed to a schedule for Phase 1,
including all the program-level reviews and life cycle management
reviews.

      By September 2006, the time the Critical Design Review was
originally scheduled to be performed, Lockheed Martin’s performance
deviated from the schedule to such a degree that the FBI directed
Lockheed Martin to postpone the Critical Design Review until October
2006. Specifically, several principal design documents prepared by
Lockheed Martin were returned by the PMO without comment because
the documents were insufficient.

       Despite concerns about the completeness of these key design
documents, the FBI allowed Phase 1 to pass the Final Design Review in
October 2006. At that time, PMO officials told Lockheed Martin that its
schedule for the remaining work was not feasible and directed
Lockheed Martin to replan the schedule for the remainder of Phase 1.
Lockheed Martin reconsidered the schedule for the remaining work,
including the approach to the remaining tasks, the linkage between
the remaining tasks, and whether additional resources could shorten
the length of time needed to complete the remaining tasks. Lockheed
Martin then provided a revised schedule to the FBI. The FBI approved
the revised Lockheed Martin schedule, and that schedule remained in
effect until March 2007 when the FBI and Lockheed Martin jointly
decided that Lockheed Martin would not be able to resolve all of the

       32
           Lockheed Martin did not receive the award fee. Instead, the FBI allowed it
to transfer the $2 million budgeted for the award fee to the cost portion of the
budget.
       33
           See Appendix 3 for an explanation of the management reviews of the
project discussed throughout this report.
                                        - 14 -

                    REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


deficiencies identified during testing in time to meet the Delivery
Acceptance Review scheduled for April 19, 2007. A discussion on the
reasons for the delays follows.

Causes for Delay

      Our audit found the following four primary causes for the delay
in the delivery of Phase 1: (1) an unrealistic schedule, (2) delays by
Lockheed Martin in fully staffing the project with appropriately
experienced personnel, (3) challenges in integrating the various COTS
software components to work as a system, and (4) a progress
reporting schedule that did not allow the FBI to assess the schedule
impact of changes proposed by Lockheed during the course of Phase 1.

Unrealistic Schedule

      Prior to formally soliciting proposals for Sentinel, the FBI created
a notional schedule that broke the project into four phases, identified
deliverables for each phase, and provided an estimated timeline for
each phase. Various documents outline the FBI’s concept for
Sentinel’s development schedule, including the following timeline.




                                  - 15 -

                  REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE




Source: The FBI

       While the Sentinel Acquisition Plan clearly stated that potential
vendors were free to submit proposals with a different number of
phases or suggest changes to the deliverables identified in each phase,
vendors’ proposals had to meet the FBI’s overall deadline of
completion by December 2009. PMO personnel said that Lockheed
Martin’s proposal closely aligned with the FBI’s notional schedule in an
effort to win the FBI’s business. The PMO personnel also stated that
Lockheed Martin’s proposal was completed before it familiarized itself
with ACS and that instead of basing the Phase 1 schedule on the FBI’s
notional concept of the project, Lockheed Martin should have based
the schedule on its own estimates of the time required to achieve the
tasks contained in Phase 1.

      In addition to broad outlines of the project’s overall schedule,
the FBI also dictated certain project milestones. For example,
                                  - 16 -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Sentinel’s Statement of Work specified the timing of the Contract
Implementation Review, the Requirements Clarification Review, and
the IBR. All three of these reviews, described in Appendix 3, were to
occur within 60 days of the March 16, 2006, contract award date for
Sentinel. Meeting the schedule specified in the Statement of Work
would have required that Lockheed Martin staff the Sentinel project
shortly after receiving the contract. The Sentinel Program Manager
told us that, in retrospect, the timeframes in the Statement of Work
were overly aggressive because they did not allow Lockheed Martin
enough time to staff the project.

Delays in Staffing

      In addition to the aggressive schedule, which gave Lockheed
Martin little time to properly staff the Sentinel project, other factors
further delayed Lockheed Martin from properly staffing the project. A
high demand for personnel with current top secret clearances in the
Washington, D.C., area also affected the staffing of the project, as did
Lockheed Martin’s underestimation of the level of experience with
COTS integration that its personnel needed to have. These issues
contributed to both delays in staffing and also higher-than-expected
personnel costs.

      Almost immediately following the contract award, Lockheed
Martin fell behind in its projected staffing levels. For example, by May
2006, less than 2 months into the contract, Lockheed Martin’s
spending on personnel according to EVM data was $476,000 less than
expected primarily because the project had yet to be fully staffed.
According to the FBI, the costs for qualified personnel with top secret
clearances were 25 to 40 percent higher than the cost Lockheed Martin
projected due to a limited supply of qualified personnel with top secret
clearances. The FBI said that shortly after the Sentinel contract was
awarded, the Defense Security Service, the organization responsible
for performing background investigations and granting clearances,
suspended its processing of clearances for all government contractors
for 6 months in an effort to clear its backlog of requests for such
clearances. As a result of the suspension, the supply of cleared
contractor personnel, which was already insufficient to meet demand,
dwindled even more. While Lockheed Martin had fewer staff than
planned, it had to pay each individual more than expected.

      In addition, Lockheed Martin and the FBI also underestimated
the level of COTS integration experience that personnel would need for
the Sentinel project. In a January 2007 briefing to the FBI’s Associate
                                  - 17 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


Deputy Director, the Sentinel Program Manager said that both the FBI
and Lockheed Martin based their original personnel cost estimates on
the assumption that most of the development work could be
completed by recent college graduates, an approach Lockheed Martin
had successfully used on a large scale information technology project
at the Social Security Administration. Several PMO and FBI Chief
Information Office personnel said that throughout Phase 1 of Sentinel,
the level of expertise required of the Lockheed Martin staff to deal with
Sentinel’s COTS software was not sufficient for the project, although
they said that Lockheed Martin eventually added the required
expertise. FBI officials said the quality of the Lockheed Martin staff
had improved during the first phase, but that additional improvements
need to be made if the subsequent phases of the project are going to
be successful. Others said that Lockheed Martin should have
considered contracting with the software manufacturers who
developed the most challenging pieces of software to help with
implementation.

      According to FBI officials, both the FBI and Lockheed Martin
recognize that they underestimated the level of expertise necessary to
work on the interface with ACS and integrate the COTS software
products which make up Sentinel and a service-oriented architecture
(explained in more detail later in this report). According to the FBI, at
the time of contract award the division of Lockheed Martin awarded
the Sentinel contract had a limited personnel pool from which to draw,
and it was not successful in hiring the additional personnel needed in a
timely manner. As a result, Lockheed Martin relied more heavily on
subcontractors than anticipated and transferred personnel from within
other parts of the company.

COTS Integration

       Several PMO officials, including the Sentinel Program Manager
and Lockheed Martin’s Deputy Program Manager, stated that
integrating the various software modules that comprise Phase 1 into a
unified system was a major challenge in Phase 1. Several variables
affect how a given piece of software will perform, including: the
hardware that the software is running on, the settings for that
hardware, the settings for the software itself, and the addition of other
software on the system and the settings of that software. According to
PMO personnel, many of the individual software products can be
configured in hundreds of different ways. As a result, there are
hundreds of potential issues that can occur when integrating different
pieces of software into a system. Consequently, identifying why a
                                  - 18 -

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


particular problem occurred within an integrated system is difficult due
to the number of variables impacting the system.

       The Lockheed Martin Deputy Program Manager said that while
software and hardware manufacturers’ literature, demonstrations, and
trade studies provide information about the functionality of their
products, hands-on experience is necessary to determine if the general
capabilities of a particular COTS product can be configured to
implement the specific functions required by a particular customer.
According to the Deputy Program Manager, it is virtually impossible to
complete a design involving COTS products without hands-on
experience with the product and its interfaces. Risk factors for COTS
integration include the number of COTS components, the number of
interfaces, the complexity of the interfaces, and the amount of
knowledge and experience the integrator has with the product.
Because Sentinel is using multiple software programs, and more than
one software product may be capable of performing a particular
function, Lockheed Martin had to decide which product to use based on
the advantages and disadvantages of each choice. Most COTS
products are complex enough that some amount of manufacturer
support is required to use the product efficiently.

       Several of these factors appear to have had an impact on
Sentinel development during Phase 1 of the project. As discussed
previously, Lockheed Martin did not have staff assigned to the project
with significant expertise in the software components being used to
build Sentinel. Also, the major COTS software manufacturers were not
official Lockheed Martin subcontractors, so their input was not sought
in the design phase of the project. Once Sentinel encountered
problems, obtaining support from the software manufacturers was
time-consuming.

      Two other factors compounded the general challenge of COTS
integration. First, according to the FBI CIO the FBI is using the latest
software and technologies in developing Sentinel, and therefore some
of the software has bugs that had not previously been identified by the
manufacturer. In at least one case, the developer of the software was
not aware of the bug until being notified by the FBI and Lockheed
Martin. Because this was a new bug, the manufacturer had to
research the cause and develop a solution before Lockheed could
implement the patch to the software. Second, Lockheed Martin did not
develop a COTS integration strategy to describe what approach it
would take to overcome the compatibility issues of Sentinel’s various

                                 - 19 -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


components. 34 The Sentinel architect and the independent verification
and validation (IV&V) team both cited the lack of an integration
strategy as a primary reason for the integration problems Lockheed
Martin faced during Phase 1. 35

Assessing Progress

       Sentinel PMO personnel said that the methodology used by
Lockheed Martin to construct the Sentinel project’s schedule made it
difficult to assess the progress of the project. Specifically, they said
the schedule: (1) overused “hard constraints”, (2) contained logic
problems, (3) was not updated accurately, and (4) contained a high
percentage of “level-of-effort” tasks.

       Hard Constraints

      Lockheed Martin utilized project management software that
included a program to establish the project’s schedule. Within the
schedule, timeframes were set for the completion of specific tasks, and
these tasks were entered into the schedule as “hard constraints.”
Hard constraints are dates entered into a schedule that require a task
to begin or end on a specific date, regardless of any other activity with
the schedule. Additionally, if a hard constraint is entered into the
schedule for a task, the schedule’s software will assume that the task
met the constraint, regardless of whether or not it did. For example, if
a task had a hard constraint to be completed by December 1, 2006,
unless the date was updated the project software would assume that
the task was completed by that date, regardless of the actual progress
on the task. Also, if a task has a fixed end date entered into the
scheduling software and the task is not actually completed by that
date, all of the subsequent phases will not be delayed within the
schedule and the completion date for the whole project will not be
moved back. Because of this, hard constraints cloud an assessment of
the impact of schedule slippages on the project end date.



       34
          In general, the strategies for integrating COTS components include
adjusting the standard configuration settings of the system’s components, modifying
the system’s components, replacing problematic components, and adding additional
components.
       35
           In September 2006, the FBI obtained the services of Booz Allen Hamilton
to perform the IV&V function for the Sentinel project. See Finding 2 for a more
detailed discussion of IV&V.
                                       - 20 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


      While the Sentinel Deputy Program Manager stated that hard
constraints are helpful in creating a sense of urgency about completing
a task, we found that using a large number of hard constraints limited
the FBI’s ability to assess the progress being made on the Sentinel
project. Several PMO personnel attributed the overuse of hard
constraints to Lockheed Martin’s problems hiring and retaining an
experienced scheduler, an issue they now believe Lockheed Martin has
resolved. At the PMO’s request, Lockheed Martin has removed many
of the hard constraints from the Sentinel development schedule.

      Logic Problems

      PMO officials also cited problems with some of the logic of
Lockheed Martin’s schedule. Specifically, they said Lockheed Martin’s
schedule did not always accurately reflect the interdependence
between tasks and linked some tasks that were not interdependent
while failing to link others that were.

      Schedule Updates

       Assessing the project’s progress was also difficult because
Lockheed Martin did not accurately update the schedule as required.
Sentinel PMO personnel said a task’s reported rate of completion
appeared to be based on Lockheed Martin management’s assessment
of what it thought the FBI wanted to hear, rather than an actual
assessment of the percentage of the task completed. Two IV&V
reports confirmed problems with Lockheed Martin’s maintenance of the
schedule, including that the schedule was not updated to reflect
activities that occurred in the most recent reporting period and
inaccurate reporting on the percentage of completion of tasks.
Specifically, the IV&V team found that various tasks would be 99
percent complete for more than one reporting period, allowing
Lockheed Martin to claim all but 1 percent of the cost of a task but not
claim that the task was completed.

      Level-of-Effort Tasks

      An FBI policy on EVM issued by the FBI CIO in March 2006
recognizes that some portion of the development of IT systems will be
characterized as level-of-effort, meaning that progress toward the
completion of a task is measured by time spent on the task rather
than progress toward completing the task. Tasks that do not have a
defined deliverable, such as project management, are often measured
using level of effort. However, because level-of-effort tasks are not
                                 - 21 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


tied to a deliverable, it is difficult to determine how much their
completion contributes to the overall progress of a project. Therefore,
in IT development projects like Sentinel it is prudent to have a
schedule with as few level-of-effort tasks as possible. Recognizing
this, the FBI’s EVM policy requires a project to receive approval from
the Chief of the Project Assurance Unit when planned level-of-effort
tasks exceed 15 percent of the total work hours for a project. The
FBI’s Project Assurance Unit denied the PMO’s request to exceed the
15 percent threshold for Sentinel. However, the PMO appealed the
denial to the FBI’s CIO and received his approval for the planned level-
of-effort hours. As shown in the graph below, for every month since
the IBR the actual percentage of level-of-effort tasks exceeded the 15
percent threshold established by the FBI. With the exception of July
2006 through October 2006, the budgeted amount of level-of-effort
tasks also exceeded 15 percent of the budgeted hours. A high level of
both budgeted and actual level-of-effort tasks makes it difficult to
accurately assess the progress of a project toward meeting its goals.

   Level–of-Effort Tasks as a Percentage of Total Work Hours
                 June 2006 through April 2007


       70.0%
       60.0%
       50.0%
       40.0%                                            Budgeted
                                                        Actual
       30.0%
                                                        EVM Policy
       20.0%
       10.0%
        0.0%
           S E - 06




           D - 06




           AP -0 7
           N - 06
           J U 06




                   7
           F E 07
           J A 06


           M 07
           A U 06



           O 06




                -0
                 -




              N-
                -


               B-
               L-


              P-



               V
               G




               R
               T
               N




              R
            EC
             C
             O
          JU




             A




      Source: FBI data

      As Phase 1 progressed, the percentage of hours budgeted for
level-of-effort tasks increased. The following graph shows the increase
in level-of-effort hours budgeted for June 2006 through April 2007 at
the IBR to the hours budgeted in the Phase 1 budget as of March
2007.


                                 - 22 -

                  REDACTED FOR PUBLIC RELEASE
                                     REDACTED FOR PUBLIC RELEASE


                           Hours Budgeted for Level-of-Effort Tasks
                             June 2006 Plan vs. March 2007 Plan


                         30,000

                         25,000
        Hours Budgeted


                         20,000
                                                                                   June 2006 Plan
                         15,000
                                                                                   March 2007 Plan
                         10,000

                          5,000

                             0
                                           6

                                                   06
                                  6




                                                                               7
                                                             6

                                                                      07
                                          -0
                                -0




                                                                            -0
                                                            -0
                                                   T-




                                                                  B-
                                      G
                             N




                                                                           R
                                                        EC
                                               C
                           JU

                                     AU




                                                                 FE

                                                                       AP
                                               O

                                                        D




      Source: FBI data

       As of April 2007, spending on level–of-effort tasks accounted for
27 percent of the total Phase 1 budget. An FBI analysis of the
increase in spending on level-of-effort tasks concluded that most of
the increase resulted from higher than expected spending on program
management costs. This, in turn, resulted from higher than expected
staffing and labor costs.

Tight Schedule Affected Implementation of LCMD Processes

       In attempting to meet the Phase 1 schedule, the FBI took risks
that affected the quality of some of the Phase 1 deliverables and may
have contributed to the schedule delays. Specifically, the FBI allowed
Lockheed Martin to begin building Phase 1 before the design
documentation was complete, contributing to some of the problems
encountered in the testing of Phase 1. The FBI also allowed Phase 1 to
progress to the next stage of testing before correcting all critical
deficiencies identified in previous stages of testing.

Incomplete Design

      In October 2006, the Sentinel PMO allowed Phase 1 to pass
through the Critical Design Review despite hundreds of unaddressed
FBI comments on the System Design Document and the Interface
Design Document, key design documents that provide programmers
with the specifics required to build a system to a customer’s
                                                                  - 23 -

                                     REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


specifications. Both the System Design Document and the Interface
Design Document are supposed to be finalized and approved during
the Critical Design Review.

       The PMO knew of these documents’ shortcomings at the time of
the Critical Design Review. Lockheed Martin had submitted both
documents to the PMO 3 weeks before the Critical Design Review to
allow the FBI time to review and comment on the documents. The
FBI’s review concluded that the documents did not meet standards for
content, completeness, consistency, and quality, and returned the
documents to Lockheed Martin for additional work. The FBI directed
Lockheed Martin to resubmit the documents and advised Lockheed
Martin that it would require 2 weeks to provide formal written
comments on the revised plans. Lockheed Martin resubmitted the
documents on October 4, 2006, 1 day before the Critical Design
Review. As agreed, the FBI did not complete its formal review of the
documents until October 18, 2006, 2 weeks after they had been
resubmitted. However, the FBI and Lockheed Martin still held the
Critical Design Review on October 5-6, 2006, during which time the
PMO concluded that Lockheed Martin’s design documentation was
sufficient to ensure that the design presented could be produced and
when built would meet the design specification.

       Similarly, the Technical Review Board – part of the FBI’s Life
Cycle Management process described in Appendix 3 – concluded that
the system design was not complete or well documented. However, at
Sentinel’s Final Design Review in October 2006, the Board granted the
PMO conditional approval to proceed with the project but required that
six technical issues be addressed, such as the need to provide details
on the number of modules and design details. The Board’s approval
authorized the development of Phase 1 of the project, while also
requiring that the deficiencies found in the design documents be
addressed. Of the six conditions the Board cited, four had not been
resolved as of April 2007, including three that concerned design
documents.

       While a temporary delay would have occurred if the FBI required
Sentinel’s design to be completed before development began, the time
invested during the delay may have shortened the actual time spent
on Phase 1. An April 2007 IV&V report stated that “Historically, most
deficiencies occurred around the display of information to the Personal
and Squad Workbox; prototyping and a complete System Design
Document and Interface Design Document would have avoided many
of these deficiencies.”
                                 - 24 -

                 REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


Testing

       In an apparent effort to keep Sentinel on schedule, the PMO
deviated from sound project management and Sentinel’s Test
Evaluation Master Plan. The PMO allowed Phase 1 to pass through two
program level reviews – the Product Test Readiness Review and the
Site Test Readiness Review – without resolving all high priority
deficiency reports as required by the Test and Evaluation Master
Plan. 36 The IV&V contractor was repeatedly critical of Sentinel’s
testing and expressed concern about the impact the testing
modifications would have on the stability of the system as it moved
forward.

       While we believe that adherence to schedule goals is desirable,
the risk of project failure appreciably rises if corners are cut and there
is not adequate quantitative data to assess the risks to the project of
not implementing disciplined processes in critical areas. Ineffective
implementation of these processes exposes a project to the
unnecessary risk that costly reworks could be required, which in turn
would adversely affect the project’s cost and schedule and can
adversely affect the ultimate performance of the system. Effective
project management requires quantitative data or metrics to assess
whether a project plan needs to be adjusted and to determine what
oversight actions may be needed to ensure that the project meets its
stated goals and complies with agency guidance.

Lockheed Martin’s Cost Performance

        The cost of the contract awarded to Lockheed Martin to develop
Sentinel is about 72 percent of the total Sentinel budget. 37 Therefore,
Lockheed Martin’s ability to deliver its portion of Sentinel within budget
is critical to the cost performance of the overall project. As the result
of a series of contract modifications, the value of Lockheed Martin’s
task order for Phase 1 increased from $57.2 million at the time of the
integrated baseline review (IBR) to $59.7 million in March 2007.
However, in June 2007 Lockheed Martin advised the FBI that it had
incurred costs totaling $64.1 million in the performance of Phase 1.
Lockheed Martin attributed the cost overruns to unanticipated work in



       36
          A deficiency report documents a problem identified in testing and the
resolution of the problem.
       37
            The remaining 28 percent of Sentinel’s budget funds the PMO.
                                         - 25 -

                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


interfacing with existing FBI computer systems and modifications to
the FBI’s testing approach.

       Specifically, Lockheed Martin said the documentation and
functionality of the FBI’s Web-enabled Automated Case Support
(WACS), Phoenix, and ACS systems differed from the descriptions
provided in the FBI’s Request for Proposals. 38 As a result, Lockheed
Martin was not able to reuse portions of the WACS, Phoenix, or ACS
portal interfaces, as it previously assumed it could. Consequently,
Lockheed Martin had to develop extensive amounts of new code to
provide the functionality it believed it was going to be able to reuse
from these existing systems. In addition, Lockheed Martin said it had
to develop an interface control document for ACS. Lockheed Martin
estimates that these two issues required 7 weeks of additional effort
and cost approximately $3.4 million. The Sentinel Program Manager
agreed that the ACS interface control document was not sufficient for
Lockheed Martin to do its work, and that the development of a
satisfactory interface control document added several weeks to the
schedule.

       Lockheed Martin said that changes to the FBI’s testing approach
during Site Acceptance Testing and User Acceptance Testing also
resulted in schedule delays and increased costs. 39 Specifically, the
FBI’s decisions requiring the closure of all high-priority defects prior to
the start of Site Acceptance Testing, increasing the scope of Site
Acceptance Testing, adding unofficial User Acceptance Testing, and
piloting the system before full deployment cost an additional 3 weeks
and $1 million for Phase 1. FBI officials told us there was no change in
the testing requirements, but to ensure that the system met the FBI’s
specifications, supplementary testing was added after the system
failed initial tests.




       38
          Web-Enabled Automated Case Support (WACS) is ACS updated with access
through a web portal. Phoenix is the second generation of WACS intended to access
ACS through mini-programs specifically written to run within Web browsers.
       39
           In general, testing ensures the system satisfies FBI requirements for utility
and performance. Site Acceptance Testing executes a complete set of test
procedures on the software that has actually been delivered from the contractor to
the FBI and installed in order to insure consistency and functionality in the operation
of the software. The purpose of User Acceptance Testing is to gain end users’
acceptance of Sentinel.
                                          - 26 -

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


      In June 2007, the FBI and Lockheed Martin agreed that
Lockheed Martin would absorb approximately $4.4 million in costs it
incurred in excess of the agreed-upon contract amount and that
$2 million budgeted for award fees would be used to reimburse
Lockheed Martin for costs incurred during the development of Phase 1.

      We found that three factors obscured a precise accounting of
Lockheed Martin’s cost performance, which we describe below. First,
even though the FBI transferred some Phase 1 requirements to later
phases of the project, it received cost reductions on Phase 1 from
Lockheed Martin for deferring completion of these requirements.
Second, the FBI did not adequately define all of the Phase 1
deliverables and did not tie all of the deliverables to the requirements
agreed upon for Phase 1. Third, the FBI transferred $2.5 million in
materials and services from Lockheed Martin’s budget to the PMO’s
budget.

Deferred Requirements

      Over the course of Phase 1, the FBI deferred a total of 57 high-
and low-level requirements from Phase 1 to later phases. As a result
of these deferrals, Lockheed Martin was required to deliver less
functionality in Phase 1 than agreed upon at the time the project
budget was established. However, the FBI did not require Lockheed
Martin to determine the decrease in the amount of time and materials
required for Phase 1 resulting from these deferrals, and none of these
deferrals resulted in a decrease in the cost of Phase 1.

      The majority of these requirements addressed user interface or
security capabilities. For example, the capability to display a list of
leads that a squad had completed in accordance with current ACS
screens was deferred to Phase 2. 40 Other areas addressed by the
deferred requirements include the system’s ability to format, sort, and
search data.




       40
          FBI field offices are divided into squads that have specific subject matter
responsibilities such as drug trafficking or counterterrorism. A Supervisory Special
Agent manages each squad and supervises the personnel assigned to the squad.
                                          - 27 -

                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


          Phase 1 Requirements Deferred to Later Phases

 Requirement       Number of           Example of Deferred Requirement
    Area          Requirements
                    Deferred
    Reports             3          Display the number of copies, printer, case
                                   identification, document types, activity dates,
                                   user name and identification, and sort option
                                   when printing Case Document Inventory
                                   Reports.

    Search               2         Perform unstructured searches against items
                                   collected during investigations.

    Security             22        Display restricted items with identification
                                   information (e.g., serial, case identification,
                                   case owner) in search results or reports for
                                   users who do not have permission to view the
                                   item. All other record information shall be
                                   displayed as "Xs".

 User Interface          30        Display a list of covered leads for a squad.
Source: OIG analysis of FBI data

      According to the FBI, it deferred most of the 57 requirements
because it decided the requirement was outside of the scope of Phase
1, did not add value to Phase 1, would require the modification of ACS,
or would duplicate a capability included in a future phase of Sentinel.
FBI officials said they did not believe it was prudent to invest in
upgrading ACS because Sentinel is intended to replace it. We
recognize that phased projects using COTS components often transfer
requirements from one phase to another and, in general, we do not
disagree with the FBI’s transfer of the requirements to later phases.
However, we are concerned that the FBI did not require Lockheed
Martin to determine the financial impact of deferring this work in Phase
1 and adjust the cost of Phase 1 accordingly.

Phase 1 Deliverables

       Throughout the Sentinel project, FBI documents, including slides
from weekly briefings to the FBI Director, have shown four major
anticipated deliverables for Phase 1: (1) a web-based portal to ACS,
(2) a case workbox, (3) the foundational components of a service-
orientated architecture, and (4) data cleansing of the electronic case
file (ECF) portion of ACS. As implemented, Phase 1 delivered the key
ACS portal and case workbox. Phase 1 also delivered the one
component of the ill-defined foundational components of a service-
                                    - 28 -

                   REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


oriented architecture that was appropriate for that phase, but did not
provide the data cleansing of the ECF portion of ACS. 41 As Sentinel
progressed through the life cycle management process, the FBI’s
internal technical reports noted this divergence from the original set of
deliverables. For example, a technical report issued as part of the
design review process noted that “The analysis is based on the ability
of the project to meet the SENTINEL Phase 1 goals. Initially, Phase 1
was to include foundational components of a service-oriented
architecture and ECF Data Cleansing. These two initiatives were
pushed beyond Phase 1 and are not germane to this analysis.” Neither
the foundational components of a service-oriented architecture nor the
data cleansing of ECF data were specified in the requirements for
Phase 1, so the deferral of these goals did not require the deferral of
requirements. However, achieving both of these goals may potentially
require significant financial and personnel resources. And as
mentioned previously, deferral of these goals did not result in a
corresponding decrease in the Phase 1 contract amount.

      In June 2006, the FBI and Lockheed Martin held an IBR for
Phase 1 of Sentinel. One of the goals of an IBR is to agree on the
scope of work. 42 At the IBR, Lockheed Martin identified the following
three major goals for Phase 1.

       •    Portal – a single web-based user interface to the system
            providing access to ACS functionality, a case “workbox” that
            summarizes a user’s workload, enhanced search capabilities
            including saved queries, and a single sign-on within Sentinel.

       •    ACS ECF Data Cleansing – prepare the ECF portion of ACS
            data to be transferred to Sentinel in Phase 2.

       •    Service-oriented Architecture/Enterprise Service Bus –
            provide the governance of the service-oriented architecture
            and web services, and preliminary public key infrastructure
            (PKI) services for Sentinel system administrator login. 43


       41
          See page 34 for a discussion of the common components of a service-
oriented architecture.
       42
          See the Introduction to this report for a more detailed discussion of the
goals of an IBR.
       43
         Service-oriented architecture governance is the policies and controls used
to manage any changes to a service-oriented architecture. PKI is a system of
                                       - 29 -

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Sentinel Portal

      Phase 1 of Sentinel delivered a web-based user interface to ACS
data, giving a much more modern look and feel to ACS data and
allowing users to navigate through the system using a mouse.
However, the portal will not allow users to perform all of the functions
in the three modules that make up ACS: ECF, Investigative Case
Management (ICM), and Universal Index (UNI). Because many of the
functions now performed by ACS will be performed by Sentinel starting
in Phase 2, the web portal to ACS will be useful only until the
completion of Phase 2. As a result, the FBI did not believe that
duplicating all of ACS was cost effective and chose to include only the
most frequently used functions in the Phase 1 portal. The table below
summarizes the number of functions included in the Phase 1 portal
and compares the ACS, the web-enabled ACS (WACS), and Phoenix.

                        XXXXXXXXXXXXXXXXXXX

 XXXXXXX          XXXXXXX          XXXXXXX          XXXXXXX         XXXXXXX
                   xxxxx
     xxx            xxx                xxx              xxx              xxx
     xxx            xxx                xxx              xxx              xxx
     xxx            xxx                xxx              xxx              xxx
    xxxxx           xxx                xxx              xxx              xxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxx



      Because some functionality can be found only in ACS, such as
the uploading of documents, FBI personnel will have to continue to use
ACS while Sentinel is being developed. Appendix 5 lists the
functionality found in WACS, Phoenix, and Sentinel Phase 1. For those
functions not available in any of these three systems, users will have
to continue using ACS until the functions are available in a later phase
of Sentinel. According to the Sentinel Program Manager, the FBI
recognizes that some critical functions, such as uploading documents,
are currently available only in ACS and those functions need to be
integrated into Sentinel as soon as possible. As part of Phase 2, the
FBI plans to enhance Phase 1 to allow users to upload documents.




computers, software, and data that relies on cryptography to provide some aspects
of computer security.
                                        - 30 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Data Cleansing

      Before Sentinel is completed, 23 million ACS records must be
transferred from ACS to Sentinel. The IDP does not include any data
cleansing or data migration capabilities for Phase 1. Rather, the IDP
states “There are no specific requirements for migration of case data in
Phase 1.” However, Lockheed Martin’s proposal included data
cleansing of ECF data as part of Phase 1 in preparation for the data’s
transfer, or migration, to the Sentinel database in Phase 2. As a
result, the FBI added this capability to its description of the Phase 1
capabilities.

       Specifically, Lockheed Martin’s proposal described the overall
data migration effort as consisting of two basic steps: (1) data
cleansing, and (2) data migration. The data cleansing approach
described in Lockheed Martin’s proposal yields an Error Assessment
Report, which documents all of the data errors found in a system.
These errors are then used to build data transformation rules, which
improve the quality of legacy data before the data is migrated to the
system being built. The FBI agreed to Lockheed Martin’s data
cleansing approach at the IBR, and the proposed scope of the data
cleansing efforts were built into the integrated master schedule.
However, further analysis and coordination with FBI headquarters
divisions responsible for ACS and data security led to the conclusion
that the full scope of Lockheed Martin’s proposed data cleansing effort
could not be implemented in Phase 1 and that the actual data
cleansing would have to be deferred to a later phase.

      FBI personnel told us that the FBI deferred data cleansing until
Phase 2 because of technical concerns the FBI had with cleansing data
in advance of migrating it. Specifically, the FBI was concerned that
synchronizing the cleansed data with the actual ACS records at the
time of migration would be difficult. Since the FBI would continue to
add and modify data between the time of the data cleansing and the
time the data would be migrated to Sentinel, the two sets of data
would be different and resolving those differences presents significant
challenges. FBI officials also had concerns about where, or within
what system, to store the large volume of data in the interim between
cleansing and migration.

      The final Data Migration Plan described the Phase 1 data
cleansing efforts as testing and prototyping only. The goals of the
Phase 1 data cleansing efforts are described below.

                                 - 31 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


     •   Complete installation, configuration, and testing of the Phase
         1 data migration environment in the FBI’s testing and quality
         assurance environments.

     •   Complete performance benchmarking of ACS data access
         using the FBI’s testing and quality assurance environments.

     •   Complete testing, integration, and validation of COTS
         products using the FBI’s testing and quality assurance
         environments.

     •   Complete testing, integration, and validation of the target
         word search filtering capabilities of two COTS products using
         the FBI’s testing and quality assurance environments.

     •   Complete error assessment report generation testing using
         the FBI’s testing and quality assurance environments.

     •   Initiate ECF data analysis and migration planning for Phase 2.

     •   Initiate installation, configuration, and testing of Phase 2 data
         migration environment in the FBI production environment.

       The Data Migration Plan states that data quality assessment,
data migration, and data cleansing of ACS ECF production data will not
occur until Phase 2. However, the FBI did not conduct, or have
Lockheed Martin conduct, a cost assessment of the reduction in scope
of the Phase 1 data cleansing on Phase 1 or Phase 2. While the scope
of the Phase 1 data cleansing activities decreased, there was no
corresponding decrease in the cost of Phase 1. Similarly, while some
data cleansing activities were deferred until Phase 2, there was not an
increase in the cost of Phase 2. This change of scope occurred without
a change to the Phase 1 requirements because the System
Requirements Specifications does not contain any requirements that
specifically address data cleansing or migration. Therefore, there were
no requirements allocated to Phase 1 and no requirements deferred to
Phase 2. According to the Sentinel statement of work, “The contractor
shall perform all activities (extract, translate and error correction,
load) necessary to migrate legacy data needed for the operation of
capabilities delivered in each Phase.” Because Lockheed Martin’s
proposal included ECF data cleansing in Phase 1, Lockheed Martin



                                  - 32 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


effectively created a derived requirement, one that was deferred until
Phase 2 without any cost implications. 44

      FBI officials said that while Lockheed Martin had not done any
actual data cleansing during Phase 1, it had made substantial progress
on the data cleansing task, including configuring and testing the data
cleansing software, setting up the data cleansing facility that will be
used during Phase 2, and establishing data cleansing procedures to
adjudicate the resolution of problem data.

Service-Oriented Architecture

       A service-oriented architecture is a collection of services that
communicate with each other. The communication can involve a
simple data exchange or two or more services coordinating on an
activity. Common components of a service-oriented architecture
include a metadata repository, governance, a service registry, and an
enterprise service bus, all of which are described below.

      •    Metadata repository – a database of data descriptions which
           is intended to provide consistent and reliable access to data.

      •    Governance – the mechanisms and policies to control what
           services are available via a service-oriented architecture and
           to whom they are available.

      •    Service Registry - the infrastructure for building, deploying,
           and discovering services on a service-oriented architecture.

      •    Enterprise Service Bus – software “middleware” that connects
           software components and allows the components to
           communicate with each other.

      Of these four components, Phase 1 delivered an enterprise
service bus. However, none of Sentinel’s requirements specifically
address the service-oriented architecture, and therefore the FBI could
not validate whether Lockheed Martin delivered the foundation of a
service-oriented architecture, one of the stated goals for Phase 1. The
FBI’s Incremental Development Plan (IDP), which was provided to all
potential Sentinel bidders as a framework from which to describe the
intent of the Sentinel program, states that Phase 1 “may include an
      44
         A derived requirement is a requirement deduced or inferred from the
requirements in the statement of work.

                                      - 33 -

                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Enterprise Service Bus (ESB) and foundation services,” but does not
further describe what is meant by either “foundation services” or
“foundational components.” According to the FBI, the definition of
“foundational components of a service-oriented architecture” was
introduced during an internal review of the Sentinel design and was
not specifically shared with Lockheed Martin as a goal, objective, or
requirement of Phase 1. The FBI said that as a result, it had no
expectation that Lockheed would specifically address the commonly
recognized basic components of a service-oriented architecture in
Phase 1. FBI officials said that Phase 1’s enterprise service bus and
web portal are both foundational components of a service-oriented
architecture and that the enterprise service bus was the only one of
the four common foundational components that was applicable to
Phase 1.

       At the IBR, according to Lockheed Martin the scope of work for
Phase 1 included governance of Sentinel’s service-oriented
architecture, web services, and preliminary public key infrastructure
(PKI) services for the Sentinel system administrator login. 45 The FBI
and Lockheed Martin also agreed the scope of the Phase 1 service-
oriented architecture would include the following: define and
document the service-oriented architecture including the enterprise
service bus, portal, access control framework with single sign on, ACS
access, services management/governance, data protection/
distribution/ recovery, and workboxes.

      However, at the time of the Phase 1 Preliminary Design Review,
the PMO told the FBI’s Technical Review Board that the “core service-
oriented architecture implementation design/components will be
presented in Phase 2,” and “[t]he enterprise service bus description,
design, architecture will be introduced during Phase 2.” In addition,
the PMO said, “Please note that the bulk of service-oriented
architecture information will come during Phases 2, 3 and 4.” The
technical report done for the combined Deployment Readiness Review
and Site Testing Readiness Review states that a service-oriented
architecture “could not be completed in Phase 1” and that it was
deferred to a later phase.




       45
         Service-oriented architecture governance is the policies and controls used
to manage any changes to a service-oriented architecture. PKI is a system of
computers, software, and data that relies on cryptography to provide some aspects
of computer security.
                                        - 34 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


       The System Requirements Specifications do not delineate
requirements for Sentinel’s service-oriented architecture or the
foundational components of a service-oriented architecture. Because
the System Requirements Specifications are the source for
requirements allocation by phase to supporting program documents,
such as the Requirements Clarification Document (RCD), the RCD did
not allocate any service-oriented architecture related requirements to
Phase 1. Without any service-oriented architecture requirements, the
FBI cannot test whether Phase 1 met the stated service-oriented
architecture objectives.

Transferred Costs

      Through a series of six contract modifications, the FBI increased
the total contract value of Phase 1 by $2.5 million, from $57.2 million
to $59.7 million, but the overall contract value of $305 million did not
change. As expected in a project of Sentinel’s size and complexity,
some of the modifications increased the scope of Phase 1, while others
decreased it. However, the decreases either transferred the cost for
the tasks to the Sentinel PMO budget or to the amount budgeted for
Lockheed Martin’s award fee. For example, in March 2007 the FBI
issued a modification which deleted tape silos (computer hardware
that uses tapes to store large amounts of computer data) from the
Phase 1 contract. Although the tape silos were still necessary for
Phase 1, the FBI purchased silos with more storage capacity with funds
from the PMO’s budget and used the funds originally allocated to the
tape silos to offset the cost of additions to the scope of Phase 1. The
table below shows the deletions in scope to the Phase 1 task order.




                                 - 35 -

                 REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                 Reductions in the Phase 1 Task Order

        Item              Reason for Change                          Amount
 Waiver of award fee         Lockheed Martin                        ($482,712)
                        volunteered to waive any
                        award fee it might receive
                        during the first evaluation
                                  period
  Capability Maturity   The PMO believed its staff                  ($503,826)
  Model Integration    had the necessary expertise
(CMMI) Level 3 for the   for the PMO to achieve
             46
        PMO                    CMMI level 3
      Tape silos          higher-capacity silos                    ($2,106,877)
                        purchased as part of FBI-
                            wide procurement
   Total Deletions                                                 ($3,093,415)
       Source: FBI

      The increases in scope to Phase 1 were for items that Lockheed
Martin believed the government was obligated to provide, subsequent
phases of Sentinel, the operations and maintenance of Phase 1, or
requirements added by the FBI. The following table shows the
additions in scope to the Phase 1 task order.




       46
           Capability Maturity Model® Integration is a process improvement approach
that provides the essential elements of effective processes. There are six capability
levels, numbered 0 through 5. Each capability level corresponds to a goal and a set
of practices.
                                         - 36 -

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


                  Additions to the Phase 1 Task Order

        Item                     Reason for Change                 Amount
     Xxxxxx Xxxx                 The software was not              $610,451
     Xxxxxxxxxxx             included in the baseline bill
      Xxxxxxxx 47              of materials and the FBI
                             agreed it was necessary to
                                   complete Phase 1
  Work-in-progress            The FBI’s Finance Division           $160,863
    accounting for              added the requirement
       Phase 1
  xxxxxxxx Licenses         Phase 2 software purchased            $2,443,644
   and Maintenance           at a price advantageous to
                                        the FBI
 Ramp up for Phase 1           Lockheed Martin needed              $671,932
   operations and             time to hire and train the
    maintenance             personnel to operate Phase
                                           1
  Early Execution of            Allow Lockheed Martin             $1,512,385
 Planning for Phase 2        additional time to plan for
                                       Phase 2
    Non-Sentinel            Purchase enterprise license            $643,064
 xxxxxxxx Enterprise            at reduced price due to
     License and             Sentinel purchase of same
    Maintenance 48                     software
  Total Additions                                                 $6,042,339
Source: The FBI




      47
         Xxxx Xxxxxxxxxx Xxxxxxx xxxxx xx x xxxxxxxxxxx xxxx xxxxx xxxxxxx
xxxxxxxxx xx xxxx xxxx xxxxxxxx xx xxxx xxx xxxxxxx xxxx xxx xxx xxxxxx xxxx
xxxxx xxxxxxxx xxxxxxxx xxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxxxxxx
xxxxxxxxxxxx xxxxxxxxxx xxxxxxxxxxxxx xxxxxxxxxxxxx xxxxxxxxxxxxxx xxxx
xxxxxxxxxxxxxxxxxxxxxx.
      48
          While the FBI purchased the xxxxxxxx enterprise license through the
Sentinel contract, Sentinel funds were not used for the purchase.
                                        - 37 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Conclusion

      Phase 1 delivered the two key components of Sentinel, the web-
based portal and the workboxes. However, it did not include all the
deliverables planned for Phase 1. While we cannot yet assess the full
impact of deferring some of the original Phase 1 deliverables to
subsequent project phases, we believe that deferring these
deliverables may add cost and schedule pressures to subsequent
phases of the project. In addition, we question why cost adjustments
did not occur in Phase 1 due to reduced requirements.

       The FBI’s ITIM framework and the Sentinel PMO both establish
processes that should enable the FBI to avoid the problems that
occurred in the failed Trilogy project, but rigorous implementation of
these processes is necessary for the FBI to reduce the risks it faces in
implementing Sentinel. The schedule and cost issues the FBI
encountered during Phase 1 demonstrate that inadequate
implementation of any of the disciplined processes in systems
development can reduce or overcome the positive benefits of other
processes. For example, the FBI’s decision to allow Lockheed Martin
to begin building Phase 1 without completing the design documents
likely had an impact on the time required for testing and the number
of defects found during testing.

      The FBI is currently reexamining whether the current
development approach is best for the subsequent phases of Sentinel.
Other approaches feature shorter phases and inherently lower the risk
of spending substantial amounts of money on a deliverable that does
not meet the customer’s needs. However, shorter phases may
increase the overall cost and schedule of Sentinel. In our judgment,
while the FBI must continue to closely manage Sentinel’s cost and
schedule, the FBI’s primary consideration in reevaluating Sentinel’s
development approach should be delivering a system that meets the
needs of the FBI regardless of how many discrete project phases may
be needed to accomplish that goal.




                                  - 38 -

                 REDACTED FOR PUBLIC RELEASE
               REDACTED FOR PUBLIC RELEASE


Recommendations

    We recommend that the FBI:

   1. Reconsider the four-phase approach to developing Sentinel to
      limit the scope of future phases to allow them to be
      completed in 9 months or less.

   2. Negotiate decreases in the cost of future phases if
      requirements are deferred in that phase.




                               - 39 -

               REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Finding 2: Phase 2 Planning and Management Issues

      The FBI has implemented several management controls
      and processes that are designed to help it adequately
      manage the development of Sentinel and bring it to a
      successful conclusion. We reviewed four of these controls
      and processes in-depth: (1) EVM, (2) independent
      verification and validation (IV&V), (3) risk management,
      and (4) bill of materials. We found that the FBI has made
      significant progress in each of the four, but that additional
      progress needs to be made in the implementation of EVM,
      risk management, and the bill of materials.

      In addition to these controls and processes, we found that
      the FBI has identified lessons learned during Phase 1 of
      the Sentinel project. We examined six key lessons that, if
      acted upon, will aid the FBI in planning Phase 2 of the
      Sentinel project and reduce risks. We also reviewed the
      status of the recommendations we made in our previous
      two reports on the Sentinel project and found that the FBI
      is taking action to resolve our concerns. We have closed 5
      of the 12 prior recommendations and note that the FBI
      agreed with the remaining recommendations and was in
      the process of taking corrective action. These
      recommendations dealt generally with the FBI’s need to
      complete the required planning and general management
      oversight policies and procedures for Sentinel in order to
      help ensure its success.

Management Controls and Processes

      The FBI has established four important management controls
and processes that, if implemented correctly and fully, will help the FBI
better manage the Sentinel project. However, the FBI needs to
improve its implementation of three of the controls and processes to
ensure their effective use.

Earned Value Management

       As we reported in December 2006, the FBI established an EVM
system for Sentinel as required by OMB, and our current audit found
that the FBI is continuing to implement it. EVM helps manage project
risks by producing reliable cost estimates, evaluating progress, and
allowing the analysis of project cost and schedule performance trends.
                                  - 40 -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


EVM compares the current status of a project, in terms of both cost
and schedule, to the established cost and schedule baselines.
Deviations between the baselines and the current status demonstrate
the project’s progress and the overall level of performance, thereby
enabling a level of accountability to be imposed on the project. When
properly implemented and utilized, EVM allows project management to
pinpoint potential problems and address them before they escalate.

       According to the FBI’s EVM plan, the Sentinel PMO will use the
plan to measure both its and Lockheed Martin’s earned value
performance and report the results to oversight entities. The Sentinel
project’s Statement of Work requires vendors and contractors to fully
implement EVM in accordance with the plan, including having an EVM
system of its own that complies with American National Standards
Institute (ANSI)/Electronic Industries Alliance (EIA) Standard
748-A. 49 This allows the FBI to gather EVM data on the development
portion of the project from Lockheed Martin through monthly electronic
data transfers from Lockheed Martin.

      Our review of EVM reporting from September 2006 to March
2007 showed that the FBI had continued to make efforts to implement
EVM and use EVM data to help manage Phase 1 of Sentinel. Although
the FBI’s implementation of EVM was consistent with the Department’s
guidance, several issues decreased the effectiveness of EVM as a tool
to manage the Sentinel development contract.

       Reliability of EVM Data

       The most significant issue was the reliability of the EVM data
Lockheed Martin provided the FBI. In June 2007, the FBI rejected
Lockheed Martin’s April 2007 EVM data after Lockheed Martin notified
the FBI that it estimated that it had incurred approximately $64.1
million in costs during Phase 1 of Sentinel. Because the EVM baseline
for Phase 1 was $59.7 million, Lockheed Martin’s estimate showed that
its EVM system was not collecting accurate data on Sentinel costs as
Lockheed Martin was accruing the costs – one of the primary purposes
of an EVM system. While Phase 1 was behind schedule, the EVM data
indicated that the cost would not exceed the baseline of $59.7 million.
In the last EVM report released before the end of Phase 1, the FBI
       49
            ANSI/EIA Standard 748-A is the criteria selected by the OMB for EVM
systems. The standard includes 32 specific criteria in five process areas necessary
for a sufficient EVM system: (1) organization; (2) planning, scheduling and
budgeting; (3) accounting; (4) analysis and management reports; and (5) revisions
and data maintenance.
                                        - 41 -

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


estimated that on April 19, 2007, the original planned end date, there
would be enough unallocated funds to pay for an additional 5 weeks of
effort by Lockheed Martin. In addition, the EVM data used for the
March 2007 EVM report indicated that the project was on budget for
the amount of progress made.

       Changes in Performance Measure Baseline

       In addition, Lockheed Martin and the FBI agreed to several
changes in the performance measurement baseline, including two
significant reallocations (also called “replanning”) of resources within
the original baseline amount of $57.2 million. 50 To remain compliant
with the ANSI/EIA Standard 748-A and OMB direction, the FBI must
control changes to the performance measurement baseline. To clarify
what types of changes are appropriate and define the process for
authorizing changes, the Department’s Office of the CIO (OCIO)
developed and distributed guidance on revisions to a project’s
performance measurement baseline. Once the baseline has been
established, any changes to it must be managed through a
documented change control process. If a change is authorized, it
should be incorporated into both the project’s budget and schedule in
a timely manner. Any changes to the baseline must be recorded prior
to the commencement of the new work in the baseline revision.

       The Department’s guidance describes four categories of baseline
revisions: (1) internal replanning, (2) customer-directed change;
(3) application of management reserve; and (4) reprogramming.

       •    Internal replanning involves adjustments to future work in the
            baseline as long as the adjustments do not affect the total
            scope of work, baselined cost, or scheduled completion of the
            project. Replanning, which requires the program manager’s
            authorization, should not result in any changes to the total
            amount authorized or key schedule milestones. Replanning
            may include revisions such as:

              o adjusting future work between work packages within
                the cost and schedule constraints of a single control
                account;


       50
           Replanning revises the time-phased budget for completing the work
remaining in a project without any changes to the total scope of work, baselined
cost, or scheduled completion of the project.
                                        - 42 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


           o adjusting future work between control accounts; and

           o distributing undistributed budget to control accounts.

     •   Customer-directed changes include contract changes and
         modifications that typically add or remove scope to the
         original performance measurement baseline. Funds from
         contract changes and modifications should be distributed to
         control accounts as soon as possible. While the contracting
         officer authorizes the contract modification, the program
         manager authorizes the change to the performance
         measurement baseline. A customer-directed change may
         result in an increase to the performance measurement
         baseline and may require the adjustment of key milestones.

     •   The management reserve, a portion of a project’s budget set
         aside to cover any unanticipated costs of a project’s scope of
         work, is not part of the project management baseline and
         therefore its use requires a change to the baseline. The
         program manager can authorize the use of the management
         reserve, which may result in an increase to the performance
         measurement baseline. However, the Department CIO should
         authorize any changes to a project’s key milestones.

     •   Reprogramming revises the project baselines. This typically
         takes place when project performance deviates significantly
         from the original plan – usually the cost and time necessary
         to complete the project’s remaining work exceeds the budget
         and schedule. Reprogramming sets planned value and
         earned value equal to actual cost, thus eliminating any cost
         and schedule variances. However, reprogramming should
         always be accompanied by a thorough replanning of the
         remaining work and should never be implemented solely to
         eliminate current variances. Reprogramming is authorized by
         the Department CIO and usually results in changes to the
         performance measurement baseline and the adjustment of
         key milestones.

      Customer-directed changes, applying the management reserve,
and reprogramming usually change the amount of the project
management baseline since these types of revisions adjust a project’s
scope, cost, or schedule. Customer-directed changes and application
of the management reserve do not have any effect on the cost
variances or schedule variances. Reprogramming sets planned value
                                 - 43 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


and earned value equal to actual cost, thus eliminating any cost and
schedule variances. The Department’s guidance refers to
reprogramming as an extreme measure that should be applied when,
due to performance issues, all key stakeholders agree that the original
plan was either seriously flawed or is no longer practical. Any baseline
revisions, regardless of the type, should be documented according to a
change control process compliant with the ANSI/EIA-748A guidelines.

      We reviewed the revisions to the Sentinel Phase 1 performance
measurement baseline and found that the FBI and Lockheed Martin
revised the project management baseline via internal replanning,
customer directed change, and application of the management
reserve. In addition, in a revision very similar to the application of
management reserve, Lockheed Martin and the FBI agreed to transfer
about $483,000 in potential award fees to supplement the
performance measurement baseline.

       The most substantial of the revisions occurred in August 2006
when, as part of a replanning effort, the FBI transferred about $15
million from the distributed budget to the undistributed budget and,
through a transfer from the management reserve, increased the
performance measurement baseline by $1.6 million. Almost all of the
transfer to the undistributed budget was the result of a decrease in the
amount budgeted for equipment. FBI officials said changes in the
planned equipment and uncertainty about other equipment
necessitated the transfer. This replanning effort also delayed the
timing of equipment purchases and moved the planned value
associated with those purchases. As shown below, the revisions had a
significant impact on the project’s planned value, the basis for
measuring a project’s progress against its schedule.




                                 - 44 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


            Original Planned Value vs. Revised Planned
                   April 2006 through May 2007


        $60,000,000

        $50,000,000
                                                    Original Planned
        $40,000,000                                 Value (1) (June
                                                    2006)
        $30,000,000
                                                    Revised Planned
        $20,000,000                                 Value (2) (March
                                                    2007)
        $10,000,000

                 $0
                     06
                      6




               D 6




                      7
                     06




                     07
                      6
                   r-0




                    -0




                   r-0
                   -0
                  g-




                  b-
                  n-



                 ct

                ec
               Ap




               Ap
               Au
               Ju




               Fe
               O




      Source: OIG analysis of FBI data

      Compared to the original plan, these revisions reduced the
amount the FBI planned to accomplish from August 2006 through
February 2007. In July 2006, the EVM data showed Lockheed Martin’s
progress was about 10 percent behind schedule. By October 2006,
2 months after the replanning, the EVM data showed that Lockheed
Martin was only 1 percent behind schedule. If the original plan had
been in effect, Lockheed Martin would have been 24 percent behind
schedule. However, neither the prior cost variance nor the prior
schedule variance was set to zero as part of this replanning.

       As previously discussed, the FBI issued a series of four contract
modifications which increased or decreased the scope of work and the
contract amount. These contract modifications also required revisions
to the performance measurement baseline and the respective cost
accounts. In addition, the modifications funded planning for Phase 2
and preparation for Phase 1 operations and maintenance, both of
which are outside of the scope of the development of Phase 1. In our
judgment, frequent and numerous changes to the scope of work make
EVM data less reliable. The Department’s CIO agreed and said that
revisions to the performance management baseline are expected but
frequent revisions make it difficult to determine what the EVM data is
measuring against.

     The FBI’s implementation of EVM comports with the
Department’s guidance and aids the FBI in managing the project, but
                                     - 45 -

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


it does not provide all the data the OMB believes necessary for
oversight purposes. OMB officials said it would be helpful to them to
be able to compare Sentinel’s performance to the original baseline. As
a result of OMB concerns that the FBI reprogrammed or rebaselined
Phase 1 of Sentinel without the required OMB approval, we reviewed
all changes to the time-phased budget used to measure Sentinel’s
progress. We concluded that the FBI had not rebaselined the project,
but that its frequent replanning diminished the quality and usefulness
of the EVM data for higher-level oversight.

Independent Verification and Validation

       Inadequate implementation of any one of the disciplined
processes in systems development can significantly reduce or
overcome the positive benefits of others. When this happens, it is
important to act promptly to address risks so as to minimize their
impact. One way to monitor the processes used in systems
development is to implement an IV&V process. In September 2006,
the FBI hired Booz Allen Hamilton (Booz Allen) to perform the IV&V
function for the Sentinel project. Since then, Booz Allen has
participated in FBI-only project meetings and joint FBI-Lockheed
Martin project reviews. In addition, Booz Allen has provided written
comments and recommendations on many project documents, and
produced 15 project status briefings and monthly reports. Booz Allen
also produced monthly reports and biweekly briefings that were sent
directly to the FBI’s CIO.

       These reports and briefings highlighted recent activities,
upcoming events, and Booz Allen’s view of the overall status of the
project, including a discussion of risks that could affect the project’s
cost, schedule, or performance. The IV&V products also included
recommendations and best practices. As of May 2007, Booz Allen had
made over 70 recommendations based on risks and other areas it
identified. Booz Allen also reported several project management and
oversight weaknesses that increased the risks associated with
Sentinel, including the following:

      •   Design Incompleteness - In December 2006, the IV&V team
          noted that the PMO staff made several hundred comments on




                                  - 46 -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


            System Design Document and the Interface Design
            Document. 51 Due to the level of effort and time required to
            address the comments in the documents, the PMO and
            Lockheed Martin decided not to address these comments in
            the final design documentation prior to development, but to
            address the comments in the Software Product Specification,
            which describes the specifications of a system as it was
            actually built. Booz Allen was concerned that the developers
            would create Sentinel without a complete understanding of
            the agreed-upon design. Booz Allen recommended that the
            FBI categorize and prioritize the comments, and then
            requested that Lockheed Martin incorporate the high-priority
            comments into revised documents.

       •    Test Procedures - In December 2006, Booz Allen reviewed the
            test procedures submitted by Lockheed Martin in preparation
            for the Product Test Readiness Review (PTRR), which
            assesses the readiness of a system for formal testing. (See
            Appendix 3 for a description of a PTRR.) Booz Allen found
            that 90 percent of procedures were unsatisfactory for
            performing dry-run or system-level tests for one or more of
            the following reasons: unclear test objectives, inadequate
            text description of the test, insufficient details on the test
            procedures, inadequate description of the results expected
            from the test, or unclear user roles. Booz Allen warned that
            inconsistent test procedures could result in inconclusive
            evidence that the system met requirements and that the
            project could be delayed since a verified set of test
            procedures would be completed before proceeding to formal
            testing. Booz Allen made a series of recommendations to
            improve the test procedures and recommended that the FBI
            and Lockheed Martin reexamine the testing schedule to
            determine whether the needed improvements to the test
            procedures would cause a delay in the start of formal testing.

       In addition, as of May 2007 Booz Allen considered the following
significant issues open and was tracking their resolution.



       51
           The System Design Document contains the design decisions made for the
system as well as the system’s architectural design and the services it will utilize.
The Interface Design Document details the design of and responsibility for both
internal data exchanges (within Sentinel) and external data exchanges (with systems
outside of Sentinel).
                                        - 47 -

                    REDACTED FOR PUBLIC RELEASE
            REDACTED FOR PUBLIC RELEASE


•   Testing - In April 2007, Booz Allen noted that the Sentinel
    system had been tested with a maximum of only 217
    concurrent users, a load which Booz Allen viewed as
    unrealistic. Because the limited load was not representative
    of the user activity Sentinel would face once it was deployed,
    Booz Allen concluded that Sentinel was vulnerable to
    performance degradation – such as increased response times
    – during periods of high workload. Booz Allen recommended
    load testing with a number of users similar to the load that
    would be placed on Sentinel once it was deployed nationwide.
    Booz Allen believed this additional testing was necessary to
    identify and fix any performance related errors prior to the
    production release.

•   Physical Architecture – In April 2007, Booz Allen identified the
    proposed hardware system as a potential vulnerability due to
    concerns about the system’s ability to be available to users
    whenever needed. Specifically, Booz Allen believed that the
    system did not have the redundant components needed to
    keep it up and running should a server fail. Booz Allen
    recommended enhancing the current hardware architecture to
    ensure higher availability, reliability, and performance of the
    Sentinel system.

•   Earned Value Management – Lockheed Martin was not
    contractually required to generate variance analysis reporting
    at the control account level. As a result, Booz Allen reported
    that Lockheed Martin did not provide in-depth insight into the
    cost and schedule drivers for the discrete technical areas.
    While the PMO required Lockheed Martin to complete a “root
    cause” analysis when a substantial variance occurred for the
    program as a whole, it did not require one for variances in
    major control accounts. Booz Allen was concerned that a
    high-level analysis of the program’s variances from the plan
    would not allow the FBI to completely evaluate the technical
    risk posed by the variance or Lockheed Martin’s proposed
    strategy for eliminating the variance. In addition, Booz Allen
    had the following EVM concerns:

          o Activities in the Integrated Master Schedule (IMS)
            without Work Breakdown Structure Alignment – Booz
            Allen identified several activities in the IMS without


                             - 48 -

            REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


                    baseline dates and with no cross-reference to the
                    work breakdown structure. 52

                 o Inaccurate Statusing (reporting of level of
                   completion of an activity) – Booz Allen reported that
                   the IMS showed that Lockheed Martin had claimed
                   that some tasks were completed when they were
                   not. For example, Lockheed Martin reported that it
                   delivered the Security Vulnerability Risk Matrix on
                   March 12, 2007, and recorded the task as 100
                   percent complete in the IMS. However, the matrix
                   Lockheed Martin submitted was essentially a copy of
                   the FBI template and contained no data. Booz Allen
                   expressed concern that the ground rules for taking
                   credit for meeting a task may only require
                   deliverable submission and not address quality,
                   acceptance by the FBI, and rework.

                 o IMS Logic Conflicts – These types of IMS constraints
                   limit impact analysis. Activities with “hard
                   constraints” are likely to adversely impact the critical
                   path. Booz Allen noted that the IMS used “hard
                   constraints” such as “Must Finish On.” The use of
                   hard constraints created conflicts in the underlying
                   logic of the schedule. For instance, the use of “Must
                   Finish On” forced the scheduling software to record
                   that a given activity finished on the “Must Finish On”
                   date, regardless of whether that activity was finished
                   early or had not yet been completed. Without an
                   accurate record of when the task is completed, it is
                   difficult to assess when tasks that depend on the
                   completion of the first task can begin.

      The IV&V process has resulted in numerous Booz Allen
recommendations related to Sentinel Phase 1 development. We
believe that Booz Allen has been able to identify areas of concern,
explore them, develop recommendations and inform FBI decision

      52
          At a minimum, an integrated master schedule shows the expected start
and stop dates for each event and accomplishment in a project’s integrated master
plan. To aid in the day-to-day management of a program, each event or
accomplishment may be broken down into multiple level hierarchy of tasks necessary
to achieve the larger task. A work breakdown structure is a tool for defining the
hierarchical breakdown of tasks and activities in an integrated master schedule.

                                      - 49 -

                   REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


makers in a timeframe that allows for meaningful changes to the
project. See Appendix 6 for a list of Booz Allen’s IV&V
recommendations.

Risk Management

      The FBI has instituted a risk management process to identify and
mitigate the risks associated with the Sentinel project. The risk
process is managed by the Sentinel Program Manager and a Risk
Review Board, which, according to the Risk Management Plan, is
supposed to meet biweekly. 53 The most significant risks identified by
the board are examined at monthly Program Management Review
sessions and other Sentinel oversight meetings in accordance with the
FBI’s Life Cycle Management Directive (LCMD). 54

       The purpose of risk management is to assist the program
management team in identifying, assessing, categorizing, monitoring,
controlling, and mitigating risks before they negatively affect a
program. A risk management plan identifies the procedures used to
manage risk throughout the life of the program. In addition to
documenting the risk approach, the plan focuses on how the risk
process is to be implemented; the roles and responsibilities of the
program manager, program team, and development contractors for
managing risk; how risks are to be tracked throughout the program
life cycle; and how mitigation and contingency plans are implemented.

       According to the Sentinel Risk Management Plan, risks are to be
identified, managed, and tracked throughout the life of the project.
When a proposed risk is brought before the Risk Review Board, the
board’s voting members decide whether or not to accept the risk as an
“open” risk and, if accepted, vote on the severity the risk will have on
the project’s cost, schedule, and performance and the probability the


       53
           According to the Sentinel Risk Management Plan, the Sentinel Risk Review
Board will include representatives from the following: program manager, systems
engineer, program manager support personnel, systems engineer support personnel,
program sponsor, users, the prime contractor, sub-contractors (as determined by the
prime contractor), the Project Assurance Unit, and the Sentinel risk coordinator.
       54
           In addition to the risk management processes cited above, the following
receive briefings that include information about Sentinel risks: the FBI Director
(weekly); a review team with senior representatives from the Department of Justice,
OMB, and Director of National Intelligence (monthly); the FBI CIO’s Advisory Council
(bi-monthly); the FBI Director’s Advisory Board (as requested); and congressional
oversight committees (quarterly).
                                         - 50 -

                    REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


risk will occur. Risks brought before the Risk Review Board are
documented in a risk register, which includes the following:

          •    description of the risk,
          •    impact on the program should the risk occur,
          •    phase of Sentinel affected by the risk,
          •    person responsible for managing the risk,
          •    OMB risk category,
          •    severity of the risk as voted by the Risk Review Board,
          •    probability the risk will occur as voted by the Risk Review
               Board,
          •    strategy to mitigate the risk,
          •    risk status,
          •    contingency trigger, and
          •    contingency plan.

      The risk register lists open risks in rank order based on the risks’
probability and severity ratings. The PMO is responsible for tracking
and periodically reviewing risks that are closed or resolved to prevent
recurrence and to document the effectiveness and any unintended
consequences of the mitigation strategy employed. Generally,
Sentinel’s mitigation strategy has been to develop a series of actions
that will decrease the probability a risk will turn into an issue or to
reduce the severity of a risk’s impact on Sentinel.

       Program risks include risks that are identified and managed by
the development contractor as well as risks that can only be identified
and managed by the FBI. This requires that risk management be
performed by the vendor and subcontractors to identify risks from the
contractor perspective, and by the FBI program management team to
identify risks from the FBI’s perspective.

       As of April 2007, the FBI had identified and was managing 16
open risks to the Sentinel program, including the following top-ranked
risks:

      •       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

      •       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
              xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx;

      • xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                      - 51 -

                      REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


      •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
          xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

      Risk Management Challenges

      We view the FBI’s ability to interface with other FBI IT systems
from which it will extract data as a potentially significant challenge.
The project manager said that during the planning stage of Sentinel,
he was assured by the FBI that the documentation about ACS that
Lockheed Martin needed in order to develop Sentinel existed.
However, as discussed previously, Lockheed Martin had unanticipated
problems with the ACS system documentation. In order for Sentinel to
be able to extract information from ACS files, Lockheed Martin had to
reverse engineer ACS to create satisfactory system documentation,
which was then used to build the necessary interfaces between the two
systems. According to the project manager, as part of the
documentation re-creation Lockheed Martin had to develop new
documentation for approximately 71 modules. The unexpected project
took 4 weeks to design and an additional 4 weeks to develop. As a
result, the Sentinel Program Manager has identified the potential lack
of adequate documentation for other systems’ interfaces and business
processes as a risk to the remaining phases of Sentinel. This risk has
the potential to impact both the budget and schedule of the Sentinel
project.

       We also view the FBI’s ability to prepare the data for transfer
from ACS into Sentinel as a significant challenge. Much of the work to
be done for data cleansing will depend on the condition of the data in
ACS, which is the data to be cleansed then migrated to Sentinel.
According to the FBI, one significant problem in ACS is that the data
fields do not check or correlate. This means that data in a given field
may not represent the data expected in that field. For example,
“XXXXX” could be entered in the field for recording the date an item
was entered into ACS. If a large amount of data in ACS is in this or a
similar condition, this could have a significant impact on Sentinel’s
development schedule.

       Migration of data from ACS to Sentinel is another potential
significant challenge. There are more than 23 million records in ACS
that will need to be migrated to Sentinel, and a major problem for the
data migration is that ACS data is linked by serial numbers. One of
the challenges will be to keep the data together during migration. In
addition, the timing of this data migration will be crucial. During data
migration there needs to be a minimal number of new ACS entries;
                                  - 52 -

                 REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


otherwise migration can never be fully completed. One idea the FBI is
considering is to make ACS inaccessible for a period of time during this
migration. Two other options are to turn off the electronic case file
(ECF) on ACS and only allow entries into Sentinel while still using the
ACS user interface or to flag ECF data when it has been accessed and
queue the flagged data for migration into Sentinel within 24 hours.

       Our review of the April 30, 2007, risk register showed that the
majority of the 16 open risks are most likely to affect the second
phase of the Sentinel project. 55 As shown in the following chart, the
Risk Review Board classified 15 of the 16 (94 percent) risks as having
a potential impact on Phase 2. 56 Appendix 7 lists the 16 risks in order
of priority as well as the phase of Sentinel they could affect.

                        Open Risks by Sentinel Phase




                   Phase 1 & 2 (2    Phase 1 (1 Open
                    Open Risks)           Risk)




                                                                             Phase 1
                                                                             Phase 2
                                                                             Phase 1 & 2




                                     Phase 2 (13 Open
                                          Risks)



       Source: OIG analysis of FBI data

       Risk Mitigation Strategies

      According to the Risk Management Plan, a risk mitigation
strategy should be developed for each open risk to eliminate or reduce
the probability or impact of the risk on Sentinel’s success. According

       55
          The April 30, 2007, risk register is the latest register that the FBI
provided us.
       56
            Two risks were assigned to both Phases 1 and 2.
                                         - 53 -

                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


to the Risk Management Plan, risk mitigation strategies should include
the following information:

       •    description of the mitigation activity (required),

       •    organization and individual responsible for executing the
            mitigation strategy (required),

       •    measure of effectiveness (required),

       •    schedule of activities with completion dates, and

       •    resources required and cost estimates of additional activities

       The Risk Management Plan requires a mitigation strategy for any
open risk assessed with at least a medium impact or probability of
occurrence and calls for the mitigation strategies to be recorded in the
risk register. The strategies should be reviewed and revised during
team status meetings and risk management meetings.

       We reviewed the April 30, 2007, risk register and found that the
FBI had developed mitigation strategies for the 9 risks for which a
strategy is required. 57 However, we found that mitigation strategies
for all 9 were incomplete because none of them included a description
of how the effectiveness of the mitigation strategy would be measured.
In addition, none of the mitigation strategies described the resources
required to implement the strategy or the cost of its implementation.

       Contingency Plans

       According to the FBI’s risk management plan, the Sentinel PMO
should develop a “contingency trigger” and a contingency plan for each
risk it is managing that has a probability or severity rated as at least
medium by the Risk Review Board. A contingency trigger is an event
that would convert a risk into an operational issue and cause the FBI
to implement a risk’s contingency plan. However, we found that the
April 30, 2007, risk register included a contingency trigger and

       57
           Of the 16 open risks in the April 30, 2007, risk register, 6 had both a
probability of occurrence and severity of impact assessed below “medium” and are
therefore not required to have a mitigation strategy. However, the FBI developed
mitigation strategies for them anyway. One of the 10 remaining risks did not have
probability or severity ratings, so we could not determine whether it required a
contingency plan.

                                       - 54 -

                    REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


contingency plan for only 3 of the 9 risks required to have a
contingency plan. In addition, only 2 of the risks ranked in the top 5
risks had a contingency trigger or plan. Yet, while the FBI is not fully
complying with the risk management plan’s contingency trigger and
contingency plan requirements, we found that the FBI’s compliance
has improved since our previous audit in December 2006.

      The Sentinel Risk Manager said that the Phase 1 schedule delays
had caused the Sentinel PMO to focus its efforts on avoiding further
delays and that the discipline required to maintain the risk register had
been diverted to other tasks. That explanation notwithstanding, we
believe there should be a contingency plan developed for each major
risk having the potential to result in a significant cost, schedule, or
performance deviation from the project baselines.

      Closed Risks

       According to the Sentinel Risk Management Plan, risks that are
resolved or closed will continue to be tracked and periodically reviewed
to prevent occurrence and to document effectiveness and unintended
consequences of the mitigation strategy employed. We reviewed the
68 closed risks in the April 30, 2007, risk register and found no
evidence that the mitigation strategies for 32 of the risks had been
fully implemented. We recognize that full implementation of a risk’s
mitigation strategy may not be necessary to prevent a risk from
occurring. However, none of the entries for the 32 risks indicated that
full implementation of the mitigation strategy was not warranted. To
maintain the integrity of Sentinel’s risk management process and to
show that the FBI has effectively addressed all closed risks, we believe
that the basis for closing risks should be clearly documented in the
Sentinel risk register.

      Risk Register Maintenance

      The Sentinel Risk Management Plan requires that the Sentinel
Risk Review Board meet at least biweekly and that the risk register be
updated after each meeting. We found during the period from
August 11, 2006, through May 4, 2007, the Sentinel Risk Review
Board met 16 of the required 20 times. During this 8-month period,
we identified 4 periods when the Risk Review Board went 3 weeks or
more without meeting. The Sentinel Risk Manager told us holidays
and major program reviews caused the lapses in the standard meeting
schedule.

                                  - 55 -

                  REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


       In addition, we found other problems with the maintenance of
the risk register.

      •   The risk register did not always accurately document the date
          of the Risk Review Board meeting, suggesting to us that FBI
          personnel could not determine whether they were looking at
          the most recent risk information.

      •   Some risk registers with different dates were exact
          duplicates, indicating to us that the risk information had not
          been updated.

       When the FBI does not adhere to the disciplined processes
required by the Sentinel Risk Management Plan, the project becomes
increasingly vulnerable to risks. For Sentinel to succeed, risks must be
diligently monitored and managed, and accurate data on the risks
facing Sentinel must be available to the PMO staff as well other
oversight organizations both within and outside the FBI.

      Risk Ownership

       When a new risk is opened, the Sentinel Risk Review Board
assigns an owner to that risk. Risk owners are required to: (1) draft
the risk mitigation plan; (2) determine contingency triggers, (3) draft
contingency plans to reduce the impact of a risk condition actually
occurring, (4) report on statistics, and (5) ensure that mitigation plan
is implemented. At the time of our audit, most risk owners headed
one of the units that make up the Sentinel PMO. Most of the risk
owners also sat on Sentinel’s risk review board. We support the idea
of having one person taking a lead role in managing each risk.
However, as discussed below, the process of risk ownership does not
appear to be functioning as intended. Specifically, during interviews
with risk owners we found that some:

      •   could not explain the nature of the risks they had been
          assigned,

      •   were not the most active in designing or implementing the
          strategy for mitigating the risk,

      •   thought they did not have the expertise to fulfill their role as
          risk owner, or


                                   - 56 -

                  REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


      •   thought they did not have the authority or capability to
          implement a risk’s mitigation strategy.

       In addition, the responsibility for managing Sentinel’s risks is
disproportionate; two people were responsible for the majority of the
risks open as of April 2007. In our judgment, risks cannot be
adequately managed if the personnel assigned cannot do not have the
required expertise or cannot devote a sufficient amount of time to a
particular risk.

      Issue Tracking

       According to the Sentinel Risk Management Plan, risks that are
considered unavoidable, and therefore its mitigation strategy options
are outside of Sentinel program management control, are to be
assigned as an issue and tracked and reported accordingly. If a risk is
identified as an issue by the Sentinel PMO, it is transferred from the
open risk section of the risk register to the closed risk section, where it
is no longer actively managed. However, the FBI has not implemented
a system to track issues and their resolution. Sentinel officials told us
that they are aware of the need to actively manage issues and are
considering different methods to do so.

       The FBI has made significant progress in implementing a
program to manage the risks that threaten Sentinel’s cost, schedule,
and performance. However, the effectiveness of the risk management
program depends on disciplined implementation, and we found that
the FBI has not always adequately implemented the processes
necessary to reduce the risks that Sentinel faces. With respect to
currently identified project risks, we view the FBI’s ability to interface
with the systems from which it will extract data as a potentially
significant challenge. In Phase 1, Lockheed Martin had unanticipated
problems connecting Sentinel with ACS because there was no detailed
documentation describing how ACS works. Consequently, Lockheed
Martin had to create the documentation itself. The Sentinel PMO did
not anticipate this task because the managers of ACS told the PMO
that all of the necessary documentation existed. Because this
unexpected task strained both the Phase 1 budget and schedule, the
PMO is now tracking documentation for the other systems with which
Sentinel must interface as a risk.




                                   - 57 -

                  REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Bill of Materials

       A Bill of Materials (BOM) is a document that centralizes
information from numerous system documents. The BOM should list
all parts and components, both hardware and software, that comprise
an IT system. According to the FBI’s LCMD, a BOM should provide a
complete list of all parts, assemblies, COTS equipment, and software
that make up the system as well as the information required to
construct new units for the system or order spare parts for it.

     Lockheed Martin submitted a BOM, as required, as part of its
proposal when competing for the Sentinel project. Contractually,
Lockheed Martin is required to purchase the list of items on the BOM.
However, as is to be expected in a project as complex as Sentinel,
Lockheed Martin has needed to revise the BOM submitted in its
proposal. Several allowable reasons for BOM revisions include:

      •   Specific models of equipment have become obsolete prior to
          purchase;

      •   Model numbers of specific equipment have changed;

      •   The cost of specific hardware or software has changed;

      •   Items were mistakenly omitted on the original BOM; and

      •   The design or approach of Sentinel has evolved as the project
          has progressed.

      Because of the importance of having an accurate BOM, the
Sentinel PMO established a BOM Deviation Policy. This policy
establishes the criteria for what constitutes a change to the BOM and
whether Lockheed Martin needs the FBI’s approval prior to making a
change to the BOM. The policy defines a deviation as any difference
between the original cost, model number or purchase date, or any
addition or deletion of material. Lockheed Martin must obtain approval
from the Sentinel Contracting Officer’s Technical Representative
(COTR) for changes when the cost of materials to be purchased
increases from the originally proposed cost by the lesser of 5 percent
or $1,000, or there is a change to the purchase date of material by




                                  - 58 -

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


30 days or more. 58 However, changes to the BOM resulting from
Sentinel Configuration and Change Management Board proceedings do
not require approval from the COTR. 59 Every month, Lockheed Martin
is required to submit a BOM Deviation Report that lists all changes
made to the BOM in the last month, regardless of whether FBI
approval is needed.

      According to the Sentinel COTR, Lockheed Martin also
established its own procedures for making changes to the BOM,
requiring its Engineering Review Board to approve every change
request before seeking approval from the FBI. However, according to
the COTR Lockheed Martin employees viewed approval by the
Engineering Review Board as final and therefore did not submit all
changes to the FBI as required. The Sentinel PMO has recognized that
Lockheed Martin employees were not fully aware of the PMO’s policies
for making changes to the BOM and has begun working with Lockheed
Martin to clarify its policies.

      In addition to not following the policy for making changes to the
BOM, Lockheed Martin also did not submit the required BOM Deviation
Reports. According to the Sentinel COTR, Lockheed Martin’s failure to
submit the deviation reports was linked to confusion about the
approval process for making changes to the BOM, as discussed above.
Instead of BOM Deviation Reports, Lockheed Martin provided periodic
equipment purchase reports to the PMO. However, these reports could
not be reconciled to the BOM and did not document proper FBI
approval, so the PMO could not verify whether all items on the
purchase report were listed on the BOM or received FBI approval. The
same was true of Lockheed Martin’s invoices.

       The Sentinel PMO is aware of these shortcomings and has
established a joint Lockheed Martin-FBI team to revise the PMO’s
policies for making changes to the BOM. FBI officials said the revised
policy would include solutions to all of the issues discussed above. In
       58
           The Sentinel COTR is assigned to the Business Management Unit and
assists the contracting officer with the technical oversight necessary to execute the
Sentinel contract. Specifically, the COTR is the official recipient of all contract
deliverables, coordinates the delivery of government furnished equipment and
information to the prime contractor, and verifies invoices.
       59
          The Sentinel Configuration and Change Management Board is responsible
for approving updates to any of Sentinel’s baselines. The Board adjudicates
proposed changes affecting system requirements, configuration management, risk
management, and documents that affect the project’s scope, schedule and cost.

                                        - 59 -

                     REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


addition, at the close of Phase 1 the FBI required Lockheed Martin to
submit a BOM documenting the system as it was built and reconcile
that BOM to Lockheed Martin’s invoices.

       In addition to the issues with which the FBI was aware, we
identified another significant flaw in the PMO’s BOM deviation policy.
While the policy states that a deviation is any addition or deletion to
the BOM, the policy does not require FBI approval for these additions
or deletions. Instead, the policy only requires approval for cost
increases and changes to purchase dates for items already on the
BOM. The lack of written procedures for making changes to the BOM
increases the risk that the document will not provide an accurate
reflection of the equipment that has been purchased or that needs to
be purchased to ensure successful completion of the project. This
information is necessary to control costs, manage property, and
prevent unnecessary or wasteful purchases. The Sentinel PMO agreed
with our concerns and said that this issue would be addressed in
revised BOM policies.

       According to Lockheed Martin records obtained from the FBI,
changes to the BOM have been significant, resulting in a reduction of
nearly $7 million from the cost of Phase 1. As shown in the following
table, during Phase 1 Lockheed Martin deferred the purchase of $5.8
million worth of equipment to later phases and purchased $1.5 million
worth of equipment originally scheduled to be purchased during future
phases. Coupled with changes resulting from modifications in the
design of Sentinel and the substitution of newer equipment not
available at the time of Lockheed Martin’s proposal, the cost of
materials for Phase 1 decreased by nearly $7 million.




                                 - 60 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


                    Changes to the Bill of Materials

    Description of                                             Total Added
                            Added Cost            Savings
        Change                                                Cost & Savings
Deferred Equipment
Purchases (from Phase             $0            -$5,830,907    -$5,830,907
1 to future phases)
Forwarded Equipment
Purchases (from future       $1,541,887              $0         $1,541,887
phases to Phase 1)
Change in Equipment
                                  $0            -$3,081,112    -$3,081,112
Design or Selection
Additions, Price
Modifications, and            $434,768               $0         $434,768
Deletions
 Total                      $1,976,655          -$8,912,019    -$6,935,364
Source: Lockheed Martin data obtained from the FBI

       We concluded that the FBI needs better controls to ensure the
accuracy of the equipment on the BOM and adequate cost control and
property management. In addition, we found that the FBI cannot
track changes made to successive versions of the BOM. Without a
reliable system to track equipment purchased by the BOM to FBI
property management records, the opportunity exists for the loss of
system equipment. Management of project costs is also made more
difficult, resulting in the increased possibility that project funds could
be wasted. Finally, absent a way to document changes as the BOM is
updated, it is difficult to determine whether the listed equipment is
current and necessary for completion of the project.

       The Sentinel Program Manager agreed with our assessment of
the BOM deviation policy. He acknowledged that he has found
discrepancies between the BOM and the equipment listed in the FBI’s
property management system. As noted above, one of the close-out
activities for Phase 1 was a line-by-line inventory of all equipment
listed on the BOM.

Planning for Phase 2 and Lessons Learned

      The FBI’s experience with Phase 1 has had a substantial impact
on planning for the remaining phases of Sentinel. At the conclusion of
our audit field work in May 2007, the FBI’s Phase 2 activities were
limited to planning rather than development. The FBI and Lockheed
                                       - 61 -

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Martin were examining the best way to divide the remaining Sentinel
development tasks. To accomplish this, Lockheed Martin and the FBI
were negotiating an engineering change proposal to replan the
remaining work, but the FBI had not decided on the number of
subsequent phases or the content of those phases. However, FBI
officials said the cost estimate and overall timeframe of Sentinel
completion by December 2009 had not changed. Below we discuss six
lessons the FBI and Lockheed Martin learned during Phase 1 and how
the FBI plans to adjust future phases to reduce risk identified by these
lessons.

Complexity of COTS Integration

      In our December 2006 Sentinel report, we cited the integration
of COTS components into a system that meets the FBI’s needs as one
of the most significant risks to Sentinel’s cost, schedule, and
performance. During Phase 1, integrating COTS software proved to be
a significant challenge for Lockheed Martin, one that contributed to the
delay in the delivery of Phase 1. This challenge was compounded by
Sentinel’s use of relatively new software and the need for personnel
with security clearances.

      According to the Chief of the Sentinel System Development Unit,
while the complexity of integrating COTS software also will affect
subsequent phases of Sentinel, it is difficult to determine the degree of
the impact. In an effort to mitigate the schedule and cost risks
associated with these complexities, the FBI and Lockheed Martin plan
to set up a prototyping lab for Phase 2 in which engineers will be able
to test early in the phase how different COTS products interact when
they are integrated. This will allow engineers to gain early insight into
potential problems that may occur during Phase 2 and allow Lockheed
Martin enough time to adjust its design accordingly.

Interfacing with ACS is Complex

      The web portal developed in Phase 1 displays data stored in
ACS. To accomplish this, Lockheed Martin had to build interfaces
between Sentinel and ACS, a task during which Lockheed Martin
gained familiarity with the complexity of interfacing with ACS.
According to Sentinel PMO officials, the documentation or blueprints
for ACS were not sufficiently detailed to allow Lockheed Martin to build
the interfaces necessary for Phase 1 as it initially intended. Instead,
as described previously, Lockheed Martin had to reverse engineer and
fix approximately 30 interfaces to build the Phase 1 portal. This
                                  - 62 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


unexpected additional work resulted in a significant strain on the
project schedule and budget.

       To minimize the cost and schedule risk associated with
interfacing with ACS and other legacy systems, the FBI plans to
reexamine the functionality of the subsequent phases of Sentinel and
the need to interface with the FBI’s legacy systems. At a March 2007
meeting, the FBI eliminated from the project plans several interfaces
with little-used FBI legacy systems. As discussed previously, the FBI
and Lockheed Martin are currently restructuring the remaining phases
of Sentinel and a major factor in that restructuring is the desire to
minimize temporary interfaces with ACS.

Phase 1 Schedule Focused on Documents

      According to the FBI’s Sentinel Program Manager, some of the
deliverables in the Phase 1 schedule were documents. However, in
some cases, Lockheed Martin delivered incomplete or poorly
constructed documents so that it could meet due dates. Because
these documents did not serve their intended function, the project was
delayed.

      According to the program manager, the Phase 2 deliverables will
be based more on the delivery of functionality rather than the delivery
of documents. For example, Lockheed Martin may not be required to
deliver a document detailing the Phase 2 design if the same need can
be met using computer software. While some of the Phase 2
deliverables will still be documents, their purpose will be to support a
specific function. According to the PMO, documents delivered by
Lockheed Martin will not be accepted unless they meet FBI standards.

Weaknesses in Phase 1 Requirements Validation

      Requirements validation is the process by which FBI and
Lockheed Martin personnel meet during what is called the
Requirements Clarification Review (RCR) to discuss the requirements
to be completed during the upcoming phase of the project. The RCR is
held at the beginning of each phase. During the RCR, requirements
that were identified at the beginning of the project are reviewed by
both parties to determine whether the functionality provided by
completion of the requirement is still necessary. If the requirement is
determined to still be applicable to the project, RCR participants then
break the requirement down into sub-requirements to be completed in
support of the main requirement. The product of the RCR is the
                                 - 63 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Requirements Clarification Document (RCD) which delineates the
requirements and sub-requirements to be competed during the current
phase.

      FBI officials said that not enough time was devoted to
requirements validation during Phase 1 and consequently some of the
Phase 1 requirements were unclear or incomplete. These
shortcomings in the Phase 1 requirements led to disagreements with
Lockheed Martin about the design of Phase 1 and created problems
during testing. To resolve the issues stemming from the Phase 1
requirements validation, the PMO and Lockheed Martin plan to began
Phase 2 requirements validation well in advance of the start of Phase 2
and devote more time to the effort.

Scheduling of Design Reviews

      The Phase 1 schedule did not allow enough time between the
Preliminary Design Review, the Critical Design Review, and the Final
Design Review. Key design documents must be developed by
Lockheed Martin and reviewed by the FBI at each of these interrelated
design reviews. In addition, the schedule needs to allow adequate
time for the following:

     •   The FBI must review and comment on the documents;

     •   Lockheed Martin must incorporate the FBI’s comments and
         resubmit the documents to the FBI; and

     •   The FBI must verify that Lockheed Martin adequately
         addressed the FBI’s comments.

      As discussed in the previous finding, the lack of time between
design reviews led to incomplete design documents that did not
incorporate all of the FBI’s technical comments. In turn, the
incomplete design documents led to problems during the testing phase
of the project. In the subsequent phases of Sentinel, the FBI has
committed itself to allowing sufficient time between design reviews.

Construction and Maintenance of Schedule

      According to the Sentinel Program Manager, the Phase 1
schedule was extremely tight from its inception. In addition, some of
the tasks were scheduled out of order. Another issue that the PMO
and Lockheed Martin encountered was starting and ending dates for
                                 - 64 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


tasks were entered into the schedule as hard constraints. This means
that even if the project progressed at a faster rate than planned, tasks
could not be recorded as started until the date specified. This, in
effect, prevented the project from ever achieving an “ahead of
schedule” status.

       These hard constraints were also applied to task end dates. As a
result, whether or not the tasks had actually been completed and
signed off on by the PMO, on the end date identified in the schedule
the tasks were automatically listed as complete. The Sentinel Program
Manager said that Lockheed Martin personnel mismanaged the
schedule in this way because of intense pressure from FBI and
Lockheed Martin managers to stay on schedule. This misidentification
of task status contributed to further delays and provided poor visibility
into the project’s actual status.

        For future phases, the PMO plans to work with Lockheed Martin
to ensure a more accurate assessment of progress. The PMO and
Lockheed Martin also plan to reduce the number of hard constraints
from the schedule to improve the accuracy of progress measurement.
The removal of constraints will also allow for the adjustment of task
end dates in the event the project falls behind schedule. During Phase
1, when a task that affected the completion of a related task fell
behind schedule, the end date of the related task remained static.
This resulted in schedule compression and creation of an unrealistic
schedule. The removal of hard constraints will allow for greater
visibility into how delays affect the completion of other tasks and
ultimately the entire phase.

Actions Taken on Previous OIG Recommendations

       During our audit, we examined the FBI’s actions to address
recommendations we made in our earlier audit reports on Sentinel and
found that the FBI was, in general, taking action to resolve our
concerns. Based on the FBI’s actions, we closed 5 of the 12
recommendations. We also noted that the FBI agreed with the
remaining recommendations and was in the process of taking
corrective action. Our recommendations dealt generally with the FBI’s
need to complete required planning and general management
oversight policies and procedures for Sentinel in order to help ensure
its success.

     In our March 2006 report, The Federal Bureau of Investigation’s
Pre-Acquisition Planning For and Controls Over the Sentinel Case
                                  - 65 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


Management System, we made seven recommendations, of which four
have been closed. The remaining three recommendations relate to the
need to complete certain planning documents, the staffing of the
Sentinel PMO, and Sentinel training. In addressing these
recommendations, we found that the FBI:

      •   continued to work on completing its system security plan
          and completed its independent verification and validation
          (IV&V) plan, which partially closes this recommendation;

      •   filled 70 of 75 positions within the Sentinel PMO, with three
          of the vacancies tentatively filled; and

      •   continued work on a comprehensive training plan with
          schedule and cost estimates.

       In our December 2006 report, Sentinel Audit II: Status of the
Federal Bureau of Investigation’s Case Management System, we made
five recommendations, one of which has been closed. The four
remaining recommendations were that the FBI should: (1) develop
contingency plans as required by the Sentinel Risk Management Plan,
(2) provide experienced contractors to conduct an IV&V process
throughout the Sentinel project, (3) determine the appropriate amount
of management reserve for each phase of the project, and (4) fill the
vacant Sentinel PMO positions needed to complete Phase 1 of the
project.

       In performing the fieldwork for our current audit, and as
mentioned earlier in this report, we found that the FBI has improved
its development of contingency plans and triggers as required by the
Sentinel Risk Management Plan. With the implementation of Phase 1,
there is no longer a need to address the risks related to that phase.
However, we continue to have concerns regarding the FBI’s
implementation of its Risk Management Plan, as well as some of the
risks we noted earlier concerning the future Phases of Sentinel, and we
will continue to monitor their implementation during future audit work.

        Also noted earlier in this report, we found that the FBI has begun
utilizing a contractor, Booz Allen, to perform IV&V of the Sentinel
project. We found that the IV&V process has resulted in numerous
recommendations to Sentinel Phase 1 development. Based on our
examination of the FBI’s implementation of this process, this
recommendation can be closed through our normal audit follow-up
process.
                                  - 66 -

                  REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



       Because each of Sentinel’s four phases will have a separate task
order with its own funding, and planning for Phase 2 continued after
our fieldwork ended, we were unable to determine whether the FBI is
establishing a management reserve based on an assessment of the
project risks for each phase and for the project overall. However, we
will continue to monitor the FBI’s utilization of management reserves
in future audit work. After the completion of Phase 2 planning, the
methodology currently being used by the FBI to develop management
reserves should become more apparent.

       Due to the importance of the PMO in the oversight of Sentinel,
we recommended in both of our previous Sentinel audits that the PMO
complete hiring as soon as possible for the vacant PMO positions. The
PMO plays a critical role in assuring that the FBI implements a case
management system that meets its needs. The PMO’s contract and
program execution responsibilities include: (1) cost, schedule, and
performance oversight; (2) LCMD project reviews; (3) award fee
evaluations; (4) primary contractor’s documentation review and
acceptance; (5) requirements and risk management; and (6) budget
and financial management. In light of these responsibilities, having a
qualified, dedicated PMO staff focused on program execution is critical
to the success of the Sentinel project.

       Since our December 2006 audit the PMO has increased its
planned size from 73 positions to 76 positions, reallocated positions
among PMO units, and was in the process of filling 3 positions. As of
May 2007, the PMO consisted of 70 of the 76 personnel identified in
the FBI’s Sentinel Staffing Plan (92 percent) as required to properly
oversee the project. According to the FBI, the objective in staffing the
PMO is to form an integrated team of subject matter experts from
government, federally funded research and development centers, and
system engineers and technical assistance contractors to maximize
program expertise. 60 The following table summarizes the PMO’s
staffing level as of May 15, 2007, and shows the progress the FBI has
made in staffing the office since October 2006.




      60
           Federally funded research and development centers are nonprofit
organizations sponsored and funded by the U.S. government to assist government
agencies with scientific research and analysis, systems development, and systems
acquisition.
                                        - 67 -

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


             SENTINEL PMO STAFFING REQUIREMENTS

                                                      Staff on          Staff on
                                   Planned             Board,          Board, May
Organizational Units
                                   Staff (a)          October           2007 (b)
                                                        2006

PMO Front Office                       11                 11                 10

Organization Change
                                        6                  3                  4
Management Team
Business Management                    11                 13                 11
Program Integration                    10                 10                  9
System Development                     28                 25                 28
Transition                              5                  4                  5
Operations &
                                        5                  0                  3
Maintenance
 Total                                 76                 65                 70
Source: The FBI

Notes: (a) Since October 2006, the Sentinel PMO has revised the total planned staff
           from 73 to 76. Also, the plan does not include individuals who are on
           temporary duty assignment to the project.

       (b) The number of staff on board includes three positions for which the FBI
           has selected candidates and is in the process of hiring.

       (c) In our previous report, we identified this unit as two separate units;
           Program Leadership, and Direct Report Staff.

For a more complete description of PMO staff and their duties, see
Appendix 8.

        Of the current vacancies, one is a government position — a
Supervisory Special Agent — and one is a contractor position — an
Organizational Change Management (OCM) expert. Hiring for the
other position — a System Engineer — has been delayed until Phase 3.
The Chief of the Business Management Unit said that a setback in
filling PMO positions quickly occurred when the FBI instituted a hiring
freeze as a result of the FY 2007 continuing resolution. He said that
another setback to filling open PMO positions quickly is the amount of
time that is required to execute and adjudicate Top Secret clearance

                                        - 68 -

                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


background checks; he said that the PMO has been submitting its
background check requests in expedited status.

       The following table shows the changes in the number of planned
staff from October 2006 to May 2007.

        Changes in Sentinel PMO Staffing Requirements,
                  October 2006 to May 2007

                                             Change in
              Organizational Unit             Planned
                                                Staff
              PMO Front Office                   +1
              Organization Change
                                                 +2
              Management Team
              Business Management                -3
              System Development                 +3
                Total                            +3
             Source: The FBI

      The FBI Deputy CIO said he thinks the PMO is “pretty lean” in
comparison to other PMOs he has seen. He said that he and the
Sentinel Program Manager looked at best practices while developing
the structure of the PMO, but were also mindful that while they could
select whomever they wanted internally in the FBI to work at the PMO,
this would also put another component of the FBI at a disadvantage by
losing top personnel. For expertise in areas in which the government
was weak, contractors were chosen. The FBI Deputy CIO said that he
is happy with the PMO’s return on investment thus far in the project.

      The FBI Deputy CIO also said that as the Sentinel project
progresses, the focus areas and personnel needs of the PMO will shift.
For example, Operations and Maintenance (O&M) will become more of
a focus, especially by the end of Phase 2. Since this will result in the
need for a different skill set than is currently available at the PMO,
there will be changes in personnel. Fewer designers will be needed,
and more people to maintain the system will be required. The FBI
Deputy CIO said the PMO will probably start trading personnel out of
the PMO as the need arises.

     While we concluded that the FBI is making progress in
implementing the recommendations we have made during our prior
                                  - 69 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


audits, we will continue to monitor the progress made by the FBI in
implementing the remaining open recommendations through our audit
follow-up process and through our future Sentinel work.

Conclusion

       The FBI has a broad range of management controls and
processes that should aid it in managing the development of Sentinel.
Of the four controls and processes we reviewed in depth, we found
that the FBI has made significant progress in implementing each.
However, the FBI’s experience with Phase 1 demonstrates the high
priority the FBI must assign to the entire range of management
controls and processes over the project. During Phase 1, issues the
FBI experienced with three of the four of controls – earned value
management, risk management, and the bill of materials – show that
additional improvements need to made to allow the FBI to adequately
monitor cost, schedule, and performance of future phases of Sentinel.

      Lockheed Martin and the FBI will likely face many of the issues
encountered in Phase 1 during subsequent phases of Sentinel’s
development. For example, even though the FBI plans early
prototyping to reduce the likelihood of problems when integrating
COTS components, the next phase of Sentinel will likely encounter
unexpected problems integrating the various COTS components into
legacy FBI systems in a way that meets the FBI’s needs. However,
rigorous implementation of processes and lessons learned is necessary
to minimize significant deviations from cost, schedule, technical, or
performance baselines.

Recommendations

     We recommend that the FBI:

     3.   Collect and report EVM data for both the performance
          measurement baseline approved at the integrated baseline
          review as well as the revised performance measurement
          baseline.

     4.   Reconcile the discrepancy between the costs Lockheed
          Martin reported for Phase 1 with Lockheed Martin’s EVM
          data, and develop and implement policies and procedures to
          prevent any future discrepancies.


                                - 70 -

                 REDACTED FOR PUBLIC RELEASE
            REDACTED FOR PUBLIC RELEASE


5.   Develop and implement effectiveness measures for all risk
     mitigation plans.

6.   Ensure that personnel assigned to manage Sentinel risks
     devote sufficient time to the risk and have the experience
     and authority to adequately manage the risk.

7.   Document and track project issues, risks that have
     occurred, as well as the plan to resolve those issues and
     their ultimate resolution.

8.   Implement policies and procedures to ensure that any
     changes to the bill of materials receive proper authorization
     and that the changes can be reconciled to the bill of
     materials submitted in Lockheed Martin’s proposal.

9.   Implement policies and procedures to ensure that materials
     contained in Lockheed Martin invoices can be reconciled to
     the bill of materials or an FBI approval for a change to the
     bill of materials.




                            - 71 -

            REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS

      This audit assessed the FBI’s implementation of the contract for
its Sentinel case management project. In connection with the audit,
as required by the Government Auditing Standards, we reviewed
management processes and records to obtain reasonable assurance
that the FBI’s compliance with laws and regulations that, if not
complied with, in our judgment, could have a material effect on FBI
operations. Compliance with laws and regulations applicable to the
FBI’s management of the Sentinel project is the responsibility of the
FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •   OMB Circular A-11 and Memorandum M-05-23,
     •   Executive Order 13356 (superseded by "Executive Order
         13388: Further Strengthening the Sharing of Terrorism
         Information to Protect Americans," dated October 25, 2005),
     •   DOJ Order 2880.1b,
     •   FBI Life Cycle Management Directive,
     •   Department of Defense Programmer’s Guide to the Integrated
         Baseline Review,
     •   American National Standards Institute/Electronic Industries
         Alliance Standard 748A: Earned Value Management Systems,
         and
     •   National Defense Industrial Association Earned Value
         Management System Intent Guide and Surveillance Guide.

      Our audit identified no areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to transactions that were not tested, nothing came to our
attention that caused us to believe that FBI management was not in
compliance with the laws and regulations cited above.




                                 - 72 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


               STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the FBI’s contract for its
Sentinel project, we considered the FBI’s internal controls for the
purpose of determining our audit procedures. This evaluation was not
made for the purpose of providing assurance on the internal control
structure as a whole. However, we noted certain matters that we
consider to be reportable conditions under the Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
internal control structure that, in our judgment, could adversely affect
the FBI’s ability to manage its Sentinel project. During our audit, we
found the following internal control deficiencies.

      •   EVM cost data needs to be reconciled with the costs incurred
          that was reported by Lockheed Martin, the prime contractor
          for the development of Sentinel.

      •   Contingency plans for highly ranked project risks need to be
          developed.

      •   Measurements of effectiveness for risk mitigation plans need
          to be developed.

      •   Project issues (risks that have occurred) and their resolution
          are not tracked.

      Because we are not expressing an opinion on the FBI’s internal
control structure as a whole, this statement is intended solely for the
information and use of the FBI in contracting for the Sentinel project.
This restriction is not intended to limit the distribution of this report,
which is a matter of public record.




                                   - 73 -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


                                                          APPENDIX 1

            OBJECTIVES, SCOPE, AND METHODOLOGY

Objective

      The objectives of this audit were to determine: (1) the status of
the Sentinel project, including the FBI’s monitoring of the contractor’s
performance during Phase 1; (2) the planning for and progress of
Phase 2; and (3) the resolution of remaining concerns identified in our
previous two audit reports.

Scope and Methodology

      The audit was performed in accordance with the Government
Auditing Standards, and included tests and procedures necessary to
accomplish the audit objectives. We conducted work at FBI
headquarters in Washington, D.C., and at the FBI Sentinel Program
Management Office in McLean, Virginia.

      To perform our audit, we interviewed officials from the FBI,
Office of the Director of National Intelligence (DNI), the Department of
Justice, and the Office of Management and Budget. We also
interviewed officials from Lockheed Martin and other contractors
supporting the PMO. We reviewed documents related to the Sentinel
contract; cost and budget documentation; Sentinel plans, processes
and guidelines; prior OIG Sentinel reports; and other reports from the
OIG and other agencies on the FBI’s information technology.

      To evaluate the FBI’s implementation of the Sentinel contract,
we examined the contract as well as associated amendments and
documentation, underlying cost estimates, and methodologies for
contract modifications. We also examined actual costs, progress
toward completion of Phase 1, and planning for Phase 2. Additionally,
we interviewed FBI officials responsible for contract implementation.

       To update issues identified in the OIG’s December 2006 Sentinel
audit report, we interviewed responsible FBI and contractor officials
and reviewed plans and procedures for cost tracking, risk
management, contingency planning, IV&V, and PMO staffing. We also
interviewed FBI officials and obtained the updated status on issues
relating to information sharing and EVM.


                                 - 74 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


                                                       APPENDIX 2

                             ACRONYMS

ACS          Automated Case Support
Booz Allen   Booz Allen Hamilton
BOM          Bill of Materials
CIO          Chief Information Officer
CMMI         Capability Maturity Model Integration
COTR         Contracting Officer’s Technical Representative
COTS         Commercial Off-The-Shelf
ECF          Electronic Case File
EVM          Earned Value Management
FBI          Federal Bureau of Investigation
GAO          Government Accountability Office
IBR          Integrated Baseline Review
ICM          Investigative Case Management
IMS          Integrated Master Schedule
IT           Information Technology
ITIM         Information Technology Investment Management
IV&V         Independent Verification and Validation
LCMD         Life Cycle Management Directive
OIG          Office of the Inspector General
OMB          Office of Management and Budget
PKI          Public Key Infrastructure
PMO          Program Management Office
RCD          Requirements Clarification Document
RCR          Requirements Clarification Review
SRS          System Requirements Specifications
UNI          Universal Index
VCF          Virtual Case File
WACS         Web-Enabled Automated Case Support




                                - 75 -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


                                                           APPENDIX 3

         THE FBI’S LIFE CYCLE MANAGEMENT DIRECTIVE

      The FBI’s IT Systems Life Cycle Management Directive (LCMD) is
comprised of interrelated components that include Life Cycle Phases,
Control Gate Reviews and Boards, and Project Level Reviews. Because
Sentinel has multiple phases, it will pass many of the life cycle phases,
control gate reviews, and project level reviews multiple times.

Phases

      The LCMD has established nine phases that occur during the
development, implementation, and retirement of IT projects. During
these phases, specific requirements must be met for the project to
obtain the necessary FBI management approvals to proceed to the
next phase.

Control Gate Reviews & Boards

      The approvals to proceed from one phase to the next occur
through seven control gates, where management boards meet to
discuss and approve or disapprove a project’s progression to future
phases of development and implementation. The seven control-gate
reviews provide management control and direction, decision-making,
coordination, confirmation of successful performance of activities, and
determination of a system’s readiness to proceed to the next life cycle
phase.

Project-level Reviews

      Project-level Reviews support the IT Systems Life Cycle process.
Project Level Reviews determine program or project readiness to
proceed to the next activities of the project life cycle. Each Project
Level Review feeds information up to the Executive-level Control
Gates, as data is developed and milestones are completed.




                                  - 76 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


                          FBI LCMD PHASES

   PHASE NAME                                DESCRIPTION

1. Concept Exploration     Identifies the mission need, develops and
                           evaluates alternate solutions, and develops the
                           business plan.

2. Requirements            Defines the operational, technical and test
   Development             requirements, and initiates project planning.

3. Acquisition Planning    Allocates the requirements among the
                           development segments, researches and applies
                           lessons learned from previous projects, identifies
                           potential product and service providers, and
                           identifies funding.

4. Source Selection        Solicits and evaluates proposals and selects the
                           product and service providers.

5. Design                  Creates detailed designs for system components,
                           products, and interfaces; establishes testing
                           procedures for a system’s individual components
                           and products and for the testing of the entire
                           system once completed.

6. Development and         Produces and tests all system components,
   Test                    assembles and tests all products, and plans for
                           system testing.

7. Implementation and      Executes functional, interface, system, and
   Integration             integration testing; provides user training; and
                           accepts and transitions the product to operations.

8. Operations and          Maintains and supports the product, and manages
   Maintenance             and implements necessary modifications.

9. Disposal                Shuts down the system operations and arranges
                           for the orderly disposition of system assets.




                                  - 77 -

                  REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE



              FBI LCMD CONTROL GATE REVIEWS

 GATE                               DESCRIPTION

Gate 1   System Concept Review approves the recommended system concept
         of operations and occurs at the end of Phase 1 of LCMD.

Gate 2   Acquisition Plan Review approves the Systems Specification and
         Interface Control documents as developed in Phase 2 and the
         approach and resources required to acquire the system as defined in
         the Acquisition Plan as developed in Phase 3.

Gate 3   Final Design Review approves the build-to and code-to documentation
         and associated draft verification procedures. It also ensures that the
         design presented can be produced and will meet its design-to
         specification at verification. The gate review occurs after the
         contractor is selected in Phase 4 and system design is completed in
         Phase 5.

Gate 4   Deployment Readiness Review approves the readiness of the system
         for deployment in the operational environment. The gate review
         occurs after the system is developed and tested in Phase 6. Approval
         through Gate 4 signifies readiness for system implementation.

Gate 5   System Test Readiness Review verifies readiness to perform an
         official system-wide data gathering verification test for either
         qualification or acceptance. The gate review occurs mid-way through
         Phase 7.

Gate 6   Operational Acceptance Review approves overall system and product
         validation by obtaining customer acceptance and determining
         whether the operations and maintenance organization agrees to, and
         has the ability to, support continuous operations of the system. The
         gate review occurs at the end of Phase 7.

Gate 7   Disposal Review authorizes termination of the Operations and
         Maintenance life cycle phase and disposes of system resources. The
         gate review occurs at the end of Phase 8 and results in Phase 9.




                                   - 78 -

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE



           EXECUTIVE REVIEW BOARDS RESPONSIBLE
                FOR CONTROL GATE REVIEWS

New FBI Process for Overseeing IT Projects

      In November 2006, a new FBI IT governance secretariat began
operations. The governance secretariat established several working
groups to assess an IT project each time it requests approval to pass
through an LCMD gate. Based on the need for varying expertise, the
role of each working group varies according to the LCMD gate, but the
entire process requires input from the following working groups: the
Investment Project Review Working Group, Technical Review Working
Group, Enterprise Architecture Working Group, and the Configuration
Management Quality Assurance Working Group.

Assessments Under New Governance Process

      As Sentinel approaches an LCMD gate, the Sentinel PMO works
with the working group responsible for doing assessments for that
gate. LCMD control gate documentation is normally submitted
3 weeks in advance of the final assessment for review.

       The cognizant working group has 3 days to provide a preliminary
assessment of the documentation. To save resources and time, the
FBI will cancel the formal gate review if the working group discovers
significant issues during the preliminary assessment. If a project’s
manager disagrees with the working group’s preliminary assessment,
the Chief Technology Officer makes a determination.

      If a project passes the preliminary assessment, the working
groups have 10 days to conduct a full assessment. The executive
summaries of the working groups are compiled along with conditions
necessary for the project to clear the gate, and a formal gate review
meeting is conducted, during which one of the following four FBI IT
Decision Board decides whether the project should clear the gate.

     •   The Investment Management Board oversees the System
         Concept Review (Control Gate 1).

     •   The Project Review Board oversees the Acquisition Plan
         Review (Control Gate 2) and the Disposal Review (Control
         Gate 7).

                                 - 79 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


     •   The Technical Development and Deployment Board oversees
         the Final Design Review (Control Gate 3), the Deployment
         Readiness Review (Control Gate 4), the System Test
         Readiness Review (Control Gate 5), and the Operational
         Acceptance Review (Control Gate 6).

Previous FBI Process for Overseeing IT Projects

      The FBI’s previous IT governance system did not require working
group assessments of a project’s documentation at each LCMD control
gates. However, under the old system, the Technical Review Board
was required to review the project at Gate 3, the Final Design Review.

     •   The IMPRB leads the System Concept Review and the
         Acquisition Plan Review (Control Gates 1 and 2) and ensures
         that all IT acquisitions are aligned and comply with FBI
         policies, strategic plans, and investment management
         requirements.

     •   The Technical Review Board leads the Final Design Review
         (Control Gate 3) and ensures that IT systems comply with
         technical requirements and meet FBI needs.

     •   The Change Management Board leads the Deployment
         Readiness Review, System Test Readiness Review,
         Operational Acceptance Review and the Disposal Review
         (Control Gates 4 through 7) and controls and manages
         developmental and operational efforts that change the FBI's
         operational IT environment.

     •   The Enterprise Architecture Board ensures that IT systems
         comply with Enterprise Architecture requirements.

     •   The IT Policy Review Board establishes, coordinates,
         maintains and oversees implementation of IT policies.




                                - 80 -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


                   PROJECT LEVEL REVIEWS:
      CONCEPT EXPLORATION PHASE THROUGH DESIGN PHASE

     REVIEW NAME                              DESCRIPTION

1. Mission Needs Review    Examines the user need or technological
                           opportunity, the deficiencies in the current set of
                           systems, alternative and the proposed solution, and
                           a business case or rationale for further investigating
                           changes to the FBI’s information systems.

2. System Specification    The decision point to proceed with the development
   Review                  of an Acquisition Plan, the allocation of high level
                           system requirements to segment specifications, and
                           the development of Project Plans that will manage
                           the acquisition.

3. Source Selection        Approves source selection results and authorizes
   Acquisition Review      contract negotiations.

4. Contract                The first review between the customer and the
   Implementation Review   solution provider following a contract award.

5. Requirements            Ensures the solution provider has a full
   Clarification Review    understanding of the requirements for the system or
                           segment and can articulate this understanding
                           through proposed implementations of the
                           requirement.

6. Design Concept Review   Technical review of the decomposition of the system
                           or product (hardware, software, and manual
                           operations).

7. Preliminary Design      Can be a single event or spaced out over time
   Review                  during the Design Phase to cover logical groupings
                           of configuration items. The review proves that the
                           concept and the specification for the concept are
                           feasible and will satisfy higher level requirements
                           allocated to it, and to approve the preliminary
                           design-to specifications and associated verification
                           plans. All hardware, software, support equipment,
                           facilities, personnel, and tooling should be reviewed
                           in descending order of system to assembly.


                                  - 81 -

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


     REVIEW NAME                                 DESCRIPTION

8. Critical Design Review    Approves the build-to and code-to documentation
                             and associated draft verification procedures, to
                             ensure that the design presented can be produced,
                             and that when built is expected to meet its design-to
                             specification at verification.

9. Product Test Readiness    Series of technical reviews at which the customer
   Review                    concurs that the solution provider is ready to
                             conduct official "sell-off" tests during which official
                             verification data will be produced.

10. Site Test Readiness      Technical review at which the customer concurs that
    Review                   the supplier is ready to conduct official "sell-off"
                             tests during which official verification data will be
                             produced.

11. Site Acceptance Review   Technical review where customer organization
                             accepts the system or segment delivered to the site.

12. Operational Readiness    Technical review between the Project Office and the
    Review                   product user to verify readiness for system
                             validation required by the Operational Readiness
                             Plan developed in compliance with the Mission
                             Requirements Concept of Operations Document at
                             the outset of the project.

13. Operational              Tests the operational capability of the system from a
    Acceptance Test          deployed user perspective. Becomes the basis for
                             government acceptance of the Phase 1 product.

14. Deployment               Provides the final approval ("go-ahead") to deploy
    Acceptance Review        the Phase 1 system.




                                    - 82 -

                    REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           - 83 -

REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


                                                           APPENDIX 4

                   PRIOR REPORTS ON THE FBI’S
                    INFORMATION TECHNOLOGY

      Below is a listing of relevant reports discussing the FBI’s
information technology (IT) systems. These include reports issued by
the Department of Justice Office of the Inspector General (OIG), the
Government Accountability Office (GAO), and by other external entities
as well as FBI internal reports.

Prior OIG Reports on FBI Case Management Efforts

      In December 2006, the OIG issued a report entitled, Sentinel
Audit II: Status of the Federal Bureau of Investigation’s Case
Management System. The report stated that the FBI made progress
addressing concerns previously reported. The OIG recommended that
the FBI take the following steps:

     •   ensure that the management reserve is based on an
         assessment of project risk for each phase and for the project
         overall,

     •   periodically update the estimate of total project costs as
         actual cost data is available,

     •   complete contingency plans as required by the Sentinel Risk
         Management Plan,

     •   ensure that the independent verification and validation
         process is conducted through project completion, and

     •   complete hiring as soon as possible for the vacant Project
         Management Office (PMO) positions needed during the
         current project phase.

      In March 2006, the OIG issued a report entitled The Federal
Bureau of Investigation’s Pre-Acquisition Planning for and Controls
Over the Sentinel Case Management System. The report found that
the FBI had taken important steps to address its past mistakes in
planning for the development of Sentinel. The report identified the
following areas of concern:


                                  - 84 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


     •   the incomplete staffing of the PMO,

     •   the FBI’s ability to reprogram funds to complete the second
         phase of the project without jeopardizing its mission-critical
         operations,

     •   Sentinel’s ability to share information with external
         intelligence and law enforcement agencies and provide a
         common framework for other agencies’ case management
         systems,

     •   the lack of an established Earned Value Management (EVM)
         process,

     •   the FBI’s ability to track and control Sentinel’s costs, and

     •   the lack of complete documentation required by the FBI’s
         information technology investment management (ITIM)
         processes.

      The OIG concluded that these areas of concern required action
and continued monitoring by the FBI, the OIG, and other interested
parties.

      In February 2005, the OIG issued a report entitled, The Federal
Bureau of Investigation’s Management of the Trilogy Information
Technology Modernization Project, which encompassed Sentinel’s
predecessor, the Virtual Case File (VCF). The OIG recommended the
FBI take the following steps:

     •   Replace the obsolete ACS system as quickly and as cost
         effectively as feasible.

     •   Reprogram FBI resources to meet the critical need for a
         functional case management system.

     •   Freeze the critical design requirements for the case
         management system before initiating a new contract and
         ensure that the contractor fully understands the requirements
         and has the capability to meet them.

     •   Incorporate development efforts for the VCF into the
         development of the requirements for any successor case
         management system.
                                  - 85 -

                 REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE



      •    Validate and improve as necessary financial systems for
           tracking project costs to ensure complete and accurate data.

      •    Develop policies and procedures to ensure that future
           contracts for IT-related projects include defined requirements,
           progress milestones, and penalties for deviations from the
           baselines.

      •    Establish management controls and accountability to ensure
           that baselines for the remainder of the current user
           applications contract and any successor Trilogy-related
           contracts are met.

      •    Apply ITIM processes to all Trilogy-related and any successor
           projects.

      •    Monitor the Enterprise Architecture being developed to ensure
           timely completion as scheduled.

      The report concluded that the difficulties experienced in
completing the Trilogy project were partially attributable to:
(1) design modifications the FBI made as a result of refocusing its
mission from traditional criminal investigations to preventing
terrorism, (2) poor management decisions early in the project,
(3) inadequate project oversight, (4) a lack of sound IT investment
practices, and (5) not applying lessons learned over the course of the
project.

External Reports on FBI Case Management Efforts

      In July 2007, the GAO issued a report on the extent to which the
FBI had established best practices for acquiring Sentinel and
estimating the project’s schedule and costs. 61 The GAO concluded that
the FBI was managing Sentinel in accordance with several key best
practices for acquiring IT systems, including practices for evaluating
offers and awarding contracts. However, the GAO also concluded that
the FBI had not established performance and product quality standards
for the program management contractors who support the FBI in
overseeing Sentinel. In addition, the GAO reported that the FBI’s

      61
          U.S. Government Accountability Office, Information Technology: FBI
Following a Number of Key Acquisition Practices on New Case Management System
but Improvements Still Needed, July 2007.
                                       - 86 -

                   REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


policies, procedures, and supporting tools that formed the basis of
Sentinel’s schedule and cost estimates did not incorporate several key
best practices. As a result, the GAO questioned the reliability schedule
and cost estimates, noting that the estimates did not include all
relevant costs and used inadequately documented methodologies.

       In April 2007, the GAO issued a report entitled, INFORMATION
SECURITY: FBI Needs to Address Weaknesses in Critical Network
identifying ineffective controls in protecting the confidentiality,
integrity, and availability of information and information resources.
The GAO found that the FBI did not consistently (1) configure network
devices and services to prevent unauthorized insider access and
ensure system integrity; (2) identify and authenticate users to prevent
unauthorized access; (3) enforce the principle of least privilege to
ensure that authorized access was necessary and appropriate;
(4) apply strong encryption techniques to protect sensitive data on its
networks; (5) log, audit, or monitor security-related events;
(6) protect the physical security of its network; and (7) patch key
servers and workstations in a timely manner. Taken collectively, these
weaknesses place sensitive information transmitted on the FBI’s
network at risk of unauthorized disclosure or modification, and could
result in a disruption of service, increasing the FBI’s vulnerability to
insider threats.

      In October 2006, the GAO issued a report entitled,
INFORMATION TECHNOLOGY: FBI Has Largely Staffed Key
Modernization Program, but Strategic Approach to Managing Program’s
Human Capital Is Needed. This report credited the FBI for filling
almost all positions in its staffing plan. However, the report also noted
a few key vacancies, and that the staffing plan was not derived using a
documented data-driven methodology and did not provide for
inventorying the knowledge and skills of existing staff, forecasting
future knowledge and skill needs, analyzing gaps in capabilities
between the existing staff and future workforce needs, and formulating
strategies for filling expected gaps.

      In February 2006, the GAO issued a report entitled Weak
Controls over Trilogy Project Led to Payment of Questionable
Contractor Costs and Missing Assets that was critical of the FBI’s
controls over costs and assets of its Trilogy project. The GAO found
that the FBI’s review and approval process for Trilogy contractor
invoices did not provide an adequate basis for verifying that goods and
services billed were actually received and that the amounts billed were
appropriate, leaving the FBI highly vulnerable to payments of
                                  - 87 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


unallowable costs. These costs included first-class travel and other
excessive airfare costs, incorrect charges for overtime hours, and
charges for which the contractors could not document costs incurred.
The GAO found unsupported and questionable costs in the amount of
$10 million. The GAO also found that the FBI failed to establish
controls to maintain accountability over equipment purchased for the
Trilogy project. According to the GAO, poor property management led
to 1,205 missing pieces of equipment valued at $7.6 million.

     In April 2005, the House Surveys and Investigations staff issued
A Report to the Committee on Appropriations, U.S. House of
Representatives, which concluded that:

     •   VCF development suffered from a lack of program
         management expertise, disciplined systems engineering
         practices, and contract management. The project also was
         affected by a high turnover of Chief Information Officers
         (CIO) and program managers.

     •   VCF development was negatively impacted by the FBI’s lack
         of an empowered and centralized Office of Chief Information
         Officer and sound business processes by which IT projects are
         managed.

     •   The FBI’s decision to terminate VCF was related to
         deficiencies in the VCF product delivered, failure of a pilot
         project to meet user needs, and the new direction the FBI
         planned to take for its case management system.

     •   The FBI’s IT program management business structure and
         processes were, for the most part, in place, although some of
         these processes needed to mature.

       In September 2004, the GAO issued a report entitled,
Information Technology: Foundational Steps Being Taken to Make
Needed FBI Systems Modernization Management Improvements. This
report stated that although improvements were under way and more
were planned, the FBI did not have an integrated plan for modernizing
its IT systems. Each of the FBI’s divisions and other organizational
units that manage IT projects performs integrated planning for its
respective IT projects. However, the plans did not provide a common,
authoritative, and integrated view of how IT investments will help
optimize mission performance, and they did not consistently contain
the elements expected to be found in effective systems modernization
                                  - 88 -

                 REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


plans. The GAO recommended that the FBI limit its near-term
investments in IT systems until the FBI developed an integrated
systems and modernization plan and effective policies and procedures
for systems acquisition and investment management. Additionally, the
GAO recommended that the FBI’s CIO be provided with the
responsibility and authority to effectively manage IT FBI-wide.

       The National Research Council issued a report in May 2004
entitled A Review of the FBI’s Trilogy Information Technology
Modernization Program. The report found that the program was not
on a path to success, and identified the following needs:

      •   valid contingency plans for transitioning from the old case
          management system to the new one,

      •   completed Enterprise Architecture,

      •   adequate time for testing the new system prior to
          deployment,

      •   improved contract management processes, and

      •   expanded IT human resources base.

      The report concluded that the FBI had made significant progress
in some areas of its IT modernization efforts, such as the
modernization of the computing hardware and baseline software and
the deployment of its networking infrastructure. However, because
the FBI’s IT infrastructure was inadequate in the past, there was still
an enormous gap between the FBI’s IT capabilities and the capabilities
that were urgently needed.

      The report was updated in June 2004 as a result of what the
Council deemed clear evidence of progress being made by the FBI to
move ahead in its IT modernization program. This included the
appointment of a permanent CIO and the formation of a staffed
program office for improved IT contract management. The progress
being made by the FBI appeared to the Council to have been more
rapid than expected, although many challenges remained. The Council
also emphasized that the FBI’s missions constitute increasingly
information-intensive challenges, and the ability to integrate and
exploit rapid advances in IT capabilities will only become more critical
with time. The update concluded that even with perfect program
management and execution, substantial IT expenses on an ongoing
                                  - 89 -

                  REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


basis are inevitable and must be anticipated in the budget process if
the FBI is to maximize the operational leverage that IT offers.

FBI Internal Reports on Case Management

      The FBI hired the Aerospace Corporation to perform an
assessment of commercial-off-the-shelf (COTS) and government-off-
the-shelf systems that could be used in developing a case
management system and also an Independent Verification and
Validation of Trilogy’s VCF. In December 2004, the contractor issued
the study, which recommended that the FBI look to systems that have
an emphasis on data sharing. The contractor further recommended
that an acquisition strategy be developed that includes an incremental
deployment of core capabilities and the incremental addition of such
components as intelligent search and reporting and specific analytic
capabilities.

       The contractor released the Independent Verification and
Validation of the Trilogy Virtual Case File, Delivery 1: Final Report in
January 2005. The report recommended discarding the VCF and
starting over with a COTS-based solution. The contractor concluded
that a lack of effective engineering discipline had led to inadequate
specification, design, and development of VCF. Further, the contractor
could find no assurance that the architecture, concept of operations
and requirements were correct or complete, and no assurance that
they could be made so without substantial rework. In sum, the
contractor reported that VCF was a system whose true capability was
unknown, and whose capability may remain unknown without
substantial time and resources applied to remediation.

Other OIG Reports on the FBI’s IT

      OIG reports issued over the past 17 years have highlighted
issues concerning the FBI’s utilization of IT, including its investigative
systems. For example, in 1990 the OIG issued a report entitled The
FBI’s Automatic Data Processing General Controls. This report
described 11 internal control weaknesses and found that:

      • The FBI’s phased implementation of its 10-year Long Range
        Automation Strategy, scheduled for completion in 1990, was
        severely behind schedule and may not be accomplished.

      • The FBI’s Information Resources Management program was
        fragmented and ineffective, and the FBI’s Information
                                   - 90 -

                  REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


         Resources Management official did not have effective
         organization-wide authority.

      • The FBI had not developed and implemented a data
        architecture.

      • The FBI’s major mainframe investigative systems were labor
        intensive, complex, untimely, and non-user friendly and few
        agents used these systems.

       The OIG’s July 1999 special report, The Handling of FBI
Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation, reported that FBI personnel were not well-
versed in the ACS system and other databases.

      A March 2002 OIG report, entitled An Investigation of the
Belated Production of Documents in the Oklahoma City Bombing Case,
analyzed the causes for the FBI’s late delivery of many documents in
the Oklahoma City bombing case. This report concluded that the ACS
system was extraordinarily difficult to use, had significant deficiencies,
and was not the vehicle for moving the FBI into the 21st century. The
report noted that inefficiencies and complexities in the ACS, combined
with the lack of a true information management system, were
contributing factors in the FBI’s failure to provide hundreds of
investigative documents to the defendants in the Oklahoma City
bombing case.

       In May 2002, the OIG issued a report on the FBI’s administrative
and investigative mainframe systems entitled the Independent
Evaluation Pursuant to the Government Information Security Reform
Act, Fiscal Year 2002. The report identified continued vulnerabilities
with management, operational, and technical controls within the FBI.
The report stated that these vulnerabilities occurred because the
Department and FBI security management had not enforced
compliance with existing security policies, developed a complete set of
policies to effectively secure the administrative and investigative
mainframes, or held FBI personnel responsible for timely correction of
recurring findings. Further, the report stated that FBI management
had been slow to correct identified weaknesses and implement
corrective action and, as a result, many of these deficiencies repeated
year after year in subsequent audits.

     In December 2002, the OIG issued a report on The FBI’s
Management of Information Technology Investments, which included a
                                  - 91 -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


case study of the Trilogy project. The report made 30
recommendations, 8 of which addressed the Trilogy project. The
report’s focus was on the need to adopt sound investment
management practices as recommended by the GAO. The report also
stated that the FBI did not fully implement the management processes
associated with successful IT investments. Specifically, the FBI had
failed to implement the following critical processes:

     • defining and developing IT investment boards,

     • following a disciplined process of tracking and overseeing
       each project’s cost and schedule milestones over time,

     • identifying existing IT systems and projects,

     • identifying the business needs for each IT project, and

     • using defined processes to select new IT project proposals.

The audit found that the lack of critical IT investment management
processes for Trilogy contributed to missed milestones and led to
uncertainties about cost, schedule, and technical goals.




                                - 92 -

                 REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


                                               APPENDIX 5

 COMPARISON OF ACS, WACS, AND PHOENIX FUNCTIONALITY
         TO SENTINEL’S PHASE 1 DELIVERABLES

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx   xxxx   xxxx
Source: FBI



                            - 93 -

              REDACTED FOR PUBLIC RELEASE
                REDACTED FOR PUBLIC RELEASE


 Comparison of ACS-UNI, WACS, and PHOENIX Functionality to
               Sentinel’s Phase 1 Deliverables

   Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
                                     xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xxxx     xxxx   xxxx
  Source: FBI




                            - 94 -

                REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


Comparison of ACS-ICM, WACS, and PHOENIX Functionality to
              Sentinel’s Phase 1 Deliverables

 xxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx   xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
                                    xxxx    xxxx     xxxx

                           - 95 -

              REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx   xxxx      xxxx      xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx    xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx    xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx   xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx   xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
                                   xxxx      xxxx     xxxx



                           - 96 -

              REDACTED FOR PUBLIC RELEASE
              REDACTED FOR PUBLIC RELEASE


xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
                                 xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     xxxx      xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxx    xxxx     xxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Source: FBI




                           - 97 -

              REDACTED FOR PUBLIC RELEASE
                                  REDACTED FOR PUBLIC RELEASE



                                                                                               APPENDIX 6

                             INDEPENDENT VERIFICATION AND VALIDATION
                                   ISSUES AND RECOMMENDATIONS

         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

              Issue/Risk                               Recommendation                              Status
1    xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxthey      Xxxxxx-
     xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         Xxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx          Xxxxxx-
     xxxxxxxxxxxxxxxxxxxxxxxxxx                                                                  Xxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxinto
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxonce
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.         Xxxxxx-
                                                                                                 Xxxxxxxxxx




                                                 - - 98 - -

                                  REDACTED FOR PUBLIC RELEASE
                                  REDACTED FOR PUBLIC RELEASE



             Issue/Risk                                 Recommendation                         Status
2   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxx-
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Xxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx.

3   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx.
    xxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

    xxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx   (Xxxxxx Xxxxxx)
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                 - - 99 - -

                                  REDACTED FOR PUBLIC RELEASE
                                 REDACTED FOR PUBLIC RELEASE



            Issue/Risk                                 Recommendation                          Status
    xxxxxxxxxxxxxxxxxxxxxxxxxx      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
4   xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx:

                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                               Xxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxxxx
                                                                                             Xxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxxxx
                                                                                             Xxxxxxxxxx




                                               - - 100 - -

                                 REDACTED FOR PUBLIC RELEASE
                                  REDACTED FOR PUBLIC RELEASE



             Issue/Risk                                  Recommendation                       Status
5   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Xxxxxx –
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.   Xxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx.



6   xxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       Xxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       Xxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                 - - 101 - -

                                  REDACTED FOR PUBLIC RELEASE
                                  REDACTED FOR PUBLIC RELEASE



             Issue/Risk                                  Recommendation                        Status
7   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.       Xxxx
    xxxxxxxxxxxxxxxxxxxxxxxxxx.
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                               Xxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Xxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                                Xxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                               Xxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Xxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                            Xxxxxx Xxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                               Xxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Xxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                 - - 102 - -

                                  REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                  Recommendation                     Status
8    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx


9    xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx,   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.

10   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx,   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                  - - 103 - -

                                   REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                Recommendation                           Status
11   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx         Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.




12   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.       Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.       Xxxx

                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxStart   Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


13   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.



                                                  - - 104 - -

                                   REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                 Recommendation                      Status
14   xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx

     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                             Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxe
     xxxxxxxxxxxxxxxxxxxxxxxxxx                                                              Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx                                                              Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx)
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx



                                                 - - 105 - -

                                   REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                Recommendation                          Status
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx-   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.       Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
15   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx

16   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

17   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx                                                              Xxxxxx Xxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                                                             Xxxxxx Xxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

18   xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.   Xxxxxx Xxxxxx

19   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                  - - 106 - -

                                   REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                  Recommendation                     Status
20   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.   Xxxx




21   xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx.   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx




                                                  - - 107 - -

                                   REDACTED FOR PUBLIC RELEASE
                                      REDACTED FOR PUBLIC RELEASE



              Issue/Risk                                     Recommendation                     Status
22   xxxxxxxxxxxxxxxxxxxxxxxxxx       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
     xxxxxxxxxxxxxxxxxxxxxxxxxx       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxl
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx    Xxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                      xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

             Source: IV&V Contractor Reports




                                                     - - 108 - -

                                      REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE


                              APPENDIX 7

 RISK REGISTER OPEN RISKS




 INFORMATION REDACTED




           - 109 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 110 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 111 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 112 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 113 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 114 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 115 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 116 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 117 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 118 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 119 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 120 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 121 -

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




 INFORMATION REDACTED




           - 122 -

REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


                                                          APPENDIX 8

        PMO STAFF POSITIONS AND RESPONSIBILITIES

Program Leadership

      The Sentinel program leadership consists of a program manager
and a deputy program manager who are responsible for ensuring the
overall success of the Sentinel project.

Direct Reporting Staff

     The direct reporting staff includes the following:

        •   Contract Officer — oversees all Sentinel contract
            executions, including contractor task-order compliance,
            prepares change orders or other contract modifications as
            required, and also monitors contractual performance.

        •   Contract Officer Technical Representative — assists
            Contracting Officer in technical oversight.

        •   General Counsel — provides legal advice to the program
            manager and deputy program manager.

        •   Communications — assists the program manager in
            relaying program information.

Organization Change Management

       Organizational Change Management (OCM) is responsible for
preparing Sentinel users to accept and utilize Sentinel’s capabilities.
OCM provides a formal path for receiving new user-originated
requirements during the implementation of the system. The OCM
team includes special agents, intelligence analysts, and professional
staff who are on temporary duty assignments to the Sentinel program.

Business Management

      The Business Management organizational unit develops and
maintains program investments, budget, and spending plans. The
team also monitors, analyzes, and reports on the program’s Earned
Value Management status.

                                - 123 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


Administrative Support

     The Administrative Support staff directs the administrative and
support services required by the Program Management Office.

Program Integration

      The Program Integration staff is responsible for developing and
maintaining the Sentinel project baseline and then tracking progress
and risks against that baseline. This team is also responsible for
coordinating external interfaces development plans and dependency
schedules.

System Development.

      The System Development staff is responsible for the overall
system design and its implementation increments. This team is also
responsible for the technical performance outcome of the Sentinel
program and is accountable for the systems requirements and the
delivery of a system whose technical performance meets users’
expectations.

Transition

       The Transition team is responsible for all activities associated
with the transition of Sentinel phase capability from its development to
eventual use by the FBI user community.

Operations and Maintenance

       The Operations and Maintenance staff is responsible for the
operations and maintenance of the deployed Sentinel capabilities until
it reaches full operation capability. At which time this responsibility
will be transferred to the FBI’s Information Technology Operations
Division.




                                 - 124 -

                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


                                                                                APPENDIX 9

   THE FEDERAL BUREAU OF INVESTIGATION’S RESPONS TO THE
                      DRAFT REPORT
                                              U.S. Department of Justice



                                              Federal Bureau of Investigation


                                              Washington, D. C. 20535-0001

                                              August 22, 2007

The Honorable Glenn A. Fine
Inspector General
Office of the Inspector General
U. S. Department of Justice
Room 4322
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530

            Re: WORKING DRAFT AUDIT REPORT - SENTINEL AUDIT III:
                 STATUS OF THE FEDERAL BUREAU OF INVESTIGATION'S
                 CASE MANAGEMENT SYSTEM

Dear Mr. Fine:

            The Federal Bureau of Investigation (FBI) appreciates
your efforts, and those of your staff, in assessing the progress
of our SENTINEL Program. As always, the FBI welcomes your
observations and final recommendations.

            We have completed our review of your draft report
entitled "SENTINEL Audit III: Status of The Federal Bureau of
Investigation's Case Management System." Enclosed is the FBI's
response to your preliminary findings and recommendations. The
response has undergone a classification review and sensitivity
review and is enclosed with this letter.

            Please feel free to contact me on 202-324-6165, or Ms.
Robin Davis of my staff should you have any questions. Ms. Davis
may be reached on (202) 324-2866.


                                          Sincerely,




                                          Zalmai Azmi
                                          Chief Information Officer

Enclosure
                                    - 125 -

                    REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

                            Federal Bureau of Investigations (FBI)
                        Response to the Department of Justice (DOJ)
                 Office of the Inspector General (OIG) Draft Audit Report
             SENTINEL Audit III: Status of the Federal Bureau of Investigation's
                                 Case Management System


Responses to Recommendations:

The FBI concurs with the recommendations of the DOJ OIG's Audit Report and has
already taken positive measures to incorporate the recommendations in Program
Management Office (PMO) operations. The following comments are provided:

Finding 1: Phase 1, Schedule, Cost, and Performance:

Recommendation #1: Reconsider the four-phase approach to developing SENTINEL to
limit the scope of future phases to allow them to be completed in 9 months or less.

        FBI Response: Completed. During a meeting with the DOJ OIG, the FBI OCIO,
the SENTINEL Program Manager (PM), SENTINEL Deputy PM, and SENTINEL System
Development Unit Chief on April 23, 2007, the philosophy of waterfall and incremental
methodologies was discussed based on Phase 1 lessons learned. At that time, the FBI
informed the DOJ OIG that it planned to modify its methodology to provide users with
capabilities at a more rapid pace rather than delivering all capabilities at the end of a phase.

         In that regard, Lockheed Martin (LM), with PMO participation, has been developing
the strategic plan which will implement an incremental development and delivery schedule.
This plan is scheduled to be finalized and delivered to the FBI on August 31, 2007.

Recommendation #2: Negotiate decreases in the cost of future phases if requirements are
deferred in that phase.

       FBI Response: Agree. The SENTINEL PMO is currently awaiting an Engineering
Change Proposal, due on August 31, 2007. At that time, the costs for Phases 2-4 will be
presented, discussed and, if necessary, negotiated with LM.




                                               - 126 -

                           REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

Finding 2: Phase 2 Planning and Management Issues:

Recommendation #3: Collect and report EVM data for both the performance
measurement baseline approved at the integrated baseline review as well as the revised
performance measurement baseline.

       FBI Response: Completed. On March 29, 2007, the FBI and LM agreed to report
Earned Value Management (EVM) performance against both the original Integrated
Baseline Review (IBR) and subsequent baseline revisions, if any. This agreement will be
implemented as part of the new strategic plan for Phases 2- 4.

Recommendation #4: Reconcile the discrepancy between the costs Lockheed Martin
reported for Phase 1 with Lockheed Martin's EVM data, and develop and implement
policies and procedures to prevent any future discrepancies.

        FBI Response: Agree. On June 14, 2007, the PMO "stood down" EVM reporting and
has not accepted any LM invoices pending LM's disclosure of the reasons for cost discrepancies
and an acceptable action plan to prevent further occurrence. On August 7, 2007, LM disclosed
the reasons causing the discrepancies and proposed an action plan. The PMO is currently
evaluating those reasons and the action plan.

Recommendation #5: Develop and implement effectiveness measures for all risk mitigation
plans.

        FBI Response: Agree. SENTINEL is considering methods on how the effectiveness of
the mitigation strategy would be measured.

Recommendation #6: Ensure that personnel assigned to manage SENTINEL risks devote
sufficient time to the risk and have the experience and authority to adequately manage the
risk.

        FBI Response: Agree. Each SENTINEL risk is assigned to a Risk Working Group in
which experienced personnel with diverse qualifications have sufficient time and authority to
adequately manage the risk. The dedicated Risk Coordinator maintains risks and action item
status in the Risk Register.

Recommendation #7: Document and track project issues, risks that have occurred, as well
as the plan to resolve those issues and their ultimate resolution.

         FBI Response: Agree. The PMO agrees to track and report on issues (including realized
risks) that have a material impact on the program. Material impact will be defined as any issue
that has a "Medium" or higher impact (cost, schedule, technical, or business impact) as specified
in the FBI Risk Management guidance documents and the SENTINEL Risk Management Plan.




                                             - 127 -

                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

Recommendation #8: Implement policies and procedures to ensure that any changes to the
Bill of Materials receive proper authorization and that the changes can be reconciled to the
Bill of Materials submitted in Lockheed Martin's proposal.

        FBI Response: Agree. The PMO has developed an updated Bill of Materials Deviation
Policy and Procedure to ensure any changes are fully vetted by appropriate LM and PMO review
boards prior to approval. As proposed, changes to the Bill of Materials will pass through
appropriate decision boards including the Configuration and Change Management Board
(CCMB) of LM Financial, the PMO CCMB, the PMO's Business Management Unit (BMU) and
internal Finance Division boards. That document is currently in the review and approval process.

Recommendation #9: Implement policies and procedures to ensure that materials
contained in Lockheed Martin invoices can be reconciled to the bill of materials or an FBI
approval for a change to the bill of materials.

        FBI Response: Agree. As of June 2007, the PMO's BMU now requires LM Financial
to map their invoices to the Bill of Materials. LM was required to implement this new procedure
prior to the acceptance of any invoices by the PMO.




                                            - 128 -

                         REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE


                                                          APPENDIX 10

    OFFICE OF THE INSPECTOR GENERAL’S ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT


      Pursuant to the OIG’s standard audit process, the OIG provided
a draft of this audit report to the FBI on August 6, 2007, for its review
and comment. The FBI’s August 22, 2007, response is included as
Appendix 9 of this final report. The FBI concurred with the nine
recommendations in the audit report. Our analysis of the FBI’s
response to the nine recommendations is provided below.

       The OIG also provided a draft of this report to Lockheed Martin
for its review and comment. The comments Lockheed Martin provided
were incorporated into this final report as appropriate.

Response to Recommendations

1. Resolved. This recommendation is resolved based on the FBI’s
   statement that it plans to modify its methodology to provide users
   with capabilities at a more rapid pace rather than delivering all the
   capabilities at the end of a phase. Further, Lockheed Martin, with
   PMO participation, is developing a strategic plan to implement an
   incremental development and delivery schedule, due on August 31,
   2007. This recommendation can be closed when we receive
   documentation that the FBI has revised its four-phase approach for
   developing Sentinel to limit the scope of future phases to allow
   them to be completed in 9 months or less.

2. Resolved. In response to this recommendation, the FBI stated
   that the Sentinel PMO is currently awaiting an Engineering Change
   Proposal, due on August 31, 2007. At that time, the costs for
   Phases 2-4 will be negotiated, if necessary, with Lockheed Martin.
   This recommendation was based on our concern that when
   requirements are deferred from a phase, cost adjustments should
   be made to that phase accordingly. This recommendation can be
   closed when the FBI provides documentation of a policy requiring
   negotiations to reduce the cost of future phases if requirements are
   deferred from one phase to a later phase. We will continue to
   monitor the FBI’s implementation of this recommendation over
   future project phases.


                                  - 129 -

                  REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


3. Resolved. This recommendation is resolved based on the FBI’s
   stated agreement with Lockheed Martin to report EVM performance
   against both the original integrated baseline review and subsequent
   baseline revisions, if any. Additionally, this agreement will be
   implemented as part of the new plan for Phases 2-4. This
   recommendation can be closed when we receive documentation
   that EVM data is being collected and reported for both the
   performance measurement baseline approved at the integrated
   baseline review as well as the revised performance measurement
   baseline.

4. Resolved. The FBI agrees with this recommendation and stated
   that the Sentinel PMO “stood down” EVM reporting on June 14,
   2007, and has not accepted any Lockheed Martin invoices pending
   disclosure of the reasons for cost discrepancies and an acceptable
   action plan to prevent further occurrence. The FBI also stated that
   on August 7, 2007, Lockheed Martin disclosed the reasons causing
   the discrepancies and proposed an action plan. The FBI is currently
   evaluating those reasons and the action plan. This
   recommendation can be closed when the FBI provides
   documentation reconciling the discrepancies between the costs
   Lockheed Martin reported for Phase 1 with Lockheed Martin’s EVM
   data and also provides documentation that policies and procedures
   have been implemented to prevent any future discrepancies.

5. Resolved. This recommendation is resolved based on the FBI’s
   statement that it is considering methods on how the effectiveness
   of the mitigation strategy would be measured. This
   recommendation can be closed when the FBI provides
   documentation demonstrating the implementation of effectiveness
   measures for all risk mitigation plans.

6. Resolved. The FBI agrees with this recommendation and stated
   that each Sentinel risk is assigned to a Risk Working Group in which
   experienced personnel with diverse qualifications have sufficient
   time and authority to adequately manage the risk. Additionally, the
   dedicated Risk Coordinator maintains risks and action item status in
   the Risk Register. This recommendation can be closed when we
   receive documentation demonstrating that the personnel assigned
   to manage risks devote sufficient time to the risks and have the
   experience and authority to adequately manage the risks.

7. Resolved. In response to this recommendation, the FBI stated
   that the PMO agrees to track and report on issues that have a
                                - 130 -

                 REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


   material impact on the Sentinel program (i.e., any issue that has a
   “medium” or higher impact as specified in the FBI Risk Management
   guidance documents and the Sentinel Risk Management Plan). This
   recommendation can be closed when we receive documentation
   demonstrating that project issues are being documented and
   tracked as well as the plans to resolve those issues and their
   ultimate resolution.

8. Resolved. In response to this recommendation, FBI stated that
   the PMO has developed an updated Bill of Materials Deviation Policy
   and Procedure to ensure any changes are fully vetted by
   appropriate Lockheed Martin and PMO review boards prior to
   approval. This policy is currently in the review and approval
   process. This recommendation can be closed when we receive
   documentation demonstrating that procedures are in place to
   ensure that any changes to the Bill of Materials receive proper
   authorization and that the changes can be reconciled to the Bill of
   Materials submitted in Lockheed Martin’s proposal.

9. Resolved. The FBI agrees with this recommendation and stated
   that as of June 2007, the PMO has required Lockheed Martin to map
   its invoices to the Bill of Materials. Additionally, Lockheed Martin
   was required to implement this new procedure prior to the
   acceptance of any invoices by the PMO. This recommendation can
   be closed when we receive documentation demonstrating that the
   FBI has implemented policies and procedures to ensure that
   materials contained in the Lockheed Martin invoices can be
   reconciled to the Bill of Materials or an FBI approval for a change to
   the Bill of Materials.




                                 - 131 -

                 REDACTED FOR PUBLIC RELEASE
